<html>
<title> - PUBLIC LANDS AND FORESTS LEGISLATION</title>
<body><pre>[Senate Hearing 111-730]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-730
 
                  PUBLIC LANDS AND FORESTS LEGISLATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO
                                     

                            S. 3294

                            S. 3310

                            S. 3313



                                     

                               __________

                             JUNE 16, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
62-594                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Crapo, Hon. Mike, U.S. Senator From Idaho........................     4
Dart, Bill, Representative, Idaho Recreation Council.............    23
Edoff, Scott, South Dakota Rancher, Hermosa, SD..................    43
Ensign, Hon. John, U.S. Senator From Nevada......................     6
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    14
Johnson, Hon. Tim, U.S. Senator From South Dakota................     1
Johnson, Rick, Executive Director, Idaho Conservation League, 
  Boise, ID......................................................    29
O'Brien, Dan, South Dakota Rancher, Hermosa, SD..................    40
Reid, Hon. Harry, U.S. Senator From Nevada.......................    22
Risch, Hon. James E., U.S. Senator From Idaho....................     3
Rountree, Carl, Director, National Landscape Conservation System, 
  Bureau of Land Management, Department of the Interior..........    10
Simpson, Hon. Michael K., U.S. Representative From Idaho.........     8
Sisolak, Steve, Commissioner, Board of County Commissioners, 
  Clark County, NV...............................................    19
Thune, Hon. John, U.S. Senator From South Dakota.................     7

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    53


                  PUBLIC LANDS AND FORESTS LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 16, 2010

                                       U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

OPENING STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH 
                             DAKOTA

    Senator Johnson [presiding]. Senator Wyden will be here 
shortly, but asked me to start this hearing in his absence.
    The purpose of this hearing is to consider three bills 
pending before the Subcommittee on Public Lands and Forests. 
They are S. 3294, the Central Idaho Economic Development and 
Recreation Act, sponsored by Senators Crapo and Risch.
    S. 3310, my legislation, to designate certain wilderness 
areas in South Dakota.
    S. 3313, the Sloan Hills Withdrawal Act, sponsored by 
Senators Reid and Ensign.
    Several of our colleagues have asked to speak on these 
bills today. In addition we have representatives from the BLM 
and Forest Service and a panel of five witnesses from South 
Dakota, Nevada and Idaho testifying this afternoon. So we have 
a lot of ground to cover in a limited amount of time.
    I'd like to take a few minutes to speak on S. 3310. Then 
following that, recognize Senator Barrasso for any opening 
statement he would like to make.
    I thank Senator Wyden for holding today's hearing and the 
opportunity to consider landmark legislation protecting 
America's Great Plains grasslands. I want to welcome Dan 
O'Brien and Scott Edoff. Thank them for taking the time to 
travel to Washington, DC, to share their perspectives on these 
important matters.
    In May I introduced the Tony Dean Cheyenne River Valley 
Conservation Act to establish the first grasslands wilderness 
area in the U.S. and provide the public with a unique 
experience to enjoy these public lands. These lands are already 
managed as wilderness. The Cheyenne River Valley and the 
Buffalo Gap National Grassland includes some of the finest 
prairie wilderness in the U.S. Located among isolated buttes 
and the wide Cheyenne River Valley these lands remain 
undisturbed in the form that the native people, who first 
inhabited these lands long ago would recognize.
    The effort to protect these ancient lands is citizen driven 
and buttressed, by the support of groups representing over 
100,000 South Dakotans. In 2002 the U.S. Forest Service under 
the Bush Administration recognized the value of part of 
wilderness in the Buffalo Gap and recommended certain lands for 
inclusion in the National Wilderness Prevention System. I have 
heard from a number of people regarding wilderness over the 
years.
    Sportsmen have contacted me describing the unique 
experience of hunting in areas far from the reaches of modern 
civilization. They talk about experiencing hunting as previous 
generations did and wanting to pass along that experience to 
their kids and grandkids. I have also heard from 
conservationists about the value of this area for native 
prairie plants and wildlife. Others have pointed to the 
potential economic benefits of wilderness as these outstanding 
lands draw in travelers who in turn contribute to the regional 
economy.
    My bill is a modest proposal, less than 10 percent of the 
lands in the Buffalo Gap National Grassland. I have made 
several compromises that will enhance the public enjoyment 
while allowing for common sense management and respect for 
ranchers holding permits to run cattle on these lands. Grazing 
is an important component of the grassland ecosystem and this 
wilderness legislation ensures continuation of grazing for 
those who have made their living off these lands.
    Sound management and long standing restrictions on 
motorized travel have preserved the outstanding natural quality 
of these areas. My legislation provides the Forest Service the 
tools to manage the lands to maintain their character in 
perpetuity. The bill allows for the control of fire, insects 
and invasive species. It also ensures that the Forest Service 
can continue to appropriately manage prairie dog populations on 
these lands.
    In most respects I have followed the Forest Service 
recommendations in the purpose of preserving important access 
to the areas. I am pleased that the Forest Service supports 
this legislation. By designating a portion of the Cheyenne 
River Valley as wilderness it is possible to protect its 
undeveloped character from encroaching motorized recreation 
while providing hunters, rock collectors, campers and hikers a 
new way to enjoy prairie grasslands.
    In closing I want to share with the committee why I came to 
name this bill in recognition of my long time friend and great 
advocate for South Dakota's open spaces, the late Tony Dean. It 
is his words in describing the purposes of creating a 
grasslands wilderness bill that I turn to for the best 
explanation for why this bill is necessary. Tony said that, 
``let's relate wilderness from the perspective of a hunter. It 
does not take a rocket scientist among hunters to recognize 
that once the opening salvo takes place on opening morning of 
the big game seasons no matter where you live the best hunting 
is almost always found far from the nearest road.''
    That sentiment is what, in part, this legislation is aimed 
at creating. A place where the public and future generations 
can enjoy a unique wilderness experience found in a few places 
outside my great State of South Dakota.
    Before turning to the first panel of witnesses, let me 
recognize Senator Risch.

        STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. Thank you very much, Senator. Welcome 
everyone. We're here today to hear about three proposals. The 
one, of course, most interest to me is S. 3294 which is the 
CIEDRA, what we call in Idaho the CIEDRA bill. Which has been 
crafted and worked on by Senator Simpson over about a decade 
now. Is that correct Senator--or Congressman Simpson?
    Mr. Simpson. Yes.
    Senator Risch. The time flies, doesn't it when you're 
having fun?
    You know in Idaho we have the largest block, I believe, of 
wilderness in the continental United States of contiguous 
wilderness area. It was put in place a number of decades ago. 
It was done through a process that's very much different than 
the way we do these things today. That is it was done from the 
top down.
    Today and after those initial forays into resolving the 
land use issues on these types of Federal lands really the 
process was high centered for a number of decades. Recently 
again, we have waded into attempting to do the kinds of things 
that this bill does. That is dealing with the use of Federal 
lands. But we did it a different way. We did it from the bottom 
up. We did it a collaborative way. We did it in a way that 
reached consensus as far as the land is concerned.
    Senator Crapo, who is with us today, did that in the Canyon 
lands properties in Idaho. Certainly that wound up being a 
great success. It was difficult. These things are difficult. 
They're not impossible. But they are difficult.
    I had the opportunity to do that when I was Governor with 
9.2 million acres of road less. We have the only Roadless Rule 
in America. It was developed, again, from the bottom up.
    It was a consensus driven process. I worked with 
conservation groups. I see Rick Johnson is going to be here to 
testify on this matter representing what I think is probably 
our flagship conservation group in Idaho, the Idaho 
Conservation League.
    We worked with users of the land both motorized users, non-
motorized users, from all the other stakeholders, industry and 
citizens who just have a general interest in seeing how their 
property is used in the State. Through this process we were 
able to really resolve most of the, if not all of the issues 
regarding these properties. A resolution, which was a consensus 
resolution, was adopted. The, as I said, these things are 
difficult, but not impossible.
    The 9.2 million acres I dealt with are probably some of the 
most diverse properties going from very magnificent peaks all 
the way to general forest lands. We were able to sit down and 
go through them a piece at a time and give and take to the 
point where there was consensus. So I know that it's possible.
    Congressman Simpson deserves a tremendous amount of 
gratitude of the people of the State of Idaho in recognition 
and appreciation for the work that he has done on the CIEDRA 
bill. As I understand it, however, there are still some pending 
issues that are going to need, perhaps, some more of the 
collaborative process and in order to reach this consensus that 
we've talked about. I'm interested today in hearing how we're 
going to get there.
    I understand that we're going to hear testimony about the 
good parts of the bill, the bad parts of the bill and all that. 
I wasn't involved in the details of it. I don't think Senator 
Crapo was, perhaps more than I was, but I wasn't. So, but 
Representative Simpson was involved in that. He knows this 
backward, forwards and what have you.
    Today, from my standpoint, I'm interested more in hearing 
on the procedural basis, how we get to the consensus that we 
need in order to get these adopted. So, thank you very much. 
With that, I yield back.
    Senator Wyden [presiding]. Mr. Chairman, thank you. I was 
late. I very much appreciate your stepping in. Why don't we go 
right to our witnesses?
    We've got a distinguished group. Know I've kept them 
waiting. With your pleasure why don't we just go right ahead to 
them? Colleagues all.
    Senator Crapo, let's start with you.

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Alright. Thank you very much. Thank you 
Chairman Johnson and Chairman Wyden.
    Senator Wyden. There are chairmen everywhere.
    Senator Crapo. That's right. Senator Risch, I appreciate 
your, not only your service on this committee, but your 
participation in this process as we move forward. I appreciate 
the invitation to address the subcommittee regarding S. 3294, 
the Central Idaho Economic Development and Recreation Act, also 
known as Senator Risch indicated, as CIEDRA in Idaho.
    I very much appreciate the opportunity to address the 
subcommittee today. I also want to thank our witnesses for 
being here.
    Rick Johnson, the Executive Director of the Idaho 
Conservation League and Bill Dart, representing the Idaho 
Recreation Council. Rick has been in his position for 15 years. 
Bill has a long history in land use advocacy over the last 25 
years. I'm very pleased that these two men could join us today.
    Nestled in the rugged, pristine expanse of Central Idaho 
are the Boulder/White Cloud Mountains located in and adjacent 
to the Sawtooth National Recreation Area and surrounded by the 
communities of Sun Valley, Ketchum, Stanley, Challis, Mackay 
and Clayton, the Boulder/White Clouds are truly wild and 
exquisite. The area has significant value for the many groups 
that visit it every year from hunters to hikers to off-road 
vehicle users and others. In addition to its diversity of 
elevations and habitat the biological diversity is incredible 
with spawning salmon and steelhead and big game such as elk, 
mountain goat, big horn sheep and black bear, among others. 
Simply put, this area is one of Idaho's greatest assets.
    The discussion over how to most effectively manage and 
protect the Boulder/White Clouds dates back decades. In the 
1970s when Republican Senator Jim McClure and Democrat Governor 
Cecil Andrus found themselves in the middle of a spirited 
debate over how to balance development, recreation and resource 
extraction with conservation and environmental protection in 
the interior West. They took a stab at it.
    Faced with the pressures of development and the increasing 
popularity of the area for many of the user groups inside and 
outside Idaho, interest groups, elected officials and everyday 
citizens began discussing the need to manage the area in a way 
that acknowledged and protected the many uses of these lands 
while also preserving it for future generations by protecting 
its pristine nature. Senator McClure and Governor Andrus worked 
across party lines and made two attempts during the 1980s to 
find a way forward. But those efforts did not succeed.
    I got involved in 1993 shortly after I was sworn in as the 
Representative for Idaho's Second Congressional District. I 
held collaborative meetings across the State in an effort to 
get this done. While we were hopeful at the beginning the 
political dynamics changed and we faced a stalemate for years.
    In 1999 after I came to the Senate, Representative Mike 
Simpson, who was at that time the newly elected Representative 
of the Second District decided to take another stab at it. Mike 
decided to start from scratch and see if he could bring the 
various interests together to forge an agreement that the 
parties could support. These efforts have taken years. I want 
to acknowledge Mike Simpson, his staff and their partners in 
this process for their hard work.
    While this bill is not perfect, and does need some more 
work, Senator Risch and I are going to continue working with 
the stakeholders from the motorized recreation community to 
address access issues. We will also continue working with the 
State of Idaho to address its concerns regarding the value of 
and access to State land in-holdings and the need to 
effectively manage wildlife within the proposed wilderness 
areas, among other issues. On that note, Mr. Chairman, Idaho 
Governor Butch Otter has provided Senator Risch and me with a 
letter describing the State of Idaho's concerns with the 
legislation. I would ask that that letter be made a part of the 
record.
    Senator Wyden. Without objection, it's so ordered.
    Senator Crapo. Thank you. Like you, Mr. Chairman, I believe 
that public land management issues require locally based, 
collaborative efforts in order to find true, sustainable, 
solutions to the many challenges we face. These decisions ought 
to be made as a result of on the ground, collaborative work 
between all of the parties involved and affected.
    For example, I worked for many years on a similar project 
in Southwestern Idaho that Senator Risch mentioned. Now I'm 
working on another in North Central Idaho. So I know personally 
how difficult this task is.
    We have to undertake these efforts together in a consensus 
based manner. If we do not, we will never find our way forward. 
You and your staff know this all too well, Mr. Chairman, as is 
evidenced by your recent work to resolve forest management 
challenges in Eastern Oregon, for example.
    To conclude, I thank our witnesses again for joining us 
today. I also thank Chairman Bingaman and Ranking Member 
Murkowski for working with me and Senator Risch on this bill. I 
also thank their staffs, who have worked closely with me and my 
staff on this and other bills over the years. David Brooks and 
Scott Miller with Chairman Bingaman and Frank Gladics with 
Ranking Member Murkowski have treated my office with great 
respect and have put in many hours of hard work on legislation 
to address public land issues in Idaho.
    I greatly appreciate them. Look forward to continuing our 
work together. Again, I want to thank you, Mr. Chairman, for 
inviting me to speak here today and for holding this hearing.
    Senator Wyden. Senator Crapo, thank you. I know you put a 
lot of time and effort into this. We'll work closely with you.
    Here's our challenge. We've got 12 minutes and we've got 
two votes. So we could have each of you take 4 minutes if you 
wanted to hypothetically, you know, do that. I see----
    Senator Ensign. I'll try to do mine in three.
    Senator Wyden. Perfect. Let's try.
    Senator Ensign. Ok.
    Senator Wyden. Senator Ensign, welcome.

          STATEMENT OF HON. JOHN ENSIGN, U.S. SENATOR 
                          FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman and other members 
of the panel. I'm here to testify on the Sloan Hills Withdrawal 
Act of 2010. I'd also like to thank Senator or Commissioner 
Sisolak from my State for coming out here. He'll be testifying 
on this bill as well. It indicates how much community support 
there is for the bill in opposition to what would be going on 
if we don't withdraw this land.
    About 640 acres of BLM land is what we're talking about 
here. If you think about it it's a donut hole within the city 
of Henderson, the third largest city in Nevada. We're talking 
about something that would be used as a gravel pit. That's what 
the proposed use of it is.
    The people who live near there, their anthem is a master 
plan development that is right near there, about 12,000 
residents. They are in overwhelming opposition. They have a 
petition where 5,500 people have signed that petition opposing 
the gravel pit there. They're supporting the legislation to 
withdraw this land from being used as a gravel pit.
    These folks in this area would be impacted by noise, dust, 
blasting, digging, traffic and obviously, decreasing home 
values in an area where home values have already taken a major 
hit. So, Mr. Chairman, I hope that we can move this 
legislation. It's important.
    It's supported by the entire Nevada delegation. I would say 
that it has broad support, other than obviously, the people 
interested in having a gravel pit there, has really brought 
support across the areas that are affected in Nevada. I will 
keep my testimony that short so you can get on with the rest of 
them. But know that we really need this legislation.
    Senator Wyden. Thank you, Senator Ensign. I know Senator 
Reid feels very strongly about this as well. He's talked to me 
about it. That's a priority. We'll work very closely with you 
all and get it moving.
    Senator Thune, welcome.

  STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, members of the 
committee. I want to thank the committee for the opportunity to 
share a few words on S. 3310 which is a bill that would 
designate 48,000 acres of Federal lands within the existing 
Buffalo Gap National Grasslands as wilderness. In particular I 
want to introduce Mr. Scott Edoff of Hermosa, South Dakota to 
the committee today. He will be testifying on a later panel.
    Scott and his wife, Veronica ranch Southeast of Rapid City. 
The Edoff Family has been grazing livestock for four 
generations in the proposed wilderness area. I would argue, Mr. 
Chairman, that nobody cares more about health of the Buffalo 
Gap National Grasslands than previous, current and future 
generations of the Edoff Family. I thank him for traveling all 
the way from Western South Dakota to testify before this 
committee today.
    Scott's testimony before the committee reflects not only 
his family's views but also the concerns of 30 government, 
trade, recreation, tourism and agriculture associations that 
have weighed in against the proposed wilderness designation in 
South Dakota. I think his testimony is also compelling because 
it echoes the concerns of a great number of the current grazing 
permit holders within the Buffalo Gap National Grasslands. 
Growing up in Murdo, which is just east of the Buffalo Gap 
National Grasslands, I have met with several of these ranchers 
and local organizations who are concerned by the potential long 
term impacts of a permanent wilderness designation.
    While I appreciate Senator Johnson's intention with this 
legislation I share their concerns of how such a designation 
would ultimately impact pest management, natural disaster 
mitigation, grazing permits and recreational activities within 
the proposed area. Along with Governor Rounds, I'm also highly 
concerned about how a wilderness designation in the Buffalo Gap 
Grassland would impact existing low altitude training for the 
South Dakota Army National Guard, notwithstanding the 
exemptions that are stipulated in the legislation. Currently 
there are ample land use restrictions already in place that 
have successfully kept this area in pristine condition for 
generations. I would strongly caution this committee against 
imposing additional restrictions against the will of the local 
stakeholders.
    In closing, Mr. Chairman, I believe these types of land use 
decisions should be made from the bottom/up. Like many of the 
past wilderness designations this committee has considered 
permanent wilderness designation should enjoy broad local 
support from a diverse group of stakeholders. Unfortunately 
that degree of broad support does not exist today for the lands 
and the individuals who would be impacted by S. 3310.
    Finally, Mr. Chairman, while Governor Rounds could not join 
me in person here today to reiterate his concerns on behalf of 
the State of South Dakota, I would like to submit for the 
record a letter from Governor Mike Rounds expressing his 
opposition to this bill.
    Senator Wyden. Without objection it's so ordered. We'll 
follow up on your views. Of course your views and Senator 
Johnson's views are very important to the subcommittee. We'll 
follow up with you.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Wyden. Mike Simpson, welcome. Good to see you and--
--
    Mr. Simpson. Nice to be over here. Thank you, Mr. Chairman.
    Senator Wyden. Congressman, glad you're here. Go ahead.

STATEMENT OF HON. MICHAEL K. SIMPSON, U.S. REPRESENTATIVE FROM 
                             IDAHO

    Mr. Simpson. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify today on a bill that, as Senator Crapo 
and Senator Risch mentioned I've been working on for some 10 
years since I got into Congress. It's been a conflicted area 
that I think needs to be resolved. I've thought that. I've 
worked with local communities, with conservation groups, 
recreation groups, with ranchers and others to try to solve a 
problem that's existed for many, many years in Southeast Idaho 
and that is land management in the Boulder/White Clouds area.
    As Senator Crapo mentioned this attempt has been made many 
times by many different individuals. Things are different 
today. Lawsuits, national monument threats, ESA protections, 
Fish and Wildlife, as well as a myriad of other restrictions 
and conflicts have forced all parties to reconsider their 
approach to this and how they might need to compromise in order 
to reach a solution of how we manage these public lands called 
the Boulder/White Clouds.
    I've sought to be inclusive and to recognize the needs of 
the surrounding communities, motorized users, the ranchers who 
live in the area and those who recreate in the Boulder/White 
Clouds region and the conservation groups. The old approach of 
wilderness, of sacrificing the needs of one individual or 
specific user group to benefit the others will not work 
anymore. I began this process with the assumption that those 
who are affected by wilderness creation must be part of the 
solution. In short the needs of the people who live and 
recreate in the area are as important as the lines that we draw 
on a map.
    Let me briefly say what this bill does. This bill releases 
four wilderness study areas that are currently wilderness study 
areas, treated as de facto wilderness, releases them, a total 
of 130,453 acres back to general, multiple use. Most people 
forget that. They think we're just creating wilderness. We are 
actually releasing some wilderness study areas back to general, 
multiple use.
    It also creates three new wilderness areas, the Hemingway-
Boulder Wilderness, the White Cloud Wilderness and the Jerry 
Peak Wilderness, totaling 332,000 acres. Grants have already 
been secured based on this legislation for Custer County and 
the surrounding Boulder/White Clouds' communities for economic 
development, a community center, a county health clinic, EMT 
support and improvements to Tail Creek Highway. Funding has 
already been secured for the Sawtooth National Recreation for 
trail maintenance and improvements including maintenance and 
improvements of existing motorized trails and to provide 
primitive wheelchair access and for acquiring the land to build 
a mechanized bike snow machine access trail between Redfish 
Lake and Stanley.
    Through the bill, though the bill selected East Fork--
through the bill selected East Fork permitees may be eligible 
to voluntarily, voluntarily I emphasize, retire their grazing 
permits in exchange for compensation from private resources. It 
provides land conveyances in Custer and Blaine Counties for 
public purposes including use for fire stations, bus school 
turn arounds, parks, campgrounds, a shooting range, waste water 
transfer site and a water tower and water treatment facility. 
It keeps Germania Creek trail which has been really the source 
of a lot of the conflict over the years. It keeps that corridor 
open to motorized travel.
    It closes the Grand Prize trail quarter to motorized and 
mechanized travel. The Frog Loop Lake is excluded from 
wilderness and will remain open under its current use for 
motorized and mechanized travel. Snowmobilers will maintain 
their access to the traditional high elevation snow machine 
areas in the Fourth of July Washington Basin Champion Lakes and 
Warm Springs area it also creates a primitive, non-paved, 
wheelchair accessible trail into wilderness, first one ever.
    Additionally, I'd like to mention as Senator Risch 
mentioned, that there are Governor Otter has sent a letter and 
he has some concerns and is opposed to the legislation because 
of the concerns he's listed. I'd like to address those for just 
a minute.
    His first one is about conveyances of these public lands to 
these local communities and so forth and his concern that they 
won't be conveyed and so forth and that of the State parcels 
that are within the Jerry Peak Wilderness.
    We have put language in the legislation which directs the 
Federal Government to negotiate with the State for the transfer 
either of those lands to trade lands with other lands that the 
State of Idaho might want to acquire or to actually purchase 
those lands outright. The conveyances to the communities will 
take place immediately upon this bill becoming law. We have 
spoken with the Idaho Department of Lands to identify lands 
that work for the State in a possible exchange with BLM.
    I support helicopter language for wildlife management in 
the Boulder/White Clouds, in particular for wolf management. 
There is some concerns about that with some people because that 
has never been done in Forest Service lands before. It's been 
allowed in BLM wilderness areas. But that's and issue that 
needs to be worked on. I think we can work that out.
    The water language that the Governor mentions needs to be 
worked on. Frankly, that was negotiated with State attorney 
general's office and Senator Crapo. I think the water language 
that currently exists in the bill is the water language that 
ought to be in this bill.
    Finally, I'm always supportive of providing funds to 
eradicate and prevent weed infestations. I think we can all 
agree with that.
    The fact is the scope and breadth of the bill is one of the 
greatest detriments in that it provides its critics an 
opportunity to read, interpret and disseminate their views in 
any manner they see fit. When I spoke in 2006 before this 
committee I said, this is not a perfect bill. However, it's the 
compromise that best balances the needs of people who live near 
and use and enjoy the Boulder/White Clouds. I continue to stand 
by that statement today.
    This is a complex issue. On the one hand if any landscape 
ever deserved the designation of wilderness it is this pristine 
area. It should be preserved for future generations to enjoy.
    On the other hand unresolved disputes over land use have 
left many Idahoans who are dependent on the land for their 
livelihoods with few choices for the future.
    Senator Wyden. Congressman, I feel badly. We're just out of 
time, literally.
    Mr. Simpson. So am I.
    [Laughter.]
    Senator Wyden. If you'd like to after the 2 votes we can 
start back up and give you a couple of additional minutes.
    Mr. Simpson. Mr. Chairman, I have one sentence left and 
that will be included in my statement for the record.
    [Laughter.]
    Senator Wyden. Perfect. Thank you. We'll be following up 
with you.
    We're going to take a break for 2 votes and then we'll 
reconvene right after that.
    [RECESS]
    Senator Johnson [presiding]. Welcome, Mr. Rountree and Mr. 
Holtrop.
    Mr. Carl Rountree is the Director of the Office of National 
Landscape Conservation System and Community Partnerships, 
Bureau of Land Management, Department of Interior.
    Joel Holtrop is Deputy Chief, National Forest System, 
Forest Service, Department of Agriculture.
    Mr. Rountree, proceed.

   STATEMENT OF CARL ROUNTREE, DIRECTOR, NATIONAL LANDSCAPE 
 CONSERVATION SYSTEM, BUREAU OF LAND MANAGEMENT, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Rountree. Thank you. Thank you for inviting the 
Department of the Interior to testify on S. 3294, the Central 
Idaho Economic Development and Recreation Act and S. 3313, the 
Sloan Hills Withdrawal. I will briefly summarize my statements 
and ask that the full statements be included in the hearing 
record.
    Now the Department of the Interior supports S. 3294 as it 
applies to lands managed by the Bureau of Land Management and 
would like the opportunity to work with the sponsor and 
committee on technical modifications to the legislation. We 
defer to the Department of Agriculture regarding provisions of 
S. 3294 which apply to the National Forest System lands.
    Section 101 of the bill designates three new wilderness 
areas: the Jerry Peak Wilderness, White Cloud Wilderness and 
Hemmingway-Boulders Wilderness. Approximately 32,000 acres of 
the proposed Jerry Peak Wilderness are managed by the BLM along 
with approximately 450 acres of the proposed White Cloud 
Wilderness. The Department of the Interior supports the 
proposed wilderness designations on lands managed by the BLM.
    Section 102(e) of S. 3294 establishes the Boulder/White 
Clouds grazing area on nearly 770,000 acres of public lands 
administered by the Forest Service and BLM surrounding and 
including the three areas designated as wilderness. Under the 
provisions of this section ranchers with Federal grazing 
permits or leases within this area may choose to voluntarily 
donate their permits or leases to the Secretary of Agriculture 
or Interior. Now the Secretaries of Interior and Agriculture 
are required to accept these leases and to permanently 
terminate grazing on the land covered by the permit or lease. 
We support the proposal by the Idaho Delegation to allow 
voluntary and permanent reductions in grazing in these unique 
and environmentally sensitive areas.
    Title II of S. 3294 provides for the conveyance at no cost 
of 12 small tracts of public lands to local governments for 
public purposes. The BLM supports the conveyances of ten 
individual parcels of BLM administered lands to local 
governments and defers to the Forest Service on two conveyances 
of National Forest System lands. As provided in the bill each 
of the conveyances of lands managed by the BLM would be for 
purposes consistent with public purposes allowed under the 
Recreation and Public Purposes Act.
    With respect to the Sloan Hills Withdrawal, the Department 
of the Interior defers taking a position on S. 3313. S. 3313 
would withdraw approximately 640 acres of BLM administered, 
public land in Clark County, Nevada from all forms of location, 
entry and patent under the Mining Laws and of disposition under 
all laws pertaining to mineral and geothermal leasing or 
mineral material sales subject to valid existing rights. Under 
the terms of the settlement agreements the BLM is currently in 
the process of analyzing two proposed competitive mineral 
material sales in the Sloan Hills area through an environmental 
impact statement. In 2004, the BLM contested two mining claims 
in the Sloan Hills area. The contests were eventually settled 
resulting in the BLM agreeing to analyze two competitive 
mineral material sales.
    In 2007, the BLM initiated an environmental impact 
statement to analyze the impacts of the two proposed sales. If 
approved, the projects would consist of two open pit, limestone 
quarries that would operate for approximately 20 to 30 years. 
The draft EIS is planned for release later this summer at which 
time BLM will solicit public comments on whether it should 
authorize the proposed sales.
    Thank you for the opportunity to present testimony on S. 
3294 and S. 3313. I'll be happy to answer any questions that 
you might have. Thank you.
    [The prepared statement of Mr. Rountree follows:]

   Prepared Statement of Carl Rountree, Director, National Landscape 
   Conservation System, Bureau of Land Management, Department of the 
                                Interior

    Thank you for the invitation to testify on S. 3294, the Central 
Idaho Economic Development and Recreation Act. The Department of the 
Interior supports S. 3294 as it applies to lands managed by the Bureau 
of Land Management (BLM) and would like the opportunity to work with 
the sponsor and the committee on technical modifications to the 
legislation. We defer to the Department of Agriculture regarding 
provisions of S. 3294 which apply to National Forest System Lands.

Background
    The Boulder-White Clouds area of central Idaho captivates the 
imagination with crystal lakes, high mountain backcountry, and abundant 
wildlife. Hunters, hikers, ranchers and other stakeholders have come 
together to support preservation of these unique and treasured lands 
managed by the U.S. Forest Service (FS) and the BLM.
    The lands managed by the BLM in this region represent diverse 
ecosystems ranging from lower elevation sagebrush and grasses to 
lodgepole and limber pine at the higher elevations. There are large 
forested areas in the upper reaches of Bear, Mosquito, Sage, and Lake 
Creek drainages. The highest point is Jerry Peak at over 10,000 feet 
where there are spectacular vistas of the surrounding mountain ranges. 
Herd Lake, at over 7,000 feet, is a small blue gem within the steep 
rocky terrain. From the small Herd Lake campsite visitors can hike the 
trail along the creek to Herd Lake. The shores of the lake have 
scattered pines and there are wonderful opportunities to fish for 
rainbow trout.
    This varied and magnificent terrain provides habitat for wildlife 
including deer, elk, black bear, mountain lion, bighorn sheep, and 
antelope. Coyotes and golden eagles are also common. The area is 
attractive to hunters and a significant portion of the yearly 
visitation occurs during hunting season.

                                s. 3294

    S. 3294 is the result of many years of collaborative efforts by the 
Idaho Congressional delegation. Their dedication to resolving public 
land use issues in central Idaho is commendable.
    Section 101of the bill designates three new wilderness areas--Jerry 
Peak Wilderness (128,000 acres), White Cloud Wilderness (90,000 acres), 
and Hemingway-Boulders Wilderness (110,000 acres). Approximately 32,000 
acres of the proposed Jerry Peak Wilderness are managed by the BLM, 
along with approximately 450 acres of the proposed White Cloud 
Wilderness. The FS manages the other federal lands within the proposed 
wilderness areas. The Department of the Interior supports the proposed 
wilderness designations on lands managed by the BLM and would welcome 
the opportunity to work with the sponsor and the committee on minor 
boundary modifications to the Jerry Peak Wilderness to improve 
manageability. We would also like to recommend minor modifications to 
management language to be consistent with usual wilderness management 
language. Section 108 releases nearly 80,000 acres of BLM-managed lands 
in four wilderness study areas (WSAs) from WSA restrictions thereby 
allowing a full range of multiple uses.
    Livestock grazing on the public lands designated as wilderness, and 
in the surrounding area, is addressed in section 102(e) of the bill. 
The BLM supports this standard language on the management of livestock 
grazing on public lands within designated wilderness.
    Section 102(e) also establishes the ``Boulder White Clouds Grazing 
Area'' on nearly 770,000 acres of public lands administered by the FS 
and BLM--surrounding and including the three areas designated as 
wilderness. Under the provisions of this section, ranchers with Federal 
grazing permits or leases within this area may choose to voluntarily 
donate their permits or leases to the Secretary of Agriculture or 
Interior. The Secretaries of Interior and Agriculture are required to 
accept these donations, and to permanently terminate all grazing on the 
land covered by the permit or lease. Partial donation and congruent 
partial termination of grazing is also provided for under this 
subsection.
    Grazing can be a compatible use within wilderness, and there is a 
long history of legislation accommodating grazing within wilderness 
designations. However, we also recognize and support the proposal by 
the Idaho delegation to allow voluntary and permanent reductions in 
grazing in these unique and environmentally sensitive areas.
    Title II of S. 3294 provides for the conveyance, at no cost, of 12 
small tracts of public lands to local governments for public purposes. 
The BLM supports the conveyances of ten individual parcels of BLM-
administered lands to local governments, but notes that these 
conveyances could largely have been accomplished administratively under 
the Recreation and Public Purposes (R&PP) Act. We defer to the FS on 
two conveyances of National Forest System lands. As provided in the 
bill, each of the conveyances of lands managed by the BLM would be for 
uses consistent with public purposes allowed under the R&PP Act.
    The R&PP Act authorizes the Secretary of the Interior to lease or 
convey public lands at nominal cost for recreational and public 
purposes, including parks and other facilities benefiting the public. 
In general, the BLM supports appropriate legislative conveyances if the 
lands are to be used for purposes consistent with the R&PP Act, and if 
the conveyance includes a reversionary clause to enforce this 
requirement.
    Among the proposed conveyances of BLM-administered public lands are 
10 acres for a fire hall and 80 acres for a waste transfer site to 
Custer County, and 23 acres to the city of Clayton for a cemetery. The 
BLM has reviewed each of these conveyances in the bill. We believe they 
are in the public interest, and support their no-cost conveyance to the 
local governments to address local public needs consistent with uses 
that would be allowed under the R&PP Act.
Conclusion
    Thank you for the opportunity to testify in support of S. 3294. We 
look forward to working cooperatively with members of the Idaho 
delegation and the committee to protect these significant landscapes 
and provide important public benefits to local communities.

                                s. 3313

    Thank you for the opportunity to testify on S. 3313, the Sloan 
Hills Withdrawal Act. S. 3313 would withdraw approximately 640 acres of 
BLM-administered public land in Clark County, Nevada, from all forms of 
location, entry, and patent under the mining laws, and from disposition 
under all laws pertaining to mineral and geothermal leasing or mineral 
material sales, subject to valid existing rights. The BLM is presently 
preparing an Environmental Impact Statement (EIS) for two proposed 
competitive mineral material sales which would result in two open pit 
limestone quarries in this area, as required by settlement agreements 
between the BLM and two mining companies. Since the BLM is still in the 
process of analyzing the proposed sales, we defer taking a position on 
this legislation. However, if this area is legislatively withdrawn, the 
BLM would recommend a boundary adjustment to include additional acreage 
to the withdrawal area.
Background
    The Sloan Hills area is located approximately 15 miles south of the 
City of Las Vegas, and consists of approximately 800 acres of BLM-
administered public lands. The area is surrounded by public lands that 
are within the Southern Nevada Public Land Management Act (SNPLMA) 
boundary. The SNPLMA allows the BLM to sell land within this disposal 
boundary and use the sale proceeds to acquire lands elsewhere in Nevada 
that possess higher natural resource values. When Congress expanded the 
SNPLMA disposal boundary in 2002 (through PL 107-282), the Sloan Hills 
area was not included.
    The Sloan Hills area has an extensive mineral development history. 
Separate, but overlapping mining claims were filed on the site almost 
thirty years ago, with little development occurring until the early 
1990s. The two mining claimants in the area subleased their claims to 
CEMEX (formerly Rinker Materials West, LLC) and Service Rock Products 
Corp. (Service Rock). CEMEX subsequently filed a mining plan of 
operations. When the BLM receives a plan of operations for materials 
that may be common variety minerals and the mining claims were located 
on or after July 23, 1955, mining operations may not begin until the 
bureau completes a ``common variety determination'' to determine 
whether the materials are locatable under the Mining Law of 1872 (43 
CFR 3809.101).
    Since the two mining claims overlapped, the BLM completed a common 
variety determination in 2004 for both sets of claims. The BLM 
concluded that the claimed materials (limestone and dolomite) were not 
locatable under the Mining Law of 1872. As a result, the BLM contested 
the mining claims. The contests were eventually settled, resulting in 
the BLM agreeing to analyze two competitive mineral materials sales. 
The settlement agreements do not restrict the BLM's discretion in 
approving or denying the proposed sales and the sales must comply with 
all applicable statutes and regulations (43 CFR 3600).
    In 2007, the BLM initiated an EIS to analyze the impacts of the two 
proposed competitive mineral materials sales. If approved, the projects 
would consist of two open pit limestone quarries that would operate for 
approximately 20 to 30 years, eventually merging into one open pit. The 
Draft EIS is planned for release in the summer of 2010, at which time 
the BLM will solicit public comments on whether it should authorize the 
proposed sales. The Draft EIS will address potential impacts to: air 
quality, noise, water resources, and socio-economic conditions. The 
area surrounding Sloan Hills (located within the SNPLMA disposal 
boundary) is likely to be developed for housing, commercial, and/or 
industrial uses during the lifetime of the potential sales contracts. 
During the Draft EIS scoping process, a number of Henderson, Nevada 
residents expressed their concerns with the proposed sales.

                                s. 3313

    S. 3313 would withdraw approximately 640 acres of BLM-administered 
public land in Clark County, Nevada, from all forms of location, entry, 
and patent under the mining laws, and of disposition under all laws 
pertaining to mineral and geothermal leasing or mineral material sale 
subject to valid existing rights.
    A withdrawal from the mineral materials laws would prohibit the BLM 
from selling mineral materials in the Sloan Hills area, and would 
prohibit any future mineral use of the withdrawn lands, subject to 
valid existing rights.
    The BLM understands the concerns of Senator Reid, the Nevada 
Congressional delegation, Clark County and the City of Henderson 
regarding the proposed mineral materials sales and potential operations 
and associated air quality and noise impacts that would occur in close 
proximity to many neighborhoods. These and other issues will be 
considered in the Draft EIS. If this area is legislatively withdrawn, 
the BLM would recommend expanding the boundary to the entire 800 acres 
of BLM-administered public lands remaining within the Sloan Hills area 
that are excluded from the SNPLMA disposal boundary.
Conclusion
    Thank you for the opportunity to testify. In accordance with the 
terms of the settlement agreement, the BLM is in the process of 
analyzing the proposed sales. Consequently, the BLM defers taking a 
position on the legislation at this time. The Bureau will continue to 
actively engage the public through an open and transparent EIS process 
to analyze the potential environmental impacts of the proposed mineral 
materials sales unless Congress chooses to legislate this withdrawal.

    Senator Johnson. Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to share the Administration's 
views on the Central Idaho Economic Development and Recreation 
Act and the Tony Dean Cheyenne River Valley Conservation Act.
    The Idaho delegation has been hard at work for many years 
on the Central Idaho bill and we would like to recognize and 
applaud their efforts. The current bill is representative of 
that hard work. I can attest first hand that balancing the many 
interests and uses of our national forests can be a daunting 
one. The Idaho delegation has conducted a considerable amount 
of outreach and has worked collaboratively for a number of 
years and we appreciate their efforts.
    I will limit my remarks to the provisions of the bill 
related to the lands and activities managed by the Forest 
Service and will defer to the Department of the Interior on 
provisions relating the lands managed by the Bureau of Land 
Management.
    The Department of Agriculture supports this bill. We would 
like to work with the sponsor and subcommittee to address some 
concerns with the bill.
    Title I would add additional areas in Central Idaho to the 
National Wilderness Preservation System in the Sawtooth and 
Salmon Challis National Forests to be known as Hemmingway-
Boulder Wilderness, the White Clouds Wilderness and the Jerry 
Peak Wilderness. We support the designation of these wilderness 
areas. Most of the acres proposed for wilderness designation 
were recommended in their respective forest plans.
    We would, however, like to work with the sponsor and 
committee on technical issues for the language of Section 
102(e)(2) regarding the donation of grazing permits.
    Section 201(a) would require the Forest Service to identify 
an appropriate site within the Sawtooth National Recreation 
area in the vicinity of the Smiley Creek community on which the 
Smiley Creek rural fire protection district would construct and 
use a fire station. We appreciate the flexibility offered under 
this provision and look forward to working with the community 
of Smiley Creek to mutually determine a site that does not 
impair Sawtooth National Recreation area values.
    Section 301 of the bill would provide specific management 
direction for several trails. In general the Forest Service 
prefers that the determination of how National Forest System 
trails will be managed to be determined through land management 
planning and site specific national Environmental Policy Act 
processes. That allows us the flexibility to respond to 
changing user demand and resource issues.
    We would also like to work with the committee on some other 
technical considerations primarily related to the referenced 
trails, associated maps and proposed boundaries.
    Next I would like to address S. 3310. If enacted S. 3310 
would establish the first wilderness area designated under the 
Wilderness Act on national grasslands. The Department supports 
S. 3310. We thank Senator Johnson for his appreciation of 
grassland landscapes and his interest in representing them in 
the National Wilderness Preservation System.
    S. 3310 would designate as wilderness three areas within 
the Buffalo Gap National Grassland in South Dakota comprising 
about 48,500 acres.
    The Indian Creek area has a variety of land forms from the 
Cheyenne River Valley to Sheep Mountain Table that attract 
hunters, hikers, horseback riders, birders and others who love 
exploring rugged terrain of the Great Plains.
    The Red Shirt area has striped buttes rising to stunning 
plateaus. This magnificent landscape provided shelter, food and 
medicinal plants to the Lakota for centuries.
    Chalk Hills is famous as the setting of the movie, Dances 
with Wolves.'' Its cedar and juniper canyons, sheer cliffs and 
grasslands provided refuge for Lakota warriors during the 
Indian wars at the end of the 19th century.
    Most of the proposed Indian Creek wilderness and Red Shirt 
wilderness areas are recommended for wilderness designation in 
the forest plan. The proposed Chalk Hills area is not 
recommended in the forest plan, but its character is consistent 
with wilderness and we support its designation. We would like 
to work with the sponsor and committee on some boundary 
adjustments.
    We also support the language in the bill that provides for 
continued grazing of livestock and maintenance of existing 
facilities related to grazing.
    We also strongly support language that reaffirms the right 
of Indian tribes to access the proposed wilderness units for 
tribal activities including spiritual, cultural and food 
gathering activities.
    This concludes my remarks. I would be pleased to answer any 
questions you might have.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to share the Administration's views on S. 3294, the 
``Central Idaho Economic Development and Recreation Act.''
    We recognize the Idaho delegation has conducted a considerable 
amount of outreach and has worked collaboratively for a number of years 
with an array of communities of interest in the development of this 
bill, and we applaud their efforts.
    I will limit my remarks to the provisions of the bill related to 
the lands and activities managed by the Forest Service, and will defer 
to the Department of the Interior on provisions relating to the lands 
managed by the Bureau of Land Management.
    The Department of Agriculture supports S. 3294. However, we would 
like to work with the sponsor and subcommittee to address some concerns 
with the bill.

                    TITLE I--WILDERNESS DESIGNATIONS

    Title I would add additional areas in central Idaho to the National 
Wilderness Preservation System--110,370 acres in the Sawtooth and 
Challis National Forests to be known as the ``Hemingway--Boulder 
Wilderness,'' 90,888 acres in the Sawtooth and Challis National Forests 
to be known as the ``White Clouds Wilderness,'' and approximately 
131,670 acres in the Salmon-Challis National Forest and Challis 
District of the Bureau of Land Management to be known as the ``Jerry 
Peak Wilderness.''
    Overall we support the designation of the Hemingway-Boulders, White 
Clouds and Jerry Peaks Wilderness areas as portrayed on the maps 
referenced in the bill. Most of the acres proposed for wilderness 
designation were recommended in their respective forest plans. The 
areas that were not recommended are either inventoried roadless areas, 
or their current management direction is compatible with Wilderness 
designation. The cherry-stem roads and trails are not ideal for 
wilderness management purposes, and we would like to work with the 
committee on some proposed adjustments.
    Livestock grazing on the public lands designated as wilderness, and 
in the surrounding area, is addressed in section 102(e) of the bill. 
The Department of Agriculture supports this standard language on the 
management of livestock grazing on public lands within designated 
wilderness. Grazing can be a compatible use within wilderness, and 
there is a long history of legislation accommodating grazing within 
wilderness designations. However, we also recognize and support the 
proposal by the Idaho delegation to allow voluntary and permanent 
reductions in grazing in the designated areas. We would like to work 
with the sponsor and committee on technical issues with the language of 
Section 102 (e) (2) regarding the donation of grazing permits.

             TITLE II--LAND CONVEYANCES FOR PUBLIC PURPOSES

    For 36 years, the federal government has made a strategic 
investment of more than $65 million in the Sawtooth NRA for acquisition 
of scenic or conservation easements to ensure that the purposes for 
which the NRA was established under Public Law 92-400 are achieved.
    Section 201(a) would require the Forest Service to identify an 
appropriate site within the Sawtooth NRA and in the vicinity of the 
Smiley Creek community on which the Smiley Creek Rural Fire Protection 
District could construct and use a fire station. The agency would be 
authorized to issue a special use authorization for use of the site or, 
in the alternative, to convey the site to the District without 
consideration. We appreciate the flexibility offered under this 
provision, and look forward to working with the community of Smiley 
Creek to mutually determine a site that does not impair Sawtooth NRA 
values.
    Section 201(b) would require the Forest Service to issue a special 
use authorization or convey without consideration a parcel of land in 
Blaine County for use as a school bus turnaround. The bus turnaround 
can be authorized without the need to convey the land. The Department 
also does not support the conveyance of land without consideration. 
This is consistent with the longstanding policy that the United States 
receives market value for the sale of National Forest Lands.

                      TITLE III--TRAVEL MANAGEMENT

    Section 301 of the bill would provide specific management direction 
for several trails. Two of the trails, Germania Creek and Frog Loop 
Lake, provide for motorized use, which is inconsistent with wilderness 
designation. We appreciate the establishment of the motorized corridor 
on acres not designated as wilderness. However, this establishes a 
motorized trail corridor, surrounded by Wilderness.
    In general, the Forest Service prefers that the determination of 
how National Forest System trails will be managed, including types of 
uses allowed and trail design be determined through land management 
planning and site-specific National Environmental Policy Act processes. 
These processes work well because they allow for public participation, 
and allow for decision making to be made locally. It also allows us the 
flexibility to respond to user demand and resource issues.
    We would also like to work with the committee on some other 
technical considerations, primarily related to the referenced trails, 
associated maps and proposed boundaries.
    This concludes my prepared statement on S. 3294. I would be pleased 
to answer any questions you may have.

   S. 3310, TONY DEAN CHEYENNE RIVER VALLEY CONSERVATION ACT OF 2010

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the view of the Department of Agriculture on S. 
3310, the ``Tony Dean Cheyenne River Valley Conservation Act of 2010''. 
I am Joel Holtrop, Deputy Chief for the National Forest System, United 
States Forest Service.
    Wilderness--the most natural and undisturbed areas in our country--
is part of our American heritage. The Forest Service takes great pride 
in managing these special lands. If enacted, S. 3310 would establish 
the first wilderness area designated under the Wilderness Act on 
National Grasslands administered by the Forest Service.
    The Department supports S. 3310. We thank Senator Johnson for his 
appreciation of grassland landscapes, and his interest in representing 
them in the National Wilderness Preservation System. We would like to 
offer some minor modifications that would improve our ability to manage 
resources in the three areas identified in the bill.
Bill Summary
    S. 3310 would designate as wilderness three areas within the 
Buffalo Gap National Grassland in South Dakota comprising about 48,500 
acres--Indian Creek, Red Shirt, and Chalk Hills.
    The Indian Creek area--about 27,500 acres--has a variety of 
landforms, from the Cheyenne River Valley to Sheep Mountain Table, that 
attract hunters, hikers, horseback riders, birders and others who love 
exploring rugged terrain of the Great Plains.
    The Red Shirt area--about 16,000 acres--has striped buttes rising 
to stunning plateaus. This magnificent landscape provided shelter, 
food, and medicinal plants to the Lakota for centuries.
    Chalk Hills--about 4,500 acres--is famous as the setting of the 
movie ``Dances with Wolves.'' Its cedar and juniper canyons, sheer 
cliffs, and grasslands provided refuge for Lakota warriors during the 
Indian wars at the end of the 19th Century.
Forest Plan Recommendations
    Most of the proposed Indian Creek Wilderness and Red Shirt 
Wilderness areas (except for small piece of Red Shirt) are recommended 
for wilderness designation in the 2001 Revision of the Land and 
Resource Management Plan for the Nebraska National Forests and 
Grasslands (Forest Plan). We would like to discuss with you the 1173 
area proposed as Red Shirt Wilderness east of the Highway This smaller 
portion is separated by the road and does not meet the size criteria 
typical for wilderness consideration (5,000 acres), although we 
acknowledge that it could be preserved as wilderness due to physical 
terrain and natural conditions. The proposed Chalk Hills area is not 
recommended in the Forest Plan, but its character is consistent with 
wilderness, and we support its designation.
Suggested Boundary Adjustments
    A road easement parallels the Cheyenne River in the northwest 
corner of the proposed Indian Creek area. To prevent motorized 
intrusion into the area, we suggest a minor boundary adjustment to 
exclude the road easement and several structures associated with it.
    We would also like to work with the Committee on some minor 
boundary adjustments for the proposed Chalk Hills area. The adjustments 
would change the boundary to follow easily identifiable landmarks such 
as fences rather than un-posted section lines, making the boundaries 
more manageable and enforceable.
Military Activities
    The bill provides for the continuation of aerial military 
activities in the proposed wilderness areas. Local Forest Service 
managers and the South Dakota National Guard are working on a 
memorandum of understanding that will provide for annual coordination 
and communication regarding overflights. On-the-ground operations are 
being evaluated for Forest Service authorization outside the proposed 
wilderness areas.
Prairie Dog Management
    Section 4 authorizes the Secretary to continue to manage prairie 
dog populations. Recent amendments to the Forest Plan provide direction 
for prairie dog management, including control of prairie dogs 
encroaching on private lands from national grasslands. Several prairie 
dog towns within the proposed wilderness units have encroached on 
private lands and have been treated in the past. We suggest that the 
term ``public lands'' be replaced with ``lands designated as wilderness 
by this act'' to ensure that the provision only applies to lands 
designated by S. 3310.
Other Provisions
    We support the language in the bill that provides for continued 
grazing of livestock and maintenance of existing facilities related to 
grazing. We also strongly support language that reaffirms the right of 
Indian tribes to access the proposed wilderness units for tribal 
activities, including spiritual, cultural, and food-gathering 
activities.
    This concludes my prepared statement. I would be happy to answer 
any questions you may have.

    Senator Johnson. Thank you, Mr. Holtrop. At this point I 
would enter into the record letters of support for S. 3310 from 
several organizations including the Black Hills Sportsmen club, 
the South Dakota Wildlife Federation, the Back Country Hunters 
and Anglers among other sportsmen and conservation groups.*
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Deputy Chief Holtrop, the Forest Service has the authority 
under the Wilderness Act and the Congressional Grazing 
Guidelines to manage wilderness lands for fire, insects, 
disease and invasive species. Can you give an example of this 
in practice in the Nebraska National Forest?
    Mr. Holtrop. Yes, I can. The importance of the Nebraska 
National Forest, it is the forest that manages the Buffalo Gap 
National Grassland. There is a wilderness on the Nebraska 
National Forest called the Soldier Creek Wilderness which 
currently has authority for some limited motorized use for 
grazing management purposes, for some fire suppression 
activities and for the treatment of invasive species.
    Senator Johnson. How many acres is in the Nebraska 
wilderness area?
    Mr. Holtrop. Currently existing? I don't have that 
information for you. But I'd be happy to get it for you.
    Senator Johnson. Grazing permits are central to the 
livelihood of a number of families in this area. Will this 
legislation allow grazing to continue? How does the Forest 
Service manage grazing permits and associated activities in the 
wilderness, for example, in the instance of extreme drought 
will a permitee be allowed to haul hay to cattle?
    Mr. Holtrop. The way we would manage grazing in designated 
wilderness is consistent with the grazing guidelines that we 
have received from Congress and included in that are any 
existing activities or any existing uses that--if mechanized 
use is necessary to continue that activity, we would provide 
it. In specific answer to the question would a permitee be able 
to bring/haul grass in case of extreme drought? The answer is 
yes.
    Senator Johnson. The Nebraska National Forest recently 
issued a final travel and management plan for the Buffalo Gap 
National Grasslands. Both Indian Creek and Red Shirt areas 
remain closed to motorized travel under the plan with the 
exception of the Indian Creek Road. The plan also prevents 
motorized recreation in Chalk Hills.
    Is S. 3310 consistent with the Forest Service's view of the 
best management of these areas? Absent the wilderness 
designation, could these areas be open to motorized recreation 
in the future?
    Mr. Holtrop. First of all, our current forest plan 
direction in the travel management plan is consistent with S. 
3310. It would be unlikely that a decision would be made to 
change, administratively, allowing motorized use in these 
areas, although that would be something that we would look at 
over time, again, if administratively that were to be the case. 
I think the only thing that's different about our current 
management direction in those three areas in this piece of 
legislation and the current forest plan direction is the forest 
plan direction also allows for some--look at oil and gas and 
mineral activities that this bill would take that out.
    Senator Johnson. Senator Risch.
    Senator Risch  Thank you very much. Very briefly, both of 
you have complemented--on S. 3294 and as much as we like to 
take credit for about anything. Let there be no mistake about 
it, Congressman Simpson is the person who has done--has put in 
all the hours on this.
    He's the one that's worked on it. So we're happy to help 
out as we can. Once we resolve some of these other issues 
perhaps we'll be able to move forward.
    But I want the record to be very clear that the credit 
clearly goes to Congressman Simpson. But thank you very much 
for your kind words.
    Mr. Rountree. Thank you.
    Mr. Holtrop. Thank you.
    Senator Johnson. I will submit Senator Wyden's questions 
for the record.
    Mr. Rountree. Thank you.
    Mr. Holtrop. Thank you, sir.
    Senator Johnson. The next panel consists of the Honorable 
Steve Sisolak, Commissioner, Clark County, Las Vegas, Nevada.
    Bill Dart, Representative, Idaho Recreation Council of 
Coeur d'Alene, Idaho.
    Rick Johnson, Executive Director, Idaho Conservation 
League, Boise, Idaho.
    Dan O'Brien, Rancher and Lessee of Hermosa, South Dakota.
    Scott Edoff, Rancher and land owner of Hermosa, South 
Dakota.
    Your whole statement will be received in the record. But 
could you please limit yourself to 5 minutes?
    Mr. Sisolak.

   STATEMENT OF STEVE SISOLAK, COMMISSIONER, BOARD OF COUNTY 
                COMMISSIONERS, CLARK COUNTY, NV

    Mr. Sisolak. Thank you, Mr. Chairman and members of the 
committee. I am deeply honored to have the opportunity to be 
here today. I left Las Vegas last night at midnight. We had a 
commission meeting yesterday afternoon and took the red eye 
because it was important enough for me and the constituents 
that I represent in the Anthem area of Henderson.
    I'm here regarding S. 3313, the Withdrawal Act of the Sloan 
Gravel Pit. Senator Reid has introduced a bill with the co-
sponsorship of Senator Ensign. There's a cold bill, I guess, on 
the House side relating to the exact same issue.
    I'll just reiterate a little bit. I'm not going to read my 
testimony word for word. I've been on the other side of the 
Dias there and I know what it's like. I'm sure you've taken the 
time to read it. I do appreciate that.
    The pit is basically in an area, an island, a county island 
in the middle of Henderson. What happened is when it was 
proposed for a pit many, many years ago, over a decade ago, 
there was no development in the immediate area now. Presently 
this area of Henderson is home to approximately 15,000 
residences. There's plans for 20,000 more residences to be 
built in the area.
    The concern of the individuals that live there, are 
profound. I've had approximately six neighborhood meetings in 
the area attended by up to 600 people talking about this issue. 
One of the things I want to present, the community members have 
written letters, individual, handwritten letters to the members 
of this committee that I've submitted to the record and asked 
to be entered in.
    Also, I've got a t-shirt here that I've asked to be 
delivered to each of your offices. But if you ever do make it 
down to Clark County, I encourage you to come. We welcome the 
tourism in Clark County. You'll see these t-shirts all over 
Henderson that basically say, Stop the Sloan Hills gravel 
pit.'' There's over 1,000 of these t-shirts currently being 
worn in the area of Henderson because the residents are just 
fearful of what could potentially come.
    It's not just the declining home values that they're 
concerned about. Two of the largest communities out there are 
senior citizen communities. They're affected by the quality of 
life that results from the 24 hour a day, 7 day a week for 30 
years blasting that would result from this mine.
    We're having dwindling water resources at Lake Mead. The 
lake is dropping precipitously and with the mining operation 
would necessitate the pouring of thousands of acre feet to the 
desert to remediate the dust.
    I'll conclude by just saying I'm humbled by the confidence 
that the citizens of Henderson have placed in me to elect me to 
come forward and represent them on this bill. I'm deeply 
indebted, as are my constituents, to Senator Reid for proposing 
this bill. It's definitely a quality of life issue for my 
residents.
    I thank you very much for the time to be here today, the 
opportunity to present my testimony. I'd be available to answer 
any questions you might have. Thank you, Mr. Chair.
    [The prepared statement of Mr. Sisolak follows:]

  Prepared Statement of Steve Sisolak, Commissioner, Board of County 
                    Commissioners, Clark County, NV

    Chairman Wyden, members of the Subcommittee, my name is 
Commissioner Steve Sisolak and I am here representing the Board of 
County Commissioners for Clark County, Nevada in support of S. 3313, 
the Sloan Hills Withdrawal Act introduced by Senator Harry Reid and 
Senator John Ensign. I want to express appreciation to Senator Reid for 
his leadership on this important local issue and thank the other 
members of the Congressional delegation for introducing this bill to 
withdraw from location, entry, and patent under the federal mining 
laws, approximately 640 acres located in the Sloan Hills area of my 
Commission District. The Clark County Board of County Commissioners has 
adopted two resolutions with the first on May 19, 2009, opposing the 
development of the Sloan Hills limestone/gravel mine. Almost a year 
later on May 18, 2010 we passed a second resolution in support of S. 
3313 and H.R. 5219, which is the House version of this Bill.
    Within the first few months following my election to the County 
Commission, I became involved with this issue and immediately started 
seeking to find a mechanism to stop the development of this limestone/
gravel mine being proposed by California-based Service Rock Products 
(owned by Mitsubishi) and the Mexico-based mining company Cemex on 640 
acres of federal land, that is only 2.5 miles from the edge of the 
large master planned Anthem Community. I soon learned that local 
government is quite limited in our ability to influence federal land 
use decisions.
    Local residents are right in raising a variety of concerns, 
including noise and vibration issues, the possibility of aggravating 
health conditions such as respiratory problems, and air quality 
problems that would have a negative impact on the quality of life of 
residents in Southern Nevada. The proposed mining operation, which 
would involve blasting and crushing rock, would also necessitate the 
use of Southern Nevada's dwindling water resources to partially dampen 
dust clouds that contribute to the degradation of the particulate air 
quality in the valley. In a community that pays people to remove their 
lawns to conserve water, it makes no sense to allow a commercial mining 
enterprise to continually spray water on the desert to control dust.
    If allowed to proceed, the limestone/gravel mine would operate 24 
hours a day, seven days a week, for an estimated 20 to 30 years. 
Routine mining activities would include blasting and digging with 
significant surface disturbance and foster a dangerous 24-hour parade 
of heavy dump trucks to haul away the rock products from the site, 
which is in close proximity to I-15.
    The project was proposed nearly a decade ago, long before 40,000 
homes were built in the clean family neighborhoods of Anthem. Protests 
began in 2007 at the first public meeting on the mines, and residents 
are remaining committed in their opposition to this project. I have 
personally participated in at least 6 neighborhood meetings and town 
halls and have received hundreds of emails, letters and phone calls 
from constituents who are outraged at living in such close proximity to 
heavy machinery, explosives, and potentially toxic dust. These 
residents uniformly say the mine would threaten both their quality of 
life and the value of homes that have already lost as much as 50 
percent in value due to the recession. I am vehemently opposed to the 
mine as are the constituents I represent who have voiced their 
opposition to this in many ways, including over 1,000 of these T-shirts 
being touted. I have ensured each of your offices has received one of 
these T-shirts and have extras here as a reminder of how strong local 
opposition is.
    The Sun City Anthem, senior living community where 12,000 people 
live formed a five-member committee opposing the project and has 
collected over 6,000 signatures on a petition against the mine. The 
committee has also enlisted the help of the boards of directors at 
other communities such as the Anthem Highlands, Anthem Country Club, 
Inspirada and Madeira Canyon.
    During the EIS process for the proposed mine, the BLM has received 
thousands of petition signatures and at least 1,000 individual letters 
opposing the mine. Originally the draft environmental study was 
scheduled to be completed this year, but now the target date is June 
2010. Unless S. 3313 is enacted to stop the process, the draft 
environmental-impact study will soon be published and once public input 
on the document is received, the final decision approving the mine is 
scheduled to be made by the BLM in May of 2011, just a year from now.
    Finally, I want to raise another significant concern with the 
project and its potential to adversely impact the Sloan Canyon National 
Conservation Area, which contains valuable petroglyphs believed to be 
thousands of years old and which is located just five miles to the 
south and east of the mine site. The Federal law which created this NCA 
requires the BLM to ``conserve, protect, enhance and manage'' 
conservation areas ``for the benefit and enjoyment of present and 
future generations.'' S. 3313 will insure that this occurs by removing 
the threatened impacts from a nearby mining operation. I thank you for 
allowing me to testify today and strongly urge you to approve S. 3313 
to stop the development of the Sloan Hills Limestone and Gravel mine.
    Thank you.

    Senator Johnson. Would Harry Reid care to make a statement?

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid  Yes, allow me to do so. If you don't mind 
I'll just stay here.
    Mr. Chairman, members of the committee, my friend, Steve 
Sisolak, I appreciate your allowing me to talk and kind of out 
of order.
    The 2 of you can see this. This is a picture of where they 
want to put the gravel pit which is right here. Here is the 
homes that we're really worried about. But next to it is 
something that I also want you both to take a look at.
    One of the things that I did legislatively is create a 
conservation area called Sloan Canyon. It is a remarkable 
place. It's closer than the homes. It is a place that Indians 
have been writing on those canyon walls for more than 1,000 
years.
    But for me one of the most interesting things is that some 
of you know I wrote a book on the history of Searchlight, where 
I was born and raised. In one of the chapters in that book 
which is--someday I'd like to do a whole book on it, is about 
an Indian by the name of Queo. Queo--I won't go into a lot of 
detail, but Queo was a renegade Indian, killed probably as many 
as 22 people.
    As I talk about in my book the first person he killed, my 
grandmother and grandfather were working a mine. They were in a 
horse and buggy. They saw a man walking to them carrying a 30/
30 rifle. They knew him as Queo. They said hello and he went 
and walked toward the river.
    That was the first person he killed up at a place we call 
Timber Mountain. The reason I go into this long story with you 
is when I went to look at Sloan Canyon they had one of the 
archeologist from the BLM. He said, you know, we've done some 
study here. We think one of the places that Queo hid out was 
right here because some of the writing here is new.
    That's so interesting to me because he was the largest man 
hunts in the history of the State of Nevada were trying to get 
this man. He never rode in a car. He never rode on a horse. He 
walked with a distinct limp. They tried everything in the world 
to catch him and they couldn't catch him. But anyway, you want 
to learn more, read my book.
    [Laughter.]
    Senator Reid. But my point is we can't let this gravel pit 
go in here. If we didn't have these thousands of people living 
next door. We should do it just to protect those petroglyps.
    It's unbelievable. We can't have dirt spewing into that. 
It's a very sensitive area.
    For the people that live there this is awful. This is--and 
frankly this is one of the few areas in Nevada because we've 
been hit so hard with the economic downturn, with foreclosures. 
This is an area, as Commissioner Sisolak will indicate, has 
held its value pretty well. These homes have held their value 
really well. To put in this gravel pit is just the wrong thing 
to do.
    Thousands of people, who live there have said, don't do 
this to us. I'm from the desert. We've got gravel pits all 
over. We don't need another one right in a residential area.
    I think that this would be a place--they want to place a 
major round the clock gravel mine next to existing, growing 
neighborhoods in Henderson. That would just not be the right 
thing to do. I hope this committee will act favorably on our 
legislation.
    I missed Senator Ensign. But I'm sure his testimony was 
good. I really appreciate Commissioner Sisolak.
    Members, thank you very much for allowing me to be here 
today.
    Senator Johnson. Thank you.
    Senator Risch.
    Senator Risch. Thank you. I wonder if Senator Reid would 
yield to an inquiry.
    Senator Reid. Of course.
    Senator Risch. You gave me this map. I'm quite familiar 
with the topographic maps. We occasionally have a section that 
a little out of whack in Idaho. But looking at these section 
lines it appears to me your surveyors were over indulging in 
adult beverages when they were setting up these lines.
    These sections don't seem to be quite square. Can you 
explain that, Senator?
    Senator Reid. Only thing I say in defense of that is I 
didn't do it.
    [Laughter.]
    Senator Reid. We'll be happy to get you one that's more in 
keeping with your geographic demand.
    [Laughter.]
    Senator Reid. But I really don't know. I had trouble 
becoming eligible for football. I remember going to Mr. 
Galanger. I said, Mr. Galanger, if you give me that D, I'm not 
going to be able to play football. So my math skills are 
severely limited.
    Now by the way, he did give me a C. I probably didn't 
deserve it. So----
    Senator Risch. I don't know kind of math skills you need to 
run a straight line.
    Senator Reid. But what I did learn in his class the 
shortest distance between 2 points is a straight line.
    Senator Risch. That's good. You should play football.
    Senator Johnson. But----
    Senator Reid. But we'll try to get you a better map. Ok?
    Senator Johnson. Thank you, Senator Reid.
    Mr. Dart is next.

   STATEMENT OF BILL DART, REPRESENTATIVE, IDAHO RECREATION 
                            COUNCIL

    Mr. Dart. Thank you, Mr. Chairman, members of the 
subcommittee. I'm really pleased to be able to come to 
Washington and speak on an issue of vital importance. My name 
is Bill Dart. I'm speaking as a Representative of the Idaho 
Recreation Council. We're a group of--a coalition of a variety 
of motorized and non-motorized trail recreation folks including 
back country equestrians, mountain bikers, trail bike riders, 
snowmobilers, back country boaters and back country pilots.
    First off, we really don't think that the CIEDRA bill is 
necessary in that this area is already a National Recreation 
Area, permanently protected from logging or mining or major 
development. But given that, you know, it's--we do very much 
appreciate the efforts of Congressman Simpson to try to work 
collaboratively with the local community and various interest 
groups to craft a bill that was palatable to everyone even 
though we may not agree with all the elements of it. It was a 
lot--a better bill than in the past.
    Unfortunately today we have an entirely new CIEDRA. The 
bill has been dramatically changed. It's been stripped of most 
of the collaborative and comprised language. Now I'd like to 
call this the Central Idaho Economic and Recreation Reduction 
Act and not an improvement or increase in recreation or 
development.
    Some of the elements that were stripped out include as part 
of a balance for giving up some of the areas that are currently 
open to motorized use. There was permanent protection language 
for the existing motorized trails that would be outside of the 
wilderness boundary, but within the Sawtooth National 
Recreation Area indicating it was Congress' intent that those 
remain motorized trails in perpetuity. Should there ever be a 
compelling reason to close those trails for resource damage 
issues reasons or whatever that that be mitigated with 
replacement trails of equal quality and quantity.
    Additionally there were 2 corridor trails through there 
that Congressman Simpson referenced to, the Germania Creek 
Trail and the Frog Lake Loop. The Germania Creek Trail has been 
watered down somewhat in that it now allows temporary closures 
of that trail for non-motorized purposes. We don't understand 
why that would be necessary. If there was a permit issued for a 
horse event or running event or those kinds of things the 
Forest Service has Administrative tools to do a temporary 
closure.
    The other trail is left as a corridor, but it specifically 
states that it's just because it is a corridor in a wilderness 
that it's still left to the discretion of the Secretary of 
Agriculture whether that remains motorized or not. You know, 
one of the attractions of the compromise efforts that 
Congressman Simpson did was that we would settle these 
questions once and for all. Unfortunately this leaves it wide 
open.
    We will be having to deal with this again and again with 
groups who are not thrilled with motorized recreation. As we 
speak the Idaho Conservation League is in litigation with the 
adjacent forest because of their travel plan has left open most 
of the trails that have been historically open. We can expect 
those same kind of challenges in the future in the Boulder/
White Clouds.
    The bill also did have some other enticements for the 
recreation community. There was an Owyhee park land transfer 
near Boise. There was a million dollars for development of that 
park. That's all been stripped out.
    The economic development elements, while there's still some 
land transfers the original plan was for land transfers for 
development purposes to help the county build its very small 
tax base and to try to bring some jobs. Today that county 
already has the largest wilderness in the lower 48 states in 
it. Yet it's one of the poorest counties in the State. With 
over 87 percent public lands there's very little opportunity 
for expansion of their tax base or economics in that county.
    So anyway, we also, you know, we question why that this 
bill has been changed. You know, our Honorable Senator Reid 
here, just recently had a public lands bill in Nevada with 
collaboration language in it that included the Silver State OHV 
trail. Senator Feinstein has got a new desert wilderness bill 
in process right now that includes permanent protections for 
five major OHV areas in the California desert also language to 
mandate expansion studies to expand those areas and also to 
allow for the first time, use of non-street legal off-high 
vehicles in a national monument.
    All of those types of things that were originally talked 
about have been stripped out from CIEDRA today. CIEDRA today is 
opposed by over 75 percent of the residents of Custer County. 
That doesn't sound like a bottom/up type of bill anymore.
    The majority of voters in Idaho have opposed this bill. We 
think that we can agree that this is a beautiful landscape that 
needs to be kept looking as it does today. But we think that 
the National Recreation Area designation already enacted by 
Congress already does that job while still allowing recreation 
of a variety of types to occur.
    Thank you very much. I'll be glad to answer any questions.
    [The prepared statement of Mr. Dart follows:]

   Prepared Statement of Bill Dart, Representative, Idaho Recreation 
                                Council

    Mr. Chairman, and Members of the Committee,
    Thank You for this opportunity to testify on S-3294, the Central 
Idaho Economic Development and Recreation Act (CIEDRA). This 
legislation is urgently important to many Idahoans and citizens from 
around the country who enjoy these lands today, but will be denied 
access if this legislation is approved.
    I am speaking today on behalf of the Idaho Recreation Council, a 
coalition of both motorized and non-motorized recreation groups that 
includes back country equestrians, mountain bikers, motorized trail 
bike riders, snowmobilers, and back country pilots. While we use 
different means to access and recreate on Idaho public lands, we all 
have a common bond, and that bond is our love for Idaho's public lands 
that we all cherish and enjoy. We can also agree with Wilderness 
advocates that the lands in question, the Boulder and White Cloud 
Mountains, are very special and none of us wants to see these lands 
developed or the landscape altered.
    This is not the first time that these lands have been proposed for 
Wilderness designation. Back in the early 70's, proposals for a large 
scale molybdenum mine led to a Wilderness proposal. At the same time, 
the nearby Sawtooth Mountains Primitive Area was also proposed for 
Wilderness designation. As a result, in 1972 the Sawtooths were 
designated as Wilderness and a compromise was struck for Boulder/White 
Clouds that created the Sawtooth National Recreation Area (SNRA). As a 
National Recreation Area, the land is permanently protected from 
landscape altering development, much like a Wilderness designation, but 
a much more diverse range of recreation activities is allowed in a 
managed setting, including mountain biking, snowmobiling, and motorized 
trail bike riding. Additionally, the Forest Service and the Bureau of 
Land Management (BLM) have more management flexibility to protect 
resources and maintain trails within a National Recreation Area than 
the very limited options they have within a Wilderness.
    So, our first major point is that this legislation is NOT necessary 
to protect and preserve the Boulder/White Clouds landscape; it is 
already very well protected and has been for 38 years now. Not only are 
the public land protected, private lands in the Stanley Basin within 
the SNRA are strictly limited regarding development, and Conservation 
Easements have been purchased to preserve the landscape as it is today. 
If this area is designated Wilderness the primary recreation users of 
the area will be excluded and the Forest Service and the BLM will lose 
most of their management options to protect resources and recreation 
opportunities.
    Of all of the recreation visitors to National Forests, less than 3% 
ever visit a Wilderness area. For this tiny percentage of the public 
who prefer to recreate in areas where mountain bikes, motorized trails 
bikes and snowmobiles are excluded, their needs are more than 
adequately served already. Besides the 217,000 acre Sawtooth Wilderness 
that is right across the valley, immediately to the north is the 
largest Wilderness in the lower 48 states, the 2.3 Million acre Frank 
Church/River of No Return Wilderness. Contiguous to that and separated 
by only a single dirt road is the 1.3 Million acre Selway/Bitterroot 
Wilderness. Adjacent to both of these vast Wildernesses is the 206,000 
acre Gospel Hump Wilderness. Additionally, within proposed Boulder/
White Clouds Wilderness, most of the land base is already closed to 
summer motorized uses and has been since the SNRA was created in 1972.
    While this is the first time CIEDRA has been introduced in the 
Senate, the concept was first introduced in the House of 
Representatives by Congressman Simpson back in 2002 under the same 
name, and subsequently re-introduced with the same language in every 
legislative session since then. We will give Congressman Simpson credit 
for trying very hard to reach a broad consensus with his proposal and 
attempting to satisfy the concerns of recreational interests, local 
residents, and county and city governments, as well as Wilderness 
advocates, hence the title of the original bill, the Central Idaho 
ECONOMIC DEVELOPMENT and RECREATION Act. Regarding economic 
development, Custer County, where CIEDRA is located, is one of the 
poorest in Idaho. Over 87% of the land in Custer County is public land, 
with little opportunity for economic development to increase the local 
tax base or bring in new employment opportunities. Most of the County's 
young people find no future there and move away. To solve this serious 
problem, the original CIEDRA language included public land transfers to 
the cities of Stanley, Clayton, Challis, Mackay and Custer County that 
were earmarked for development purposes. Additionally, grants in the 
amount of $5,100,000 were included to spur economic development.
    Regarding recreation, the other key component in the bill title, 
the bill included language to preserve the motorized and mechanized 
recreation opportunities that are within the SNRA but outside the 
proposed Wilderness boundaries. Congressman Simpson stated he wanted to 
settle the debate once and for all about what kinds of recreation would 
be allowed within the SNRA, and language was included to state that it 
was the intent of Congress that trails outside of the Wilderness 
boundary would remain motorized/mechanized in perpetuity, and should a 
valid reason ever arise to close any of the trails, new replacement 
trails would be constructed to replace those closed. Additionally, the 
bill provided for a 1,000 acre land transfer to Idaho Department of 
Parks and Recreation to create a new OHV park near Boise, plus an 
authorization for appropriation of $1,000,000 to develop and manage it.
    To the dismay of everyone involved in the compromise discussions 
with Congressman Simpson, almost all of the collaborative language that 
was written into earlier versions of CIEDRA has been stripped out of S-
3294, as well as the companion House bill, H.R 5205. When this bill was 
first proposed by Congressman Simpson, many of us were concerned that 
the compromise language written into the bill would disappear during 
the legislative process. Congressman Simpson promised many of us who 
participated in the negotiations that he would withdraw the bill rather 
than allow it to be passed without the compromise language. Apparently, 
however, Congressman Simpson has allowed the majority staff to delete 
the compromise language and then persuaded his Idaho Senate colleagues 
to introduce a similar bill.
    The title, CIEDRA, of this latest incarnation of the bill is truly 
disingenuous and represents what I call ``DC Doublespeak'', a name that 
says one thing but in reality is something entirely different. In my 
opinion, this bill should be renamed the ``Central Idaho Economic and 
Recreation Reduction Act, since this is what will actually occur if 
this legislation is becomes law. It is this kind of dishonesty that has 
led to the highest levels of public dissatisfaction with Congress that 
this country has ever witnessed and has already led to the rejection of 
many incumbents in special elections and primaries. I am one of the 
many voters in this country are fed up with the ``business as usual'' 
that CIEDRA typifies.
                      economic development issues
    I will explain why we think the current version of CIEDRA is 
disingenuous in regard to economic development:

  <bullet> Land Transfers to Custer County and the cities of Stanley, 
        Challis, Clayton and Mackay that were included in the original 
        CIEDRA for economic development purposes have been eliminated, 
        and the smaller land transfers that remain can only be used for 
        municipal purposes. When no longer needed for those purposes, 
        the land reverts to the Federal Government. Instead of land 
        transfers, some uses are to be authorized under special use 
        permits, something that could be done administratively without 
        CIEDRA. Of course, lacking a bigger tax base and new employment 
        opportunities, it will be difficult for local government to 
        develop and maintain any new municipal facilities.
  <bullet> Grants for $5,100,000 to Custer County and the local cities 
        for economic development purposes have been stripped out of the 
        bill.
  <bullet> The bill will ultimately result in removing several ranchers 
        from grazing permits on public lands and permanently retire all 
        of those grazing permits. Ranching is one of the major economic 
        engines in Custer County, and it will be reduced

    The net result is a reduction in local industry and no new 
opportunities for economic development. How can the title of ``Economic 
Development Act'' not be disingenuous?

                           RECREATION ISSUES

    As for Recreation, here are the reasons why this bill will severely 
reduce recreation, not enhance or increase it:

  <bullet> Mountain biking is very popular within the SNRA outside of 
        the existing Sawtooth Wilderness. Mountain biker and motorized 
        trail biker riders compose the majority of summer trail use, 
        with the exception of two trails, a short segment from the end 
        of Fourth of July Creek Road to Fourth of July and Washington 
        lake Trail. Some 37 trails (see attachment A),* the majority of 
        trails used by mountain bikers today, are located within the 
        proposed Wildernesses and will be closed to them. This is the 
        majority of trails in the SNRA and adjacent lands. How can 
        closing the majority of trails used by the majority of mountain 
        biking recreation visitors enhance recreation? Remember, only 
        3% of National Forest recreation visitors every go into a 
        Wilderness.
---------------------------------------------------------------------------
    * Attachments A and B have been retained in subcommittee files.
---------------------------------------------------------------------------
  <bullet> Although small in number, the 11 trails in the SNRA open to 
        motorized trail bike use (see attachment A) are vitally 
        important to the recreationists who use them. Motorized trail 
        bike riders are the predominant users of all of the trails open 
        to them. When trails are closed to motorbike use, there is also 
        a significant loss of trail maintenance capability and funding. 
        The Idaho Department of Parks and Recreation (IDPR) provides 
        Trail Ranger crews at no cost to the Forest Service to maintain 
        motorized trails each year. Additionally, Off-Highway Vehicle 
        Grant funds are available for major trail work, such as the OHV 
        Grant funded reconstruction work underway today to re-align and 
        re-construct Big Casino and Little Casino Trails. Motorbike 
        volunteers also clear many trails every year. Due to 
        significant number of bark beetle killed trees in the area, 
        plus the results of a major fire 3 years ago, every time the 
        wind blows more trees fall down. The trails need constant 
        clearing to keep them open.
    How does closing the majority of trails open to motorbike 
        recreation visitors, along with losing OHV grant funding 
        opportunities and the free services of IDPR Trail Ranger crews 
        enhance recreation opportunities?
  <bullet> The other major recreation visitor group that currently uses 
        lands within the CIEDRA boundaries is snowmobilers. The White 
        Cloud Mountains in particular, but also the Boulder Mountains, 
        have some of the very best mountain snowmobiling in not only 
        Idaho, but the western United States. Motorized-nonmotorized 
        conflicts between winter users within the lands affected by 
        CIEDRA are also almost non-existent. The best terrain for 
        snowmobiling is over 15 miles from plowed roads, far beyond the 
        capabilities of all but a handful of extremely fit cross county 
        skiers.

    So, we have a supposed ``Recreation Act'' that closes the majority 
of mountain bike and motorbike trails within the CIEDRA boundaries, 
closes tens of thousands of acres to snowmobilers, and leaves them open 
only to the very smallest recreation visitor segment. How can this 
``Recreation Act'' title not be disingenuous?

                          RECREATION ECONOMICS

    Recreation is a key economic engine for the region, including the 
town of Challis and especially for the town of Stanley. Not only will 
CIEDRA reduce recreation opportunities, it targets its reductions at 
motorized recreation, the segment of the recreation community that 
spends the most money in local communities, far more than most 
Wilderness recreationists. Snowmobilers are at the top of the list of 
``big spenders'' Not only do they spend a lot of money on their 
equipment, they spend far more on lodging, meals, and fuel than other 
recreation visitors. It is too cold to camp out, or even stay in RV's 
in Stanley, which is often one of the coldest places in the lower 48 
states. Without snowmobiling, Stanley would close virtually all of its 
businesses by late October, and stay closed until June.
    Motorbike riders also spend a lot of money in the local community. 
Typically, they go on day rides and are back in town or at camp at the 
end of each day. They spend a lot of money on equipment, but also on 
food, lodging, and fuel.
    Mountain bikers are also largely day riders who are back in town 
each evening; they too spend money in town.
    At the bottom of the list are Wilderness hikers. They typically 
come to town with a backpack full of freeze dried food they bought 
before they came to the area, go into the Wilderness for one or more 
days, and maybe buy a meal and a tank of gas on their way out of town.

    RECREATION ENHANCEMENT/PROTECTION LANGUAGE FROM ORIGINAL CIEDRA 
                         STRIPPED OUT OF S-3294

    The Senate version of CIEDRA, S-3294, bears little resemblance to 
the original House version of the bill introduced by Congressman Mike 
Simpson and resulting from his collaborative efforts. In Attachment B I 
have shown the original language, introduced as recently as the 110th 
session. I have highlighted in red the language that is important to 
the Idaho Recreation Council, and show in bold the sections of critical 
importance.

                            CLOSING SUMMARY

    As I have documented, S-3294 does NOT enhance Economic Development, 
and in fact will reduce economic activities. S-3294 does NOT enhance 
recreation, but instead, dramatically reduces recreation opportunities. 
S-3294 does NOT settle the question of long term motorized and 
mechanized recreation within the SNRA, but instead gives it NO 
PROTECTION AT ALL! It will instead encourage Wilderness advocacy groups 
to continue to push for the total elimination of motorized/mechanized 
recreation within the SNRA.
    S-3294 renders meaningless the collaborative process that Senators 
Crapo and Risch have used in their own public lands legislation and 
policy development, as exemplified in Senator Crapo's Owyhee Initiative 
and Senator Risch's development of a Forest Service Roadless Lands 
Policy for the state of Idaho. S-3294 has been gutted of all of the 
collaborative and compromise language and is now a purely ``Winner Take 
All'' Wilderness bill. This is NOT the way to develop public land 
legislation. It is NOT the way Senator Reid developed his Nevada public 
lands bills. It is NOT the way Senator Bennet developed his Washington 
County, Utah Wilderness bill. It is NOT the way Senator Feinstein 
developed her California Desert Wilderness and National Monument bill.
    Do our Idaho Senators want to be known for rejecting collaboration 
with Idaho residents in development of public lands policy, and letting 
Nevada and California Democrat Senators do a better job at 
collaborating with their constituents? Do our Idaho Senators want to 
allow DC Majority staff members re-write Idaho legislation and reject 
years of collaboration and compromise? Do they want to lock out the 
people who use and love these lands for the benefit of Wilderness 
advocacy groups who will never have enough Wildernesses? Already, these 
groups are developing multiple new Wilderness proposals to lock up even 
more Idaho public lands from recreationists and any chance of multiple 
uses to sustain rural communities like Custer County. How much 
credibility will these Senators have with on-going collaborative 
efforts, such as the Clearwater Collaborative Group? Will we ever be 
able to trust them again?
    Instead, it is time to reject disingenuous, no compromise 
legislation. It is not the time to push through a ``DC Doublespeak'' 
bill that is NOT supported by most Idaho voters. I urge you to reject 
this bill as written, and re-examine the basic premise of whether these 
lands that are already protected from mining, logging, and development 
need further protection. Is it necessary to lock out the people who are 
the majority of visitors to them today, visitors that care deeply about 
these lands and visit them with reverence for their natural wonders? It 
IS time to JUST SAY NO to locking up hundreds of thousands of acres for 
the exclusive use of a tiny minority of people who are always clamoring 
for more and more. These are our OUR PUBLIC LANDS, not lands just for a 
few.
    Thank You for taking the time to listen to our concerns.

    Senator Johnson. Mr. Johnson.

     STATEMENT OF RICK JOHNSON, EXECUTIVE DIRECTOR, IDAHO 
                 CONSERVATION LEAGUE, BOISE, ID

    Mr. Johnson. Mr. Chairman and members of the committee I 
thank you for the opportunity to appear here today. My name is 
Rick Johnson. I'm the Executive Director of the Idaho 
Conservation League.
    From the beginning this legislation was crafted to address 
a variety of interests. The bill now sponsored by the entire 
delegation has had significant bipartisan involvement in 
getting to this point. It is supported by the resort oriented 
Blaine County and rural and agricultural Custer County as well 
as editorials across the State.
    The Boulder/White Clouds are dramatic mountain ranges with 
soaring peaks and glittering lakes. The proposal contains 
headwaters of four rivers and habitat for a diversity of 
species. It includes both summer and winter range for wildlife 
and access points for all forms of recreation. It is a proposal 
we strongly support.
    That said, some of the boundaries in the proposal have 
given us pause. Why? Because of the extraordinary measures that 
have been taken to provide motorized access recreation access.
    Places long recommended by the U.S. Forest Service for 
wilderness will now be providing snowmobile access. Trails we 
believe should become wilderness will provide trail machine 
access for all time. While these boundary and language 
concessions have troubled our organization. We support the now 
because balance is how collaborative conservation moves 
forward.
    The bill and related measures contain a set of economic 
provisions. A total of $6 million would be provided for 
economic development through independent appropriation 
measures. Some of that money has already been received.
    The bill also authorizes conveyances for public lands--for 
Federal lands to Blaine and Custer Counties and affected towns 
for public purposes.
    The bill authorizes assistance to ranchers in the Boulder/
White Clouds region. Under the legislation the Forest Service 
is authorized to accept and permanently retire grazing permits 
and leases that are voluntarily donated by the ranchers. Up to 
$3 million of private funds have already been lined up for this 
purpose.
    So what happens when the Idaho public hears the details of 
such a proposal? When the public hears it fairly represented, 
and that's a key point, they support the bill by a margin of 2 
to 1. One of the most respected pollsters in the region just 
examined this issue. Every major component of the bill have 57 
percent support by the Idaho public or more.
    It is good legislation. It should pass. Is the bill 
perfect? Of course not, but what is that comes through the U.S. 
Congress. It is good legislation and should pass.
    The Idaho's Governor has recently provided a set of issues 
that I think we'll be talking about. Some of those are policy 
issues that should be on the table. Some are ideological issues 
that deal with State verses Federal control. They've been with 
our State in our debates since we were a territory. We will not 
settle those here today.
    Those conditions notwithstanding they do not take away from 
the incredible amount of work that went into crafting this 
bill. This bill is the product of a decade of collaborative 
conservation. This bill reflects years of bridge building. 
Having built the bridge, I believe it is time for us to cross 
it.
    Our support for this bill has drawn painful opposition from 
the left. More recently the Idaho delegation, who all sponsor 
this bill, have been opposed by the right. Today our challenge 
is to rise above that and represent the true majority who sit 
squarely in the center, the center that wants to see 
collaborative conservation move forward in the West.
    I'd like to offer my thanks to Senator Jim Risch on the 
committee for your sponsorship of this bill. Together we have 
worked on collaborative conservation measures before including 
the Idaho Roadless Rule. We have more work to do in that 
endeavor.
    I offer my thanks to Senator Mike Crapo for his leadership. 
We too, have traveled this path of collaborative conservation 
on the Owyhee Canyon lands.
    It's also important to recognize that the collaborative 
work that we have been a leader of in the State of Idaho and 
have gotten some accolades here today for, began with this work 
here in the Boulder/White Clouds. It is this work that is most 
being watched by other folks around the country to see if we 
really are crafting a new way to advance conservation in the 
West.
    Finally I'd like to thank Representative Mike Simpson. Long 
ago he said, ``If this were easy it would have been done by 
now.'' It has not been easy. But together we have come a long 
way.
    Now is the time for Idaho to step forward and demonstrate 
to the country how we are leading the effort to advance common 
sense conservation, collaborative solutions to public land 
management in the American West. I thank you for the 
opportunity to speak today. I look forward to the questions.
    [The prepared statement of Mr. Johnson follows:]

     Prepared Statement of Rick Johnson, Executive Director, Idaho 
                     Conservation League, Boise, ID

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today. My name is Rick Johnson and I am the 
executive director of the Idaho Conservation League. I ask that these 
comments be included in the hearing record.
    The Idaho Conservation League was founded in 1973 and our mission 
is to protect Idaho's clean air and water, wilderness, and the outdoor 
values that provide Idaho its extraordinary quality of life.
    The Idaho Conservation League strongly supports this legislation 
and we have worked with members of the Idaho congressional delegation, 
particularly, Rep. Mike Simpson, to advance various forms of this 
measure for nearly a decade. I personally have worked to protect this 
area for over 25 years. I have been the executive director of the Idaho 
Conservation League for the past 15 years and our organization has 
worked with every member of the Idaho congressional delegation to craft 
common sense solutions on a variety of conservation measures over many 
years.
    The Idaho Conservation League's strategic approach to conservation 
has evolved over time, and across a broad portfolio of work, we have 
become Idaho's leading voice for conservation. Our work in the Boulder-
White Clouds initiative has been a major catalyst to our development of 
collaborative approaches to conservation on issues ranging from energy, 
mercury pollution, mining, engagement with major businesses already in 
or seeking to locate in Idaho, open space protection, and what brings 
us here today: public land protection.
    Our work with members of the Idaho delegation to create Idaho-based 
solutions for federal lands in Idaho has not always been popular, but 
we've learned that leadership is about doing what is right for the land 
and people. Here in the Boulder-White Clouds, some of our allies and 
friends believe we have compromised too much. This has been expressed 
over the years in local forums and congressional forums such as this. 
In recent weeks, the right flank has been criticizing the Idaho 
delegation, all of whom are sponsors of this bill.
    The stature of our nation is not shaped by shrill voices from the 
left or the right. The stature of our nation rests on the shoulders of 
increasingly frustrated hard-working people who stand squarely in the 
center, people who are tired of politics of polarization and seek 
common sense solutions built from good ideas crafted from various 
interests and points of view. They seek balance. And they seek 
progress.
    This legislation is the culmination of a long attempt to provide 
that for a special part of Idaho.
    The Central Idaho Economic Development and Recreation Act (CIEDRA) 
is commonsense conservation that protects a great part of the American 
West, yet does so by incorporating the needs of people who live and 
work around the affected landscape.
    This bill was written by building bridges. This legislation has 
been before the U.S. Congress for many years. It is based on 
compromise, collaboration, and good faith negotiations concluded with 
handshakes, all values and actions we see too little of today. It is 
time for the Idaho congressional delegation to affirmatively join with 
your colleagues and cross the bridge we have built together, 
demonstrating that Idaho can continue to be a leader in spanning the 
gulf that often separates federal land management with the daily 
concerns of the people who live there.
    This is not a perfect bill. But it is a good bill. It should pass 
and now is the time.

                               BACKGROUND

    Before the late 1960s few people knew anything about the Boulder-
White Cloud Mountains of Central Idaho. That began to change in 1968. 
The American Smelting and Refining Company proposed an open-pit 
molybdenum mine at the base of Castle Peak--an aptly named monolith 
that rises well above the surrounding peaks in the center of the White 
Clouds. The mining industry had never faced any considerable opposition 
in Idaho. In fact, the contribution of the industry to the state's 
economy is recognized in Idaho's nickname, ``The Gem State.''
    The proposed mine ignited a controversy that the mining industry 
had never encountered in Idaho before. When the state endorsed the 
proposed mine, the Director of the Idaho Department of Parks board, 
Ernest Day, resigned his post. His aerial photos of Castle Peak helped 
to illustrate to the public where the proposed open pit mine would be 
located right at the foot of Castle Peak.
    Coincidently a young Cecil Andrus was running for governor. Andrus 
took the position that this very special part of Central Idaho was too 
important to sacrifice. In 1970, Andrus won the election largely 
because of the stance that he took on the need to preserve the Boulder-
White Clouds.
    Two years later Senator Frank Church successfully moved legislation 
through Congress to designate the Sawtooth National Recreation Area and 
Wilderness. The national recreation area withdrew the area surrounding 
Castle Peak from mining but punted on the issue of wilderness 
designation for the Boulder-White Clouds, leaving the decision to a 
future Congress by directing the Forest Service to study the area for 
possible future wilderness designation.

                             PUBLIC SUPPORT

    Before I get into details of the bill, I would like to set some 
context regarding where the citizens of Idaho are when it comes to this 
legislation. A lot of folks suggest they know what the public thinks 
when they are seeking to influence public policy. While I do not 
suggest that public opinion alone should set the direction of 
legislation, we have recently seen advertising against this bill 
include creative use of public opinion research.
    The Idaho Conservation League just commissioned a public opinion 
poll regarding the Boulder-White Clouds. The poll was in the field 
statewide in Idaho June 4 and 5 with a sample of 400 voters. Our long-
time pollster is Bob Moore of Moore Information, a firm that has long 
worked in Idaho for top-tier business and political clients and is 
currently working with various Republican office holders in Idaho. I 
believe I am on firm ground when I say Moore Information is one of the 
most respected gauges of public opinion working in Idaho. We 
assiduously worked to ensure the polling instrument was fair.
    In Bob Moore's words:

          After respondents hear a summary of the bill, it is favored 
        by a two-to-one margin (59-30%). There is consensus support 
        throughout the state among most voter subgroups. Most widely 
        supportive are Democrats (79-13%), but there is majority 
        support among Independents (57-30%) and plurality support among 
        GOP voters as well (50-41%). Snowmobilers (8% of the voting 
        population) are the only subgroup who opposes the bill. Dirt 
        bike, motorcycle riders and off-road vehicle users are divided 
        in their opinions and a majority of hunting and fishing 
        enthusiasts are supportive.
          In addition to exploring overall support for CIEDRA we also 
        asked about five of the bill's specific components. All five 
        generate 57% support or higher as shown by the following table.


------------------------------------------------------------------------
                                                Don't              Net
           CIEDRA elements             Favor     know    Oppose   favor
------------------------------------------------------------------------
Most motorized trails in the area         66%      11%      23%     +43%
 would be managed exactly as they
 are today. One trail would be
 closed to motorized use and other
 trails would be remain open and
 accessible for motorized use (Q12)
The bill would transfer some federal      62%      12%      26%     +36%
 lands and monies to local
 governments to support public
 services and would facilitate
 economic development in the area
 (Q11)
About 330,000 acres of public lands       58%       7%      35%     +23%
 would be designated wilderness.
 This wilderness designation means
 the area would remain open to
 livestock grazing and most types of
 recreation, including hunting,
 camping, horseback riding and
 fishing, but new roads, mining,
 drilling, mountain biking, and
 recreational off-road vehicles
 would be prohibited (Q10)
The bill was introduced and is            57%      20%      23%     +34%
 supported by every member of
 Idaho's Congressional delegation
 (Q14)
 Traditional uses, such as livestock      57%      14%      29%     +28%
 grazing, will be allowed, ranchers
 who wish to voluntarily sell their
 public grazing allotments could be
 bought out with non-government
 funds (Q13)
------------------------------------------------------------------------

    In addition to the overall public support demonstrated by this 
poll, the collaborative efforts to address longstanding public land 
issues in this landscape, including wilderness designation, are 
supported by prominent Idaho leaders from both political parties, 
including Cecil Andrus (D), former Governor of Idaho and Former 
Secretary of the Department of Interior, James McClure (R), former 
Idaho U.S. Senator and past chairman of this committee, and Bethine 
Church, wife of the late Frank Church, former Idaho U.S. Senator and 
one of the great conservation advocates to have served in the Senate.
    More than 150 Idaho businesses support Congressman Simpson's 
efforts to protect the Boulder-White Clouds area as wilderness.
    The two affected counties, Blaine and Custer, as well as most of 
the affected city and town governments, have passed resolutions 
supporting Boulder-White Clouds wilderness, economic and recreation 
protection legislation.
    Although the timber industry has not formally endorsed CIEDRA, 
representatives for timber interests have said they have no interest in 
a timber harvest in the Boulder-White Clouds area due to the small 
amount of timber resources in comparison to extraction costs.

                        WILDERNESS DESIGNATIONS

    The Central Idaho Economic Development and Recreation Act would 
bring closure to the Boulder-White Clouds wilderness debate that has 
lingered since 1972. S. 3294 would designate approximately 332,775 
acres of wilderness in the Boulder-White Clouds, including the proposed 
White Clouds, Hemingway-Boulders and Jerry Peak Wilderness Areas. These 
important designations would protect 150 peaks over 10,000 feet in 
elevation, headwaters of four Idaho rivers, spawning beds for salmon, 
habitat for wildlife and backcountry destinations for hikers, hunters, 
anglers, campers and generations of Americans to come.
    CIEDRA would repeal the wilderness study area provision for the 
Boulder-White Clouds that has remained unresolved since 1972. 
Similarly, S. 3294 will resolve the impasse over four Bureau of Land 
Management wilderness study areas. This legislation will release the 
entire Corral-Horse Basin Wilderness Study Area and portions of the 
Jerry Peak, Jerry Peak West and Boulder Creek Wilderness Study Areas 
for multiple use management.
    If Congress passes this legislation, 51,100 acres of Forest Service 
lands currently recommended for wilderness designation in the Sawtooth 
National Forest Land and Resource Management Plan will not be 
designated as Wilderness. Nearly 80,500 acres of wilderness study areas 
managed by the Bureau of Land Management will be released for multiple 
use management. This is a combined total of 131,500 acres of public 
lands in Central Idaho that are currently managed as de facto 
Wilderness that will no longer be studied for wilderness designation.
    The Idaho Conservation League believes that many of these eligible 
yet not included areas exemplify extraordinary wilderness character 
and, to be candid, this has given us pause.
    Why? Because these areas were not proposed for wilderness in the 
extraordinary measures the bill sponsors took to provide access for 
motorized recreation. Places long recommended by the U.S. Forest 
Service for wilderness were left out to provide snowmobile access. 
Trails we believe should become wilderness were left out to provide 
trail machine access for all time.
    While these boundary and language concessions have troubled our 
organization, we support them because balance among stakeholders is how 
collaborative and successful legislation moves forward.
    Across this landscape Rep. Mike Simpson has worked hard on many 
levels, and one was to make us understand that many interests are 
involved in the Boulder-White Clouds proposal and if the Idaho 
Conservation League wants to see progress and lasting success, we have 
to not only accept needs of others, we ultimately had to become an 
advocate for them. We've come to acknowledge and appreciate this fact, 
and we commend Congressman Simpson for working relentlessly to take 
into account the diversity of these interests. S. 3294 is a well-
constructed piece of legislation that is the right thing to do for 
Central Idaho both economically and ecologically. The places protected 
by designating the 332,775 acres of wilderness proposed in CIEDRA are 
extraordinary, and while places left out are important and worthy, the 
final result achieved by this legislation outweighs any pause for 
concern that the Idaho Conservation League may have once had.

                                GRAZING

    It is a common misconception that the Wilderness Act of 1964 
prohibits grazing operations in wilderness. As this Committee is fully 
aware, established grazing operations are permitted within designated 
wilderness areas. S. 3294 is consistent with the Wilderness Act by 
allowing existing grazing operations to continue in the proposed White 
Clouds, Hemingway-Boulders and Jerry Peak Wilderness Areas.
    CIEDRA also provides a mechanism for willing ranchers to retire 
their grazing leases and permits and receive fair compensation for the 
termination of their grazing rights. When a rancher chooses to 
voluntarily retire their grazing rights, fair compensation will be paid 
by private funding sources already lined up. This important provision 
has no negative fiscal impact on the federal budget and ensures that 
the quality of rangelands and wildlife habitat in the Boulder-White 
Clouds will only improve over time.

                         OUTFITTING AND GUIDING

    S. 3294 allows outfitting and guiding operations within the 
proposed wilderness areas when such ventures lead to the realization of 
the values of wilderness protections in the Boulder-White Clouds.

               STATE JURISDICTION OVER FISH AND WILDLIFE

    This legislation does not affect the State of Idaho's jurisdiction 
over the management of fish and game species within the wilderness 
areas designated by Title I (See Section 102(g)(1)). The Idaho 
Department of Fish and Game will continue to regulate hunting and 
fishing activities within and outside the wilderness areas designated 
by CIEDRA.
    When the Idaho Department of Fish and Game believes that it is 
necessary to take active steps to manage or monitor populations of fish 
and game species within the wilderness areas designated by CIEDRA, the 
Department will have authority to do so, as it always has.
    The preservation of 332,775 acres in three new wilderness areas 
will also benefit hunters and anglers by protecting important habitat 
for deer, elk, pronghorn, mountain goats, bears, salmon, steelhead, 
trout and numerous other species. Because wilderness designation is the 
highest level of protection afforded by Congress, the wilderness 
designations in CIEDRA will provide a positive and lasting benefit for 
species of fish and game by enhancing and protecting their habitat. 
More productive and pristine habitat means that hunters and anglers 
will find healthier and stronger populations of fish and game in the 
Boulder-White Clouds. The lasting result is a legacy for generations of 
sportsmen to come.

                     STATE OF IDAHO ENDOWMENT LANDS

    Within the boundaries of the proposed Jerry Peak Wilderness, there 
are four entire sections of state endowment lands as well as portions 
of four other sections. Section 107(2) of CIEDRA requires that ``. . 
.the Secretary shall seek to complete an exchange for State land 
located within the boundaries of the wilderness areas designated by 
this title.''
    This requirement should be seen by the State of Idaho as a win-win 
scenario. The majority of these state lands are currently accessible by 
hiking or horseback only. Furthermore, these sections of state lands 
are isolated from one another. As a result, these endowment lands 
realize little financial return to the state endowment for public 
schools.
    The exchange required by CIEDRA will provide the opportunity for 
the State of Idaho to exchange and consolidate state endowment lands in 
locations were more revenue can be generated for the Idaho endowment 
fund for public schools. CIEDRA also expedites this exchange by 
requiring a three-year time limitation. If the State of Idaho is 
concerned that this exchange will not take place in a timely fashion, 
Congress might chose to appropriate the necessary financial resources 
for the Bureau of Land Management to complete the exchange.

          A FEW MYTHS ABOUT CIEDRA RELATED TO MOTORIZED ACCESS

    Before addressing the motorized recreation provisions in detail, we 
would like to address issues that have recently gained traction.
    In recent months we have heard charges that this bill was written 
without input from the motorized community.
    In fact, when Rep. Simpson began the long path to this hearing 
today, he met with the following motorized recreation groups: : the 
Blue Ribbon Coalition, the Idaho State Snowmobile Association, Magic 
Valley Trail Machine Association, Idaho Trail Machine Association, 
Treasure Valley Trail Machine Association, Idaho Recreation Council, 
and the Idaho Mountain Biking Association.
    In recent months motorized community leaders have suggested they 
were cut out of the stakeholder process and indicated they're upset the 
bill before us today doesn't include a Boulder-White Clouds Management 
Area that was incorporated into pervious versions of CIEDRA.
    This provision established a management area that surrounded the 
proposed wilderness like a donut. This would have made current 
motorized trails outside of the wilderness permanently open by law, no 
longer subject to agency discretion and management. Republican majority 
staff working for then-Chairman of the House Resources Committee, Rep. 
Richard Pombo, expressed what a good deal this was for motorized 
recreation. Yet motorized recreation organizations never expressed 
support for this provision.
    Collaborative work, in our view, rests on your record, and we 
believe it is disingenuous for these same groups to suggest that one of 
the main reasons to oppose CIEDRA now is because it does not include 
the management area they never supported in the past. The reality is 
this doesn't matter on the ground, however, because all of the trails 
that would have been open to motorized used within the management area 
in previous versions of the bill are still open under the current 
version.
    Some motorized opponents to CIEDRA say it will close 895 miles of 
motorized and mountain bike trails.
    This is factually wrong.
    Our analysis suggests that total motorized trail closures under 
this bill will be 35 miles. Mountain bike trails that will be closed 
total 218 miles. These closures in no way represent a serious drop in 
overall capacity for Idaho recreationists, capacity that has been 
hailed by the Idaho Department of Parks and Recreation as ``one of the 
largest designated trail systems in the country with approximately 
19,000 miles of summer trails and 8,000 miles of winter trails.'' The 
issue of what trails and routes will remain open in CIEDRA is addressed 
more below.
    There have recent claims that the delegation backed away from 
promises to fund various Idaho motorized recreation programs.
    This is factually wrong.
    In addition to the economic development provisions provided to 
adjacent counties, towns, and ranchers, the Idaho delegation has 
already followed through on promised funding for several motorized 
recreation programs. These funds are already set aside in the FY 2010 
Interior Appropriations bill.
    There is $1.2 million for trail maintenance and improvement in the 
Sawtooth National Recreation Area, with $500,000 for non-motorized 
trail improvements, $500,000 for motorized trails, and $200,000 for 
wheelchair trails. The exact FY 2010 Interior Appropriations bill 
language follows:

          Of the funds appropriated for trail maintenance and 
        improvement in the Sawtooth National Recreation Area, $500,000 
        is for trail improvements; $500,000 is for maintenance of 
        existing motorized trails and areas; and $200,000 is for the 
        improvement of two existing trails to provide primitive 
        wheelchair access at Murdock Creek and Phyllis Lake.

    Additionally, the FY 2010 Interior Appropriations bill provides 
$400,000 to provide for the acquisition of the Piva Parcel, on which a 
bike path from Stanley to Redfish would be constructed.
    Previous versions of CIEDRA included authorization provisions for 
these programs, but the delegation has since learned that such language 
tends to cause procedural obstacles. Thus, the recently introduced 
version of CIEDRA doesn't include authorizing language for the 
motorized programs outlined above, with the sponsors concentrating 
instead on lining up funding for these programs in the FY 2010 
appropriations bills. Appropriations measures control the purse strings 
for actual programs. With Rep. Simpson the ranking member of the House 
Interior Appropriations Subcommittee, the Idaho delegation has 
successfully allocated this funding.
    It's unfortunate that motorized groups opposed to CIEDRA have 
chosen to misrepresent funding information to scare their memberships 
and discredit their delegation.
    Last, I want to clarify a commonly circulated myth that no 
motorized vehicles are allowed in wilderness, ever. This is not true. 
While motorized and mechanized vehicles are not allowed in wilderness 
for recreational purposes, vehicles are permitted in wilderness for, 
among other things: emergency purposes such as search and rescue, 
treatment of fire, insect, and disease, and certain grazing facility 
maintenance.

                   MOTORIZED & MECHANIZED RECREATION

    Motorized recreationists are one of the four main constituencies 
consulted by Congressman Simpson when crafting CIEDRA. The proposed 
wilderness area boundaries in S. 3294 were carefully drawn in a way 
that minimizes changes to existing motorized recreational access in the 
Boulder-White Clouds.
    Furthermore, CIEDRA brings resolution to the wilderness debate in 
the Boulder-White Clouds that has lingered since 1972. As we pointed 
out earlier, there is a combined total of 131,500 acres of public lands 
in Boulder-White Clouds that are currently managed as de facto 
wilderness that will no longer be studied for wilderness designation if 
this legislation is passed by Congress.
    The 2003 Sawtooth National Forest Management Plan and the 1987 
Challis National Forest Management Plan collectively recommend over 
218,000 acres of Forest Service lands for wilderness designation in the 
Boulder-White Clouds. In order to ensure that key areas, roads and 
trails remain accessible to motorized vehicles, approximately 51,100 
acres of this total would not be designated as wilderness by S. 3294. 
Similarly, 80,500 acres of BLM wilderness study areas will be released 
from further study and opened to multiple use management.
    If CIEDRA does not pass Congress, approximately 328,200 acres of 
Forest Service and BLM land will remain in limbo and continue to be 
managed as de facto wilderness under wilderness study area provisions 
contained in existing laws. Unless this legislation passes Congress, 
the federal land management agencies could close any of the lands or 
trails under consideration for wilderness if at any point in time these 
agencies determine that motorized use is undermining their wilderness 
character.
Snowmobiles
    The largest concessions made to motorized recreationists are for 
winter snowmobile use in the Boulder-White Clouds. Of the 218,000 acre 
of lands recommend for wilderness designation by the Forest Service, 
more than 51,000 acres would not be designated as wilderness in order 
to ensure that snowmobile access may continue in several locations. 
Existing high elevation snowmobile access would be maintained in the 
following locations since these areas would not be designated as 
Wilderness:

  <bullet> Fourth of July Basin
  <bullet> Washington Basin
  <bullet> Champion Lakes
  <bullet> Warm Springs Meadow
  <bullet> North Fork Big Wood River

    The North Fork Big Wood River was excluded from the Hemingway-
Boulders Proposed Wilderness in S. 3294 because of an agreement reached 
between snowmobilers and backcountry skiers in 2001 that resolved 
recreational conflicts in the backcountry areas surrounding Sun Valley. 
This legislation honors that agreement.
Off-Road Vehicles
    The proposed Wilderness boundaries in S. 3294 also exclude key 
motorized trails in the Boulder-White Clouds. In fact, strong and 
perhaps unprecedented provisions in the legislation ensure that the 
Germania Creek and Frog Lake Trails will remain open to motorcycles. 
Title III of the legislation provides legislative guarantees that these 
trails will remain open to such use:

  <bullet> Germania Creek.--``The Secretary shall maintain a trail for 
        single track, 2-wheel motorized and mechanized travel between 
        the Hemingway-Boulders Wilderness designated by section 
        101(a)(1) and the White Clouds Wilderness designated by section 
        101(a)(2).'' (Section 301(a)(1)).
  <bullet> Frog Lake Loop.--``Neither designation of the White Clouds 
        Wilderness by section 101(a)(2) nor the exclusion of portions 
        of Forest Service trail 047 and 682 (commonly known as the 
        ``Frog Lake Loop Trail'') from the wilderness shall affect the 
        management of those trails for motorized or mechanized travel 
        in accordance with existing laws.'' (Section 301 (c)(1)).

    Not only are the Germania and Frog Lake Trails given special 
legislative guarantees for the future, but these trails are also 
located within ``cherry stem'' wilderness corridors, where dirt bikers 
will be able to ride with wilderness areas surrounding them on both 
sides of these trails.
    Other roads and trails are also excluded from the proposed 
wilderness areas in order to maintain motorized and mechanized access 
in key locations. These roads and trails include:

  <bullet> Washington Basin Road 197
  <bullet> Washington Lake Trail 109 to Washington Lake (motorcycles)
  <bullet> Fourth of July Road 209 to the Phyllis Lake turnoff
  <bullet> Phyllis Lake Road 053
  <bullet> Pole Creek Road 197
  <bullet> Fisher Creek Road 132
  <bullet> Williams Creek Trails 104 & 332 (motorcycles)
  <bullet> North Fork of the Big Lost River Road 146
  <bullet> Casino Lakes Trails 103, 232, 616, & 646 (motorcycles)
  <bullet> Rough Creek Trails 617 & 647 (motorcycles)
  <bullet> Railroad Ridge Area Roads 667, 669 & 670
  <bullet> French Creek Trail 675 (motorcycles)
  <bullet> Big Lake Creek Trail 678 (motorcycles)
  <bullet> Germania Creek-Bowery Cutoff Trail 114 (motorcycles)
  <bullet> Livingston Mill Road 667
  <bullet> East Fork Road 120 to Bowery Guard Station
  <bullet> West Pass Creek Road 063 to section 10
  <bullet> Big Fall Creek Road 168
  <bullet> Little Fall Creek Road 502
  <bullet> Park Creek Road 140
  <bullet> Herd Creek Road to Herd Lake
  <bullet> Road Creek Road

    This list of concessions for motorized recreation paint a pretty 
clear picture. The vast majority of existing motorized recreational 
opportunities will remain intact. In the case of Germania Creek, , S. 
3294 provides even more certainty that these trails will remain open to 
motorized access than the Forest Service can assure administratively.

                          ECONOMIC DEVELOPMENT

    CIEDRA, and related appropriations measures, contain several 
provisions to assist adjacent counties develop a more sustainable 
economy. Specifically:

  <bullet> A total of $6 million would be provided for economic 
        development--including item like community centers and health 
        clinics--through appropriations measures. Some of this money 
        has already been received.

  <bullet> The bill facilitates economic assistance to ranchers in the 
        East Fork region of the Boulder-White Clouds who have seen 
        allotments reduced in recent years. Under the legislation, the 
        Forest Service and BLM are authorized to accept and permanently 
        retire grazing permits voluntarily donated by ranchers. 
        Arrangements have mean made through a private foundation to 
        provide fair compensations, up to $3 million.

  <bullet> The bill authorizes small conveyances of federal lands to 
        Blaine and Custer Counties (and affected towns) for public 
        purposes, including such uses as public parks, cemetery, rod 
        and gun club, waste water transfer station, fire station, and a 
        school bus turnaround.

                            DISABLED ACCESS

    CIEDRA authorizes creation of the first-ever wheelchair accessible 
trails in wilderness. The trails would be ``primitive access,'' which 
means that they would be compacted, somewhat leveled, and cleared of 
impassable obstacles like big rocks. These short trails (approximately 
1.5 miles) would allow a wheelchair user to navigate them unassisted, 
as well as provide recreation opportunities for elderly users.

                               CONCLUSION

    After this long discussion about this bill it's important to go 
back to the place.
    The White Clouds and Boulders are two stunning mountain ranges and 
have provided generations jaw-dropping scenery and memories to last a 
lifetime. To the east, the high tundra slopes of Jerry Peak are 
commonly home to herds of big game. Throughout this large and diverse 
area you can find quiet moments surrounded in scenic grandeur that will 
last with you forever. It is time to provide lasting protection for 
this Idaho gem.
    I have personally been traveling this landscape for decades. I was 
part of the first group to traverse the White Clouds on skis and have 
caught fish in the lakes and streams, mended blisters formed on the 
trails, climbed the peaks, and swum in the lakes. Around campfires and, 
yes, around congressional hearing tables back here, I've been talking 
about finally getting this area protected for a very long time. And my 
work merely picked up the mantle of those who worked to protect Castle 
Peak from a mine those many years ago.
    These are national lands, held in trust by the federal government, 
and while many of us who live in Idaho think of these lands as our own, 
these are America's lands. While we are far from the ramparts of Castle 
Peak today, where we are is totally appropriate, for it is only 
Congress that can provide the protection this landscape deserves. This 
bill is the product of a decade of collaborative discussions and 
negotiating.
    This bill is the product of years of bridge building. Having built 
the bridge, it is time to cross it. It is not the time to allow others 
to destroy it. Our support of this bill has drawn painful opposition 
from the left. The Idaho delegation have been recently been opposed by 
the right.
    Our challenge today is to rise above the noise and provide 
leadership that represents the true majority who sit squarely in the 
center and want to see collaborative conservation advance in the West. 
CIEDRA is an example of statesmanship and collaboration at its finest. 
It's time the legislation moves forward to enactment.
    I'd like to offer my thanks to Sen. Jim Risch on the committee for 
your support of this bill. Together we have worked on several 
collaborative conservation projects, such as the Idaho Roadless Rule, 
with more work ahead. I offer my thanks to Sen. Mike Crapo for his 
leadership. We, too, have traveled the path of collaboration together, 
here, and in the Owyhee Canyonlands. I will also say to Senator Crapo 
that you were a catalyst to me to reconsider the strategic path of 
conservation in Idaho. I've long advanced conservation outside of 
collaborative processes, but it was your encouragement that helped lead 
us to this path many years ago.
    And while this is a Senate hearing, I must also thank Rep. Mike 
Simpson. As you long ago said, ``if this were easy it would have been 
done by now.'' It's been far from easy, and you Congressman, have 
provided leadership and persistence that truly is worthy of the land 
that you have worked hard to protect, and equally significant, worthy 
of the extraordinary people who live around it whom you represent.
    Now is the time for Idaho to step forward and demonstrate to the 
country how we are leading the effort to advance common-sense 
collaborative solutions to public land management in the American West.
    Thank you for the opportunity to be here today.

    Senator Risch. Mr. Chairman? I've got another meeting I've 
got to attend. Do you mind if I ask some questions of the last 
2 witnesses.
    Senator Johnson. Certainly.
    Senator Risch. First of all, Rick, let me say thank you and 
both of you and Mr. Dart for coming today.
    I don't think I've ever had a public setting in a 
Congressional setting where I can thank you for the work on the 
Idaho Roadless Rule. I said it and I mean it that I believe 
that you worked in good faith on it. As you recall we had a 
little trouble getting started.
    But once we got started we worked in good faith on it. I 
found the Idaho Conservation League and you, personally, to be 
very reasonable and in the final product that we developed and 
it's a product that, I think, Idahoans can be justly proud of, 
including yourself, including your organization. So thank you 
for that work on behalf of all Idahoans actually.
    I've got a couple of questions.
    No. 1, Mr. Dart, you recall you and I talked about this 
recently and I told you, you know, I am not familiar with the 
details of this because I wasn't engaged in the give and take 
on it. But I assume you were along with Congressman Simpson. 
Rick, could you respond to--and I told you I was much more 
concerned about the process and how we get to the goal line 
than I am about the details of it because you guys have got to 
hammer that out.
    But could you respond to Mr. Dart's statements about how--
he made reference to the fact that, as I understood him 
correctly, that after the collaboration occurred there's been 
some stripping out, I think was his words that occurred. Could 
you respond to that?
    Mr. Johnson. Certainly. When we are working in any 
collaborative manner and I think the Owyhee Canyonlands bill is 
a good example of this. You have two different arenas where you 
have to work.
    One is, and as you alluded to earlier, in the past some of 
these processes have been top/down. But if you're going from 
the bottom/up, you obviously start in the home turf. You sit 
around with Idahoans and you create Idaho solutions. You come 
up with your ideas of what you think would be best for 
representing all the different interests.
    There were a bunch of things that I wanted to get in there. 
There were a bunch of things that motorized folks wanted, large 
conveyances of public land that were once being talked about as 
great as 16,000 acres. So Idaho interest came up with the Idaho 
solution, as we saw it.
    The Idaho Conservation League was willing to support that. 
In earlier drafts of the bill I've sat at this very table to do 
that. But there is ultimately the second arena that you have to 
work. That is here. That is Washington, DC. That is the arena 
of Congress.
    In the Owyhee lesson what we had was a package of items 
that were brought here to Washington, DC and many of those 
things also fell out. Many of those things did not survive in 
the final legislation. What did come back to Idaho is an 
understanding of what was possible. As they often say, politics 
is the art of the possible.
    So we did the best job in the Owyhee that we could do. We--
but some things don't stand the heat of the cauldron back here. 
But what we did have were handshakes, agreements, how we would 
look to the future management in Owyhee County. We're going to 
stick with those.
    I think that's there's opportunity to create some of the 
handshakes and agreements here. But there are certain pieces of 
the bill that were created in Idaho that frankly don't--didn't 
stand back here. I think it's important. It's an indication 
that we have the hearing today that is an indication there was 
bipartisan involvement in this bill. I think that it would not 
have been scheduled for this hearing, were not some elements of 
the bipartisan process in play.
    Senator Risch. Last question, Mr. Chairman. Rick, the three 
areas that are here that have been designated for wilderness: 
Hemmingway, Boulders/White Clouds and Jerry Peak. Those three 
are three areas that, in the Roadless rule, when you and I 
worked on that that we designated for what is essentially 
wilderness designation, although we called it wild land 
recreation in order to designate it as such.
    Does--what does this bill do as far as changing the 
designation or the protection or what have you for those three 
areas compared to what it is in the Roadless rule? As I recall, 
we had 280 areas. It's hard to remember each one of them. But 
as I recall I think virtually everyone agreed that these three 
areas were pristine areas, some of the finest in the country 
and no one really questioned the judgment that they should be 
protected as was done in the Roadless rule.
    Does this bill change that at all?
    Mr. Johnson. I think one of the key things that's important 
to recognize about that very question, Senator, is that 
wilderness is something different. Wilderness is the highest 
standard that we can provide to protection of land in this 
country. For that reason the founders of the Wilderness Act and 
this body right here determined that that was not something to 
be left in the discretion of the management agencies.
    The Roadless rule that you have alluded to that we worked 
on together was a process that informed and ultimately helped 
provide direction to an agency decision. But that is an agency 
decision that can be overturned by different agency leadership, 
different administration, what have you. Wilderness obviously 
could be overturned too, but it takes an act of Congress.
    So our issue with what makes it different is that 
wilderness is really the gold standard to protect a landscape. 
As you have already alluded to, as many people have, the 
Boulder/White Clouds are an extraordinary place, and 
extraordinary example of why the Wilderness Act was written. It 
was an extraordinary example of why the Sawtooth NRA was 
originally passed in 1972. There are a number of reasons why 
the Boulder/White Clouds were not included at that time.
    But the long and short of it is, no one ever debated 
whether or not that area should receive the protection. I 
believe that, you know, one reason----
    Senator Risch. I appreciate the discussion about the 
difference between the rule and the statutory. I agree with 
you. From an absolute legal standpoint you're absolutely 
correct. From a practical standpoint you and I both know that 
before they overturn the rule that we worked on it's going to 
be over our collective dead bodies. I suspect over most 
Idahoans.
    But the specific question I had was the details of what is 
done in this bill. As you recall in the Roadless, Chris Wood, 
who had written the Clinton Roadless rule agreed that what we 
had done in our protection of these areas was a higher level of 
protection than actually the Clinton Wilderness or Clinton 
Roadless rule did. Does this ratchet it up more? Does it keep 
it the same? What are the--what is the level of protection?
    Mr. Johnson. The Idaho Roadless rule does not address the 
issues related to motorized recreation. Wilderness designation 
would do that. I think in the State that it is the sixth 
fastest growing State in the country right now. We need to 
recognize the greatest places that we have for future 
generations, protect those for a variety of different reasons.
    While wilderness designation addresses the issue of 
mechanizing motorized use proactively and prohibits it, the 
work that we did to exclude trails and design boundaries to 
protect motorized access, I think, quite fairly deals with that 
issue. But the most significant threat to this area over the 
long term which is up to administrative decisions in the future 
is motorized recreation.
    Senator Risch. Thank you very much. Mr. Chairman, thank 
you. I appreciate your indulgence. I'm going to have to excuse 
myself.
    Thank you very much. Gentlemen, thank you.
    Mr. Johnson. Thank you, Senator.
    Senator Johnson. The gentleman from Idaho may be excused.

  STATEMENT OF DAN O'BRIEN, SOUTH DAKOTA RANCHER, HERMOSA, SD

    Mr. O'Brien. Thank you, Mr. Chairman. It's good to be here. 
It's good to have a chance to speak to this committee and 
specifically to you, of course, in my support of S. 3310.
    My name is Dan O'Brien and I live and operate a ranch, live 
on and operate a ranch adjacent to the Indian Creek Wilderness 
area, proposed. My wife and I run both cattle and buffalo. We 
hold the largest grazing permit in the Indian Creek area. My 
livelihood is absolutely dependent upon the grasslands that 
surround my home. So I have a huge stake in this legislation.
    I bought my first cattle in 1974. I've long been a member 
of the South Dakota Stockgrowers Association. I'm an avid 
hunter.
    I lived on the Great Plains all of my adult life. I've 
weathered the winters and the droughts. I've experienced the 
violent swings in cattle prices and the stresses of severe 
credit crunches.
    While I'm a proud member of the community that will most be 
directly affected by the wilderness, I've always had an 
interest in Western South Dakota as it relates historically, 
socially, economically and environmentally to the rest of the 
Nation and indeed, to the world. In addition to ranching I 
worked as a biologist, a teacher and a writer. My area of 
consuming interest is the Northern Great Plains. I've 
researched and written a dozen books on the subject.
    In addition to my point of view as an in the trenches 
rancher, I bring a unique perspective to the question of Great 
Plains wilderness. It's my considered opinion that no American 
grassland better fits the spirit of the Wilderness Act than the 
Indian Creek area. Visitors to Indian Creek are uniformly 
awestruck by the beauty and the silence.
    From many of the high spots you can see Mount Rushmore. 
It's too far away to see the faces, but I can feel Teddy 
Roosevelt staring down at me. I know that that good Republican 
President, war hero and self proclaimed Dakota man would 
approve of this bill. He was one of the first men of power to 
recognize that increasing population accompanied by expansion 
of settlement and growing mechanization were grave threats to 
the silence and solitude that helps keep up all sane.
    It's unfortunate that the debate over managing public lands 
has become so divisive that testimony is uncomfortable. Though 
the majority of South Dakotans are in favor of the Indian Creek 
Wilderness, some are adamant in their opposition. Acrimonious 
disagreements between neighbors are particularly unproductive. 
They can be intimidating in a close knit neighborhood. They can 
tend to tamp down valuable debate.
    The fact is that nearly all South Dakotans share the desire 
to keep our land wild, healthy, free, quiet and grazed. The rub 
comes in management of our lands. I'm a believer in America and 
the Democratic government that we're participating in today. 
The Forest Service is part of that government and I believe 
that considering the present low profile of the Buffalo Gap 
National Grasslands, that they do a good job.
    Is it perfect? Of course not. Would I like to see it done 
better? Absolutely.
    I appreciate the language that Senator Johnson has inserted 
into S. 3310 concerning the management of invasive species, 
fire, prairie dogs as well as other issues important to 
ranchers. I believe management problems do not stem from a lack 
of Forest Service expertise or a complacent staffing. But from 
a low position in the Forest Service list of priorities.
    Community support and involvement would go much farther at 
solving management problems than blind opposition. Elevating 
the visibility of Indian Creek is the best bet for improving 
its management. I'm a proponent of wilderness designation for 
four simple reasons.
    First, I find nothing in the Wilderness Act that would 
change my ranch's operations. Grazing shall clearly continue 
under the Wilderness Act and the Congressional Grazing 
Guidelines.
    Second, I believe that without this additional layer of 
protection the Indian Creek area will eventually fall prey to 
the abuse and destruction of ever expanding off road traffic.
    Third, a prairie wilderness experience is a rare privilege 
that all citizens should be able to access.
    Finally, as a rancher and a businessman I believe that 
wilderness adds value to South Dakota's economy through 
expanding opportunities for tourism, unique hunting experiences 
and new forms of income generation for a way of life that has 
always needed to adapt to prosper.
    Thank you for letting me testify. I'd be glad to answer any 
questions that I can.
    [The prepared statement of Mr. O'Brien follows:]

  Prepared Statement of Dan O'Brien, South Dakota Rancher, Hermosa, SD

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to discuss the Tony Dean Cheyenne River Valley Conservation 
Act of 2010 (S. 3310).
    My name is Dan O'Brien and I live on and run a ranch, adjacent to 
the proposed wilderness area. In fact, our ranch borders and overlooks 
a large expanse of the proposed wilderness for a mile and a half. We 
run both buffalo and cattle and are holders of the largest grazing 
permit in the northern portion of the proposed wilderness area. My 
livelihood is dependent upon the grasslands that surround my home, so I 
have a large stake in the legislation before you today. I strongly 
support S. 3310 for a number of reasons, which I'll outline in my 
testimony.
    I bought my first cattle in 1974. I have been a member of the South 
Dakota Stockgrowers Association since the mid-seventies. I have lived 
on the Great Plains all of my adult life. I have weathered the winters 
and the droughts of the region. I have experienced the violent swings 
in cattle prices and the stresses of severe credit crunches. In recent 
years I have taken on the challenges of sustainable, value added 
agriculture in the form of Wild Idea Buffalo Company. Our homegrown 
South Dakota Corporation encourages sustainable, low input grazing, by 
establishing a marketing system that ships grass-fed, field harvested 
buffalo meat to every state in the nation from our office in Rapid 
City, SD. It is a meat packing and internet company that employs six 
people and provides buffalo ranchers, white and Native American, access 
to markets that have always been beyond their grasp. Most recently, my 
wife and I have begun to experiment with ecological and agricultural 
tourism as they relate to possible revenue sources for ranchers in a 
changing world.
    While I am a proud member of the community that will be most 
directly affected by wilderness, I have always had an interest in 
western South Dakota as it relates--historically, socially, 
economically, and environmentally--to the rest of the nation and, 
indeed, to the larger world. I have worked as a biologist for South 
Dakota Game Fish and Parks Department, as a teacher, and a writer. I 
have made a forty-year study of the American Great Plains, from Montana 
to Texas and written a dozen books on the subject. In addition to 
ranching, I have also worked in construction and driven a truck. But my 
area of consuming interest and, some would say, expertise, is the Great 
Plains and specifically the northern Great Plains--which encompasses 
the proposed Indian Creek Wilderness Area.
    I believe that, in addition to the point of view of an in-the-
trenches rancher, I bring a unique perspective to the issue of Great 
Plains wilderness. And it is my considered opinion that no American 
grassland landscape better fits the spirit of the 1964 law than the 
area described in the Tony Dean Cheyenne River Valley Conservation Act 
of 2010.
    The proposed Indian Creek Wilderness Area lies on the east side of 
the Cheyenne River--one of the premier prairie rivers that drain the 
Black Hills and flows to the Missouri and then on to the Gulf of 
Mexico. It is unique in its remoteness, history, biodiversity, and 
proximity to other public lands, including the Pine Ridge Indian 
Reservation--of the Lakota People, Badlands National Park, Buffalo Gap 
National Grasslands, and the Black Hills National Forest. Many people 
think of western South Dakota as a flat land, but those people seldom 
leave the interstate highway. If they would leave that highway at the 
little town of Wall, and drive just fifty miles south, then turn west 
at the even smaller, and aptly name town of Scenic, SD, they would find 
the proposed wilderness area. If they would leave their car and walk 
for a bit, they would find the geographic relief breathtaking. When I 
take people back there, on foot or on horseback, they are uniformly 
awestruck by the beauty and the silence that is woefully lacking in 
their lives. If you face west on one of the many high spots in the 
Indian Creek area, and squint into your binoculars, you can see Mount 
Rushmore. I can't make out the faces of Washington, Lincoln, or 
Jefferson, but in that rugged solitude, I can feel Teddy Roosevelt 
staring down at me. And I know that good Republican president, war 
hero, and self proclaimed ``Dakota Man'' would approve of the Tony Dean 
Cheyenne River Valley Conservation Act of 2010. He was one of the first 
men of power to recognize that ``increasing population, accompanied by 
expansion of settlement and growing mechanization'' were grave threats 
to the silence and solitude that helps keep us all sane. The Indian 
Creek Area affords such silence and solitude and deserves maximum 
federal protection to help keep it that way.
    It is unfortunate that the discussion over management of public 
lands is at times divisive. So divisive, in fact that testifying in 
front of you today is uncomfortable. Though the majority of South 
Dakotans are for the wilderness, some are adamant in their opposition. 
There are unfortunate disagreements, sometimes even between neighbors 
among whom acrimony is particularly unproductive. Such disagreements 
can be intimidating in a close-knit community and they tend to tamp 
down constructive debate. The fact is that nearly all South Dakota 
shares the desire to keep our land wild, healthy, free, quiet, and 
grazed. Everyone wants the Indian Creek area managed in this way. The 
rub comes in deciding who is best qualified to manage these public 
lands to that end.
    I am a believer in the United States of American and in the 
democratic institutions we have put in place to manage our affairs. The 
Forest Service, functioning under the Department of Agriculture, is 
part of that government and I believe that, given the present low-
profile of the Buffalo Gap National Grasslands, they do a good job. Is 
it perfect? Of course not. Would I like to see do it done better? 
Absolutely. I appreciate the language that Senator Johnson has inserted 
into S. 3310 concerning the management of invasive species, fire, 
prairie dogs, as well as other issues important to ranchers. I do not 
believe that the management problems stem from lack of expertise or 
from complacency of staff. More culpable is Buffalo Gap National 
Grassland's low position on the Forest Service's list of funding 
priorities. Funding constraints make their job very difficult, and 
community support and involvement would go much farther in solving 
management problems than opposition to this legislation. Elevating the 
visibility of Indian Creek is the best bet for improving its 
management.
    I am a proponent for wilderness designation for four simple 
reasons: First, I find nothing in the Wilderness Act that would change 
my way of operating my ranch. Grazing shall continue. The laudable 
American Horse Culture that I respect and love would continue. In fact, 
our way of life would be enhanced. It is the law of the land that 
grazing shall continue and with, due diligence on our part of both 
Forest Service staff and local ranchers, the protective provisions of 
the Wilderness Act and the more recent congressional grazing guidelines 
will create a well managed wilderness we can all be proud of.
    Second, I believe that without this additional layer of protection 
the Indian Creek Area will eventually fall prey to the same abuses and 
destruction, in the form of unauthorized or additional authorized off-
road traffic, that other public land in our area has fallen prey to. 
ATV's can easily abuse delicate prairies and are great crushers of 
silence and solitude. Within a few miles of the proposed wilderness 
area there are ``restricted'' public hillsides cut deep by the spinning 
tires of motorcycle enthusiasts. On the Great Plains such scars may 
never heal. Indeed, the wagon tracks that cut the Dakotas prairies by 
Custer's Cavalry in the 1874's can still be seen. It is no accident 
that several motorized recreation organizations oppose this bill, even 
though the largest two proposed wilderness areas are already closed to 
motorized recreation.
    Third, I hold the wilderness experience to be a privilege that all 
citizens should be able to access. I see a PRAIRIE wilderness 
experience to be nearly sacred. Grasslands are the least protected 
landscape in world. The American grasslands are under siege from 
powerful world forces. If a prairie wilderness experience is to remain 
available to the people who own those prairies, a line must be drawn 
among the yucca plants.
    My fourth reason for being in favor of extending wilderness 
designation to the Indian Creek Area in particular is perhaps self-
serving, but let me remind you that I am a business man on several 
fronts. I'm sixty two years old and, though I love the old ways of 
making a living in Western South Dakota, I have seen the world change 
radically in the decades that have passed. I know full well that change 
is inevitable and I believe that, unless we preempt the changes on the 
horizon, those old ways will die ignoble deaths. Agriculture on the 
Great Plains has always been short of cash. Ecological and agricultural 
tourism are new revenue centers that we people on the land can live 
with. In fact, they may be of great help in protecting that American 
Horse Culture that I love so much. Many other countries, and indeed 
parts of South Dakota are in the midst of this adjustment in the form 
of outdoor recreation, including hunting. To be blunt, I see a 
wilderness area in anyone's backyard as a boon to commerce, an elevator 
of land values, and excellent medicine for the American spirit.

    Senator Johnson. Mr. Edoff.

  STATEMENT OF SCOTT EDOFF, SOUTH DAKOTA RANCHER, HERMOSA, SD

    Mr. Edoff. Thank you, Chairman Johnson. I appreciate the 
opportunity to testify today. My name is Scott Edoff. My wife, 
Veronica and I operate a ranch adjacent to the proposed 
wilderness areas. I am the fourth generation on this ranch and 
I want our children and grandchildren to be able to continue in 
our footsteps.
    My family has been ranching in this area since before South 
Dakota was a State. For nearly 70 years we have had a permit to 
graze livestock on what is now the proposed Indian Creek 
wilderness. It is ironic that Dan O'Brien and I live only three 
miles from each other. When he moved here 7 years ago I never 
thought that we would wind up in a hearing in Washington, DC on 
opposite positions on wilderness designation.
    Wilderness can be divisive. I do not like how it has 
divided our communities. The Governor of South Dakota, the 
Pennington and Custer County Commissioners have gone on record 
as opposed to wilderness designation which indicates to me that 
the Forest Service did not do a good job, a good enough job of 
building consensus before they made their recommendation for 
wilderness designation.
    I spent a lot of time studying this proposed wilderness and 
concluded this would be detrimental to the land, to our ranch 
and to public interest. I've met and discussed this wilderness 
proposal with the proponents several times. I do not agree that 
the legislation is necessary to protect these areas. It is not 
threatened and the advocates for it cannot explain why 
wilderness designation is necessary to protect these areas from 
the very management that restored them to the place of wonder 
and beauty they are today.
    Sadly, the wilderness designation will create many losers 
starting with the users that have co-existed for decades on 
this land. Many will be excluded. I understand that by law 
grazing is allowed on wilderness areas. But the Congressional 
language does not guarantee that the number of cattle will stay 
at the current level. Instead, history from other wilderness 
areas is a death by a thousand cut scenario with the Forest 
Service continually reducing the number of livestock based on 
loss of forage because of their inability to manage properly.
    All but two of the other ranchers who have grazing permits 
in this proposed area share my concern and my opposition to 
this and with good cause. We've all seen firsthand what the 
prairie dogs and black footed ferrets have destroyed in nearby 
Conata Basin and the Canadian Thistle overrun in Sage Creek 
Wilderness in the Badlands National Park. We all see the leafy 
spurge epidemic next to the proposed Chalk Hills Wilderness and 
the Mountain Pine Beetles have killed most of the trees in the 
Black Elk Wilderness.
    As Chief of the Folsom Volunteer Fire Department I am 
concerned about Forest Service direction to let fires play 
their natural role in wilderness. The pesky thing about fires, 
prairie dogs, noxious bees is they do not respect borders. 
Where I live the whole landscape is the ecosystem. My family 
and our family ranch are part of it. Multiple use management 
has been successful here. We should continue what is working 
and not gamble on a wilderness designation on these grasslands.
    The push for wilderness designation was orchestrated by 
national organizations. They published slick brochures, stood 
outside the entrance into the Badlands National Park asking 
tourists to sign postcards and sent thousands of those 
postcards, thousands of those postcards, to the Forest Service 
during forest plan revision. The Forest Service organized a 
collaborative group during the forest plan revision. That 
groups did not recommend wilderness designation, but the Forest 
Service went ahead and recommended wilderness designation 
anyhow.
    These areas are not ``untrammeled by man'' as described in 
the Wilderness Act. Most of these lands were homesteaded and 
still have remnants of those homesteads today. I support the 
concept of multiple use management because it's about what is 
good for the land, what is good for the people and it's about 
our livelihoods.
    For many years we've proven we can achieve these objectives 
without wilderness. We've been good stewards of the land. We've 
protected the land like it was our own. Instead of designating 
wilderness areas let's continue the multiple use management 
that has worked so well for so many years.
    Again, I thank you for this opportunity. Thank you, 
Chairman Johnson.
    [The prepared statement of Mr. Edoff follows:]

  Prepared Statement of Scott Edoff, South Dakota Rancher, Hermosa, SD

                               BACKGROUND

    Thank you Chairman Wyden, Senator Johnson, and members of the 
subcommittee for the opportunity to testify today regarding S. 3310, 
the Tony Dean Cheyenne River Valley Conservation Act of 2010.
    My name is Scott Edoff. My wife, Veronica, and I own and operate a 
ranch about 40 miles east of Rapid City, South Dakota. My family has 
been ranching in this area since before South Dakota was a State. We 
have had a permit to graze livestock on what is now the Buffalo Gap 
National Grasslands since 1944. I'm the 4th generation on this ranch, 
and I hope our children and grandchildren will be able to continue in 
our footsteps.
    Specific to this Wilderness bill, we have a grazing permit located 
in the proposed Indian Creek Wilderness. Consequently, I've spent a lot 
of time studying Wilderness and how it could affect management of the 
national grasslands.
    Indian Creek is a special place of wonder and beauty. I never get 
tired of seeing coyotes, turkeys, bluebirds, meadowlarks, deer and 
antelope, the lush green grass in the spring, and the colorful badland 
sediments. I've met and discussed Wilderness designation with the 
Wilderness proponents several times. Some of those discussions weren't 
all that pleasant, like Tony Dean's speech when he publicly referred to 
me and the other permittees as `welfare ranchers'. The one thing we all 
agree on is that we like the national grasslands just the way they are. 
However, I disagree that Wilderness legislation is necessary to 
``protect'' these areas. Nobody has been able to explain to me exactly 
what Wilderness legislation would ``protect'' the proposed Wilderness 
areas from. To my knowledge, there are no threats to the Buffalo Gap 
National Grasslands that require Wilderness designation. Further, the 
historic multiple use management of these areas has allowed a variety 
of uses, including motorized access, rockhounding, and grazing, none of 
which have apparently adversely affected the areas' Wilderness 
qualities.
    I've concluded that permanent Wilderness designation would be 
detrimental to the land, to our ranch, and to the public interest. 
Multiple use management has been successful, and we should continue 
what's working. I don't want to gamble on the potential effects of 
Wilderness designation, and I cannot support Wilderness designation. To 
the extent there are on-the-ground management concerns about the 
Buffalo Gap National Grasslands, there are better ways of addressing 
those concerns than through Wilderness designation.

                           EFFECTS ON GRAZING

    My biggest concern about Wilderness designation is the effect on 
our grazing permit. I've read the Congressional Grazing language and I 
understand that grazing is technically allowed in Wilderness areas. 
What I fear is `the death by a thousand cuts' resulting from Forest 
Service decisions to incrementally reduce our numbers of livestock 
based on the loss of forage due to their inability to adequately 
control prairie dogs or noxious weeds or fires. Again, the Forest 
Service, technically, has the authority to manage wildlife, noxious 
weeds and fire in Wilderness areas. However, their options are clearly 
more limited, in terms of methods, timeliness, cost, and effectiveness, 
inside designated Wilderness than outside of designated Wilderness. 
These limitations are the product of the Wilderness Act, the Forest 
Service's own policies, and the threat of appeals and/or litigation 
from environmental special interests.
    Retired U.S. Forest Service Forest Supervisor Hugh Thompson 
recently wrote in a letter to the editor submitted to the Rapid City 
Journal (see Attachment 1) that--

          As a retired Forest Supervisor for the US Forest Service and 
        a current grazing permittee on a Forest Service allotment with 
        my family, I completely understand the concerns of the grazing 
        permittees in the National Grasslands about the effects of 
        Wilderness designation.
          The Wilderness advocates are right about Congressional 
        language stating that grazing may continue as a permitted 
        activity in designated Wilderness areas. However, the 
        Congressional language doesn't say that the number of cattle 
        will stay at the current level. There's also nothing in the 
        Congressional language or proposed legislation to ensure that 
        the Forest Service will aggressively control prairie dogs, 
        noxious weeds or fires. Just look at what the prairie dogs have 
        done to Conata Basin, and it's not even Wilderness.

    I've discussed Wilderness designation with most of the other 
ranchers who have grazing permits in the proposed Wilderness areas. 
Only one of them supports Wilderness designation. The number one reason 
permittees oppose Wilderness designation is they are afraid their 
livestock numbers would inevitably be reduced, or eliminated 
altogether. That would have negative effects on their ranches, the 
grassland vegetation, on wildlife habitat, on the potential for 
wildfires, and on local economies. They are especially concerned about 
the Forest Service's inability to control prairie dogs and noxious 
weeds and the effect on the grasslands and forage. While not a perfect 
comparison, I look at the prairie dogs and black-footed ferrets in the 
Conata Basin, the Canadian thistle in the Sage Creek Wilderness in the 
Badlands National Park, the leafy spurge next to the proposed Chalk 
Hills Wilderness, and the mountain pine beetles in the Black Elk 
Wilderness, and I fear for the future of Wilderness areas in the 
national grasslands.
    Additionally, I'm concerned about wildfires in Wilderness areas. 
One of the objectives for Wilderness according to the Forest Service 
Manual states, ``Permit lightning caused fires to play, as nearly as 
possible, their natural ecological role within wilderness.'' I'm the 
Chief of the Folsom Volunteer Fire Department. I support prescribed 
burning with clearly identified objectives. But, I'm very concerned 
about how the Forest Service would implement allowing lightning caused 
fires to play ``their natural ecological role'' in the Indian Creek 
Wilderness.
    The pesky thing about fires, prairie dogs, and noxious weeds is 
that they don't respect borders. Where I live, the whole landscape is 
the ``ecosystem'', and my family and our family ranch are part of it. 
Together, we need to continue to actively manage it that way.

                        EFFECTS ON MULTIPLE USE

    The Wilderness proponents say we need to protect 48,000 acres of 
the Buffalo Gap National Grasslands by designating it Wilderness. Even 
if those areas are not designated Wilderness, they will still be 
rugged, remote, and inaccessible. That's just the character of the 
land.
    What will change if these areas are designated Wilderness are the 
uses that have co-existed for decades. Wilderness designation creates 
winners and losers. The very premise of Wilderness designation includes 
restricting or prohibiting other uses and users, even though, in this 
case, the users have been able to peacefully co-exist for decades. The 
Forest Service has already started restricting uses based on their 
decision to recommend the Indian Creek and Red Shirt areas for 
Wilderness designation. Old access routes for rockhounds and old two 
track roads used by motorized recreationists have already been closed. 
Rockhounds can still use the area, but they have to walk further and 
further, which means the areas are less and less accessible and 
available.
    The fact that some people are advocating for Wilderness designation 
in the Buffalo Gap National Grasslands is really a testament to the 
tremendous success of the multiple use management that they seem not to 
appreciate. I don't understand why Wilderness advocates believe that 
Wilderness designation is necessary to protect these areas from the 
very management that has resulted in the current conditions.

                       WILDERNESS IMPLEMENTATION

    Wilderness seems to invite controversy. Numerous interest groups 
have a long history of challenging activities in designated Wilderness 
based on perceived violations of the Wilderness Act. Several recent 
examples include a) litigation over State of Idaho Fish and Game 
landing helicopters in a Wilderness area to dart and collar wolves, b) 
Forest Service prohibition on Idaho Public Television filming 
conservation work in a Wilderness area, c) controversy over the Swan 
Crest Run through proposed Wilderness areas, and 4) a lawsuit 
challenging a travel management plan in Minnesota based, in part, on 
effects to adjacent Wilderness areas. I am afraid that Wilderness 
designation would increase the likelihood of controversy, 
administrative appeals, litigation, and delays in Forest Service 
decisionmaking that would potentially have adverse effects on the 
ability of the Forest Service and/or permittees to implement projects 
in a timely and cost-effective manner.

                         WILDERNESS DESIGNATION

    I also want to comment on the process to recommend these areas for 
Wilderness designation. The push for Wilderness designation didn't 
start as a local grassroots effort. This started with national 
organizations asking people to sign postcards supporting Wilderness on 
the road into the Badlands National Park. Their talking points were 
that Wilderness designation was needed to protect the national 
grasslands. They published slick brochures. Then they organized the 
mailing of thousands of postcards to the Forest Service during the 
forest plan revision.
    During the revision of the Nebraska National Forest forest plan, 
the Forest Service organized a collaborative group of diverse 
stakeholders. That group did not recommend Wilderness designation, but 
the Forest Service recommended Wilderness designation anyhow.
    The way I read it, the proposed Wilderness areas don't even meet 
the Wilderness Act description of Wilderness, i.e., ``A wilderness, in 
contrast with those areas where man and his own works dominate the 
landscape, is hereby recognized as an area where the earth and 
community of life are untrammeled by man, where man himself is a 
visitor who does not remain.'' The National Grasslands aren't 
``untrammeled by man''. Most of these lands were homesteaded, and still 
have remnants of homes, outbuildings, plowed land, fences, roads, 
wells, and a windmill.
    The following have gone on the record as opposed to Wilderness 
designation in the Buffalo Gap National Grasslands:

    --South Dakota Governor Mike Rounds
    --Pennington County Commission
    --Custer County Commission
    --Fall River County Commission
    --Meade County Commission
    --Black Hills Badlands and Lakes Association of South Dakota
    --Western Dakota Gem and Mineral Society
    --Blue Ribbon Coalition
    --Black Hills Regional Multiple Use Coalition
    --Association of National Grasslands
    --Black Hills ATV/UTV Riders Club
    --Black Hills Forest Resource Association
    --Black Hills 4 Wheelers--Rapid City Chapter
    --BH Snowmobile Club
    --Black Hills Women In Timber
    --Cottonwood Grazing Association
    --Dakota Territory Cruisers
    --Hill City Chamber of Commerce
    --Off-Road Riders Association
    --Pioneer Co-op Grazing District
    --South Dakota Farm Bureau
    --South Dakota Grasslands Coalition
    --South Dakota Off Highway Vehicle Coalition
    --South Dakota Public Lands Council
    --South Dakota Snowmobile Association
    --South Dakota Stockgrowers
    --South Dakota Family Farms Association
    --South Dakota Trail Riders
    --Spearfish Livestock Association
    --Western South Dakota Fur Harvesters

    Earlier this year, the South Dakota legislature overwhelmingly 
passed (49 to 19 in the House and 28 to 6 in the Senate) House 
Concurrent Resolution No. 1002. HCR 1002 requests that federal agencies 
structure their policies so no area in South Dakota may be designated 
as wilderness unless the designation has been approved by a two-thirds 
majority in each house of the South Dakota Legislature. To date, the 
Legislature has not given that approval for Wilderness designation in 
the Buffalo Gap National Grasslands.

                               CONCLUSION

    I support the concept of multiple use management, and sharing these 
special places with other users. A lot of people and groups are 
concerned about this Wilderness proposal from a recreational 
perspective. However, for me and the other permittees, Wilderness 
designation is about our livelihoods and the future of our ranches. 
We've been good stewards. We've protected this land like it was our 
own. But, now, I feel like I'm being penalized for doing a good job.
    Again, thank you for the opportunity to testify today, and I would 
be happy to work with you Chairman Wyden and Senator Johnson to address 
the issues raised here today.

                              Attachment 1
                                       Spearfish, SD, May 17, 2010.

Rapid City Journal, Box 450, Rapid City, SD.
    Letter to Editor,

    As a retired Forest Supervisor for the US Forest Service and a 
current grazing permittee on a Forest Service allotment with my family, 
I completely understand the concerns of the grazing permittees in the 
National Grasslands about the effects of Wilderness designation.
    The Wilderness advocates are right about Congressional language 
stating that grazing may continue as a permitted activity in designated 
Wilderness areas. However, the Congressional language doesn't say that 
the number of cattle will stay at the current level. There's also 
nothing in the Congressional language or proposed legislation to ensure 
that the Forest Service will aggressively control prairie dogs, noxious 
weeds or fires. Just look at what the prairie dogs have done to Conata 
Basin, and it's not even Wilderness.
    I believe the permittees are entirely justified in their fear of 
`death from a thousand cuts' in their opposition to designated 
Wilderness. These permittees have done a great job as stewards of the 
national grasslands for over 60 years. They deserve our thanks for a 
good, well done job, not Wilderness designation that will make a tough 
job even tougher.
                                             Hugh Thompson,
                                        W. W. Thompson & Sons, Inc.

    Senator Johnson. Thank you. Mr. O'Brien, what portion of 
your grazing operation relies in permits to graze on Federal 
lands on the Buffalo Gap National Grassland?
    Mr. O'Brien. The math comes out to about a half. We run our 
animals basically half a year on the Forest Service land and 
then back on our deeded land for the other half a year. It's 
really more valuable than that because to cut our operation in 
half would put us out of business.
    So we're really dependent on the Forest Service.
    Senator Johnson. Have U.S. Forest Service managers ever 
kept you or your ranching operation from doing what you needed 
to do?
    Mr. O'Brien. I've never had any problem with that. We have 
a pretty good relationship with the Forest Service. They seem 
to be willing to let me do just about anything that's under the 
regulations. No problem there.
    Senator Johnson. Mr. Edoff, as you know the bill provides 
the Forest Service the authority to control for prairie dogs 
and builds on the Forest Service plan to control dogs from 
encroaching on private lands from grasslands. If you feel that 
that language does not afford adequate protections what do you 
believe is the proper method to control prairie dogs?
    Mr. Edoff. At the current time the Federal Government has a 
contract with the State to reduce prairie dog populations. When 
that took place I believe the magic number that the Fish and 
Wildlife Service and the State came up with was 150,000 acres 
of prairie dogs to keep it at that number. Today they have well 
over 400,000 acres of prairie dogs in the State of South 
Dakota.
    So I'm not really sure that there's really any legislation 
that we can put in that will--that can force the Federal 
Government to take care of their prairie dogs. They've got 
legislation right now and it's not taking place. It's not being 
adhered to.
    Senator Johnson. I agree with your statement that national 
grasslands should be managed for multiple uses. Both grazing 
and the establishment and maintenance of wilderness are 
consistent with Multiple-Use Sustained Yield Act. What do you 
think is an appropriate balance for wilderness and other issues 
on the Buffalo Gap National Grassland?
    Mr. Edoff. With respect to you, Mr. Johnson, I wonder if we 
couldn't do some sort of a limited use or a recreational use, 
some sort of a limited use of access into there where maybe 
there is a main trail, maybe even more trails than what you 
have proposed at Indian Creek to allow people to see this 
place. I mean, this--I've lived there all my life and with my 
grandfather and it's just the greatest place in the world to 
me. It's home to me.
    Senator Johnson. What is the most valuable, in terms of 
wildlife and scenic beauty? Is it the Chalk Hills area, the 
Indian Creek area or the Red Shirt area, the three areas of the 
Buffalo Gap National Grasslands, which I'm referring to? Are 
they all the same or are they different?
    Mr. Edoff.
    Mr. Edoff. I personally, I think Indian Creek is a lot 
prettier and stuff.
    Senator Johnson. Yes.
    Mr. Edoff. But that's because it's home.
    [Laughter.]
    Senator Johnson. Understandable.
    Mr. Edoff. Yes, but the Red Shirt is just as pretty and 
just as scenic as, you know, Indian Creek.
    Senator Johnson. Yes.
    Mr. O'Brien, from your 40 years of experience studying the 
Great Plains combined with your experiences of rancher and 
biologist, can you tell us how much wild prairie grassland 
exist today compared to 100 years ago?
    Mr. O'Brien. That's a pretty tough question. It would be 
interesting to have that analysis. But certainly in my 
experience traveling up and down the Great Plains, the amount 
of grasslands that's truly wild like, Scott and my home, is 
pretty small.
    There are fragments, of course, that are in pretty good 
shape. But to have something on the landscape scale that we're 
talking about here is rare indeed.
    Senator Johnson. Speaking as a business owner, will passage 
of this Wilderness legislation hurt your bottom line, Mr. 
O'Brien?
    Mr. O'Brien. I don't think so. In fact I think it would do 
just the opposite. I think that the opportunities for increased 
economic development and value added agriculture, I think they 
increase, they're enhanced by a wilderness designation.
    Senator Johnson. Some people have said that these lands are 
already managed for non-motorized use. Why is wilderness 
designation necessary?
    Mr. O'Brien. I think that, as was brought up with some of 
the other panelists here, what's important is that presently 
the travel plan is temporary. It frightens me. We have an area 
I know that some good friends of ours have a permit on where 
the motorcycles run. It really is an embarrassment. It's pretty 
ugly.
    I have friends come. They say, what's this, you know? I 
don't have an explanation for that.
    I believe that the pressure from those groups, if we don't 
get wilderness designation, will finally wear people down and 
we'll have motorcycles running all over the place.
    Senator Johnson. Please give me your estimation of the 
importance of the 3 areas in the Chalk Hills, Indian Creek and 
Red Shirt areas. Are they all the same in importance or are 
they different?
    Mr. O'Brien. I think they do have different characters. I'd 
have to agree with Scott on that. You know, Indian Creek is 
what I know best. It's home, as Scott says. I would, if I had 
to rank them, which I prefer not to, I would go from Indian 
Creek, Red Shirt and then Chalk Hills.
    Senator Johnson. Yes. I want to thank the witnesses today 
for their testimony. You have raised important issues. I look 
forward to working with you on enacting this bill with whatever 
changes are necessary.
    Thank you.
    Mr. O'Brien. Thank you.
    Mr. Edoff. Thank you.
    Senator Johnson. This hearing is adjourned.
    [Whereupon, at 4:40 p.m. the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                                 ______
                                 
     Responses of Carl Rountree to Questions From Senator Barrasso

                                s. 3294

    The Forest Service provided Senator Murkowski with a number of maps 
of power withdrawals along the Salmon River and North Fork of the Big 
Lost River and Big Wood River. This bill also includes language that 
prevents anyone, even the President, from further water development 
within the Wildernesses.
    In the case of the Salmon River Electric Co-op power withdrawal 
along the Salmon River, it appears that parts of the Boulder White 
Cloud Wilderness overlap parts of the Co-op's power withdrawal.
    Question 1. Does the Bureau of Land Management see this overlap as 
an issue to granting power development within the areas withdrawn for 
power development? If not, why not?
    Answer. This question applies exclusively to lands managed by the 
U.S. Forest Service, and the Bureau of Land Management defers to the 
Forest Service. We understand that the Forest Service received an 
identical question.
    Question 2. There are also power withdrawals along the North Fork 
of the Big Lost River between the Boulder-White Cloud and Jerry Peak 
proposed wildernesses.
    Does the Bureau of Land Management see the designation of these 
wildernesses, with its water language, as in anyway effected the future 
development of any of the power withdrawals in the area covered by this 
legislation?
    Answer. This question applies exclusively to lands managed by the 
U.S. Forest Service, and the Bureau of Land Management defers to the 
Forest Service. We understand that the Forest Service received an 
identical question.

      Responses of Joel Holtrop to Questions From Senator Barrasso

                                s. 3294

    The Forest Service provided Senator Murkowski with a number of maps 
of power withdrawals along the Salmon River and North Fork of the Big 
Lost River and Big Wood River. This bill also includes language that 
prevents anyone, even the President, from further water development 
within the Wildernesses.
    In the case of the Salmon River Electric Co-op power withdrawal 
along the Salmon River it appears that parts of the Boulder White Cloud 
Wilderness overlap parts of the Co-op's power withdrawal.
    Question 1. Does the Forest Service see this overlap as an issue to 
granting power development within the areas withdrawn for power 
development? If not, why not?
    Answer. The withdrawal for the Salmon River Electric Co-op power 
project has been revoked. Therefore, this area is now subject to 
National Forest System land regulations, guidelines, and operations, 
which also include possible future mineral entry.
    Question 2. There are also power withdrawals along the North Fork 
of the Big Lost River between the Boulder-White Cloud and Jerry Peak 
proposed wildernesses.
    Does the Forest Service see the designation of these wildernesses, 
with its water language, as in anyway effected the future development 
of any of the power withdrawals in the area covered by this 
legislation?
    Answer. Section 103 of the S. 3294 would prohibit funding, 
assisting, authorizing, or issuing a license or permit for the 
development of any new water resource facility inside the wilderness 
areas designated by the Act. Wilderness designation would have no 
impact on power withdrawals and projects located outside of the 
wilderness boundaries.

                                s. 3310

    Among other things, 36 CFR 213 regulations direct that: the 
national grasslands be ``permanently held'' by the Department of 
Agriculture; the national grasslands be administered under ``sound and 
progressive principles of land conservation and multiple use, and to 
promote development of grassland agriculture and sustained-yield 
management of the forage, fish and wildlife, timber, water, and 
recreation resources. . .''
    Question 1. Does the Forest Service think it can fulfill both its 
laws and regulations' call for the development of grassland agriculture 
and sustained-yield management on this grassland in South Dakota if 
parts of it are made into a Wilderness?
    Answer. The Forest Service would manage the designated area in 
accordance with the Wilderness Act. To the extent that may conflict 
with management to meet the purposes of the Bankhead Jones Farm Tenant 
Act, the Wilderness Act would prevail. Nonetheless, wilderness 
management would be encompassed within ``recreation resources'' listed 
in the 213 regulations. Additionally, existing grazing in the area 
could continue consistent with the Congressional Grazing Guidelines. 
Continued grazing would be compatible with the Bankhead Jones Farm 
Tenant Act purposes of developing grassland agriculture and sustained-
yield of the forage. Grassland agriculture as it has developed in the 
area contributes to the qualities of the areas recommended for 
wilderness, and these qualities would be maintained consistent with the 
wilderness designation.
    Question 2. The Bankhead Jones Farm Tenant Act directs the 
Secretary ``to promote more secure occupancy of farms and farm homes''.
    How does the proposed Wilderness affect the ability of the 
Secretary to meet the fundamental goal of the Bankhead Jones Farm 
Tenant Act in this area?
    Answer. The Forest Service would manage the designated area in 
accordance with the Wilderness Act. To the extent that may conflict 
with management to meet the purposes of the Bankhead Jones Farm Tenant 
Act, the Wilderness Act would prevail. Nonetheless, the wilderness 
designation would likely have limited impact on purposes for which the 
designated area is currently managed under the Bankhead Jones Farm 
Tenant Act. The agency believes that wilderness designation would 
promote more secure occupancy of farms and farm homes in the area 
through diversifying the local economy as a result of the increased 
recreational use resulting from the wilderness designation. The agency 
anticipates that the wilderness designation may result in increased 
visitation to the area that could generate associated benefits to the 
local economy.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                     June 14, 2010.

Hon.  Mike Crapo,
U.S. Senate, 239 Dirksen Senate Building, Washington, DC.
Hon. James E. Risch,
U.S. Senate, 2 Russell Courtyard, Washington, DC.
RE: Senate Bill 3294--Central Idaho Economic Development and Recreation 
Act

    Dear Senators, Thank you for the opportunity to provide comments on 
S. 3294--the Central Idaho Economic Development and Recreation Act 
(CIEDRA). I apologize for not being there to testify in person; 
however, I would request this letter be read at the hearing and placed 
in the record as my official comments.
    I am fully aware of the effort expended by Idaho's Congressional 
Delegation, especially Congressman Simpson, in developing CIEDRA. 
Congressman Simpson has worked tirelessly for the last decade to make 
his dream a reality. Like most Idahoans, I share his goal of preserving 
special places for future generations. However, while I support 
preserving certain areas, I cannot support protection at the cost of 
access, sacrificing recreational or hunting opportunities or impacting 
state endowment lands.
    My opposition to CIEDRA and additional wilderness areas in Idaho 
should not surprise anyone. I recognize the need for economic 
development in Custer County, Clayton and the surrounding communities, 
but remain unconvinced that the answer is more wilderness acres and 
federal red-tape. Even though I support parts of this new bill (i.e. 
maintenance of the Murdock Creek Trail as a wheelchair-accessible 
trail, releasing wilderness study areas and transferring federal lands 
to local communities), I still believe a better alternative exists to 
protect the proposed areas, create economic development and 
recreational opportunities in the region.
    CIEDRA will provide little, if any, additional protection for these 
special areas, their character and the landscape. All of the land 
proposed as wilderness is protected from future development under the 
most restrictive provisions of the Idaho Roadless Rule, which was 
authored by then-Governor Risch in 2006. A vast majority of the 
proposed lands also receive protection as part of the Sawtooth National 
Recreation Area (SNRA), which was developed by Senator Church and then-
Congressman McClure in 1972. Under the Idaho Roadless Rule the three 
areas (Hemingway-Boulders, White Clouds and Jerry Peak Wilderness 
Areas) are designated as ``Wild Land Recreation,'' which, like 
wilderness, directs the U.S. Forest Service to manage in a manner that 
shows ``little evidence of human-caused disturbance and [allows] 
natural conditions and processes [to] be predominant.'' Similarly, the 
SNRA, which covers a large portion of the lands was specifically 
created:

          In order to assure the preservation and protection of the 
        natural, scenic, historic, pastoral, and fish and wildlife 
        values and to provide for the enhancement of the recreational 
        values associated therewith. . . .

    16 U.S.C. Sec.  460aa. The SNRA as a national recreation area is 
protected by Congress from development much like wilderness, but 
without the limits on recreational opportunities or access associated 
with wilderness. Even without CIEDRA the Boulder-White Clouds and Jerry 
Peak would be protected from future development under the Idaho 
Roadless Rule and SNRA.
    As an alternative to designating the proposed lands as wilderness 
areas, Congress could consider expanding the boundaries of the SNRA to 
cover parts of these areas outside of the recreation area. While this 
option is not perfect because of previous judicial decisions concerning 
wolf management in the SNRA, it would provide additional certainty and 
protection from future development without impacting existing access or 
recreation.\1\
---------------------------------------------------------------------------
    \1\ If Congress explores expanding the boundaries of the SNRA as an 
alternative to designating the proposed areas as wilderness it could 
also revisit and balance grazing, hunting and wildlife management 
interests within the recreational area.
---------------------------------------------------------------------------
    Opportunities abound, even without CIEDRA, for people to enjoy and 
experience wilderness areas in Idaho. Idaho already has over 4.5 
million acres of wilderness in 12 different areas, including the 
Sawtooth Wilderness Area (217,000 acres) and the Frank Church/River of 
No Return Wilderness Area (2.3 million acres) within an hour or two of 
the areas proposed under CIEDRA. Additionally, the Idaho Recreation 
Council estimates that less than 3% of visitors to national forests 
ever visit a wilderness area. Which again raises the question why these 
areas are necessary as wilderness given their close proximity to two 
established wilderness areas?
    Not only is CIEDRA unnecessary, but it will also impact state 
lands. The State of Idaho currently has over 3,700 acres of endowment 
land within the proposed Jerry Peak Wilderness Area. Endowment lands 
were granted to Idaho at statehood for the express purpose of providing 
revenue for various state institutions. The lands in the Jerry Peak 
proposal support Idaho's public schools, and we are vitally concerned 
about our ability to continue our current and future land management 
activities, in light of the proposed wilderness designation. While the 
most recent version of CIEDRA includes two provisions that may address 
the state's concerns, we are nonetheless fearful that once enacted 
these assurances will be undermined through administrative agency 
opposition to state land management activities and litigation. I am 
concerned that agency and environmental interests may seek to undermine 
state management by arguing that access to state parcels is allowed 
only to the extent it is consistent with the wilderness designation. 
Courts have repeatedly ruled that wilderness values trump access 
provided by Section 5(a) of the Wilderness Act.
    In the end, I believe CIEDRA will also negatively impact state 
wildlife management, mechanized recreation and grazing. Despite my 
opposition to CIEDRA, I would offer the following suggestions if 
Congress decides to proceed:

  <bullet> CIEDRA should contain language that all conveyances should 
        be treated as conditions precedent to designating the three 
        areas as wilderness. Alternatively, should either secretary 
        fail to complete the required transfers under CIEDRA then the 
        designated wilderness areas should revert to their former 
        status;
  <bullet> Provide specific language that imposes an affirmative duty 
        on the secretaries to purchase or exchange the state endowment 
        lands inside the Jerry Peak Wilderness Area for parcels outside 
        of the wilderness area, instead of just providing ``adequate 
        access'';
  <bullet> CIEDRA should explicitly state that the only limitation on 
        hunting, fishing or trapping in these areas should be for 
        public safety only and specific language should be included 
        permitting Idaho wildlife managers to land in these areas by 
        plane or helicopter to manage or collar wildlife;
  <bullet> CIEDRA should contain additional language pertaining to 
        water rights that expressly prohibits, without exception the 
        establishment of any federal water rights for the wilderness 
        areas; and
  <bullet> CIEDRA should contain language that requires the Forest 
        Service and BLM to aggressively eradicate all invasive or 
        noxious species in the proposed areas.

    I understand the sacrifice and devotion Congressman Simpson has 
committed to this process, which makes opposing this legislation even 
more difficult for me personally. I know there is a better way to 
achieve all of the protections necessary to preserve these areas, 
increase economic activity and recreational opportunities, without 
locking this land up under wilderness. My dream is for these areas to 
thrive economically and remain open to all existing uses and 
recreational opportunities so Idahoans can continue to access and enjoy 
these lands as they do today for generations to come.
            As Always--Idaho, ``Esto Perpetua'',
                                      C.L. ``Butch'' Otter,
                                                 Governor of Idaho.
                                 ______
                                 
                                                     June 29, 2010.

Hon. Mike Crapo,
Hon. James E. Risch,
U.S. Senate, Washington, DC.
    Dear Senators Crapo and Risch: On behalf of Trout Unlimited's 
140,000 members nationwide, including more than 2,000 in Idaho, we 
write to thank you for your leadership and hard work in developing S. 
3294, the ``Central Idaho Economic Development and Recreation Act.'' 
This bill designates three new wilderness areas that will protect 
valuable headwaters within the upper Salmon River watershed for salmon, 
steelhead and trout. Also important from a fisheries perspective is 
Section 102(e), to the extent that such title reduces impacts from 
grazing on the East Fork of the Salmon River. But this bill does more 
than just protect critical native and anadromous fish populations. It 
also includes carefully crafted and important provisions for all those 
who use our national forests including motorized users. In addition it 
addresses rural economics in Blaine and Custer counties.
    This balanced approach to public lands management is something 
Trout Unlimited strongly supports. Trout Unlimited has long worked to 
conserve, protect and restore Idaho's trout and salmon fisheries. On 
average, each Trout Unlimited chapter dedicates 1,000 hours of 
volunteer time to conservation and education efforts each year. By 
protecting intact habitat in the headwater areas, restoring degraded 
habitat, and removing barriers to fish migration we can work toward a 
healthy future for Idaho's fisheries. By protecting high quality 
habitat, S. 3294 represents a key component of this conservation 
strategy.
    Trout Unlimited supports S. 3294, and again we thank you for your 
work on this important legislation. Please contact us if you have any 
questions or need additional information.
            Sincerely,
                                             Scott Stouder,
                                           Idaho Field Coordinator.
                                              Keith Curley,
                                    Director of Government Affairs.
                                 ______
                                 
    Statement of Craig Gehrke, Regional Director, Idaho Office, The 
                           Wilderness Society
    Thank you for this opportunity to submit a statement on behalf of 
The Wilderness Society (TWS) on S. 3294, the Central Idaho Economic 
Development and Recreation Act (CIEDRA).
    TWS supports S. 3294 and urge the committee to endorse this 
legislation.
    We appreciate Senator Crapo's leadership in developing this 
legislation, and the support of Senator Risch. We would also like to 
acknowledge the substantial efforts of Chairman Bingaman in resolving 
outstanding issues with earlier versions of the proposal. S. 3294 is a 
greatly improved version of CIEDRA and significantly addresses the 
majority of TWS's about earlier versions of the legislation.

      TITLE I, SECTION 101.--ADDITIONS TO THE NATIONAL WILDERNESS 
                          PRESERVATION SYSTEM

    For TWS, the heart of S. 3294 is the permanent protection of the 
Boulder-White Clouds as Wilderness. This landscape unquestionably 
merits Wilderness designation. Congressman Simpson has worked 
tirelessly on CIEDRA and has produced a Wilderness proposal which we 
believe merits passage by the U.S. Congress. One primary reason that 
TWS remained committed to the effort to modify and enact CIEDRA was the 
outstanding diversity of the Wilderness Areas designated in the 
legislation. The CIEDRA Wilderness proposal is far more dynamic and 
spectacular than either the Forest Service recommended Wilderness or 
BLM recommended Wilderness would be if separately considered. 
Geographically linking areas under Forest Service jurisdiction with the 
land recommended for Wilderness by the BLM--that is, capturing the 
rugged high country mountains and the lower elevation sagebrush and 
bunchgrass landscapes--will create one of Idaho's most ecologically 
diverse Wilderness Areas and protect as Wilderness important wildlife 
and fish habitat. The importance of maintaining the integrity of the 
Wilderness Areas proposed in S. 3294 to TWS's commitment to seeing 
CIEDRA succeed cannot be overstated.
    It is important to remember the hard work done over the past 
several years by Congressman Simpson and his staff to craft a 
compromise that addresses the legitimate interests of many 
recreationists who currently use the Boulder-White Clouds. 
Conservationists were asked to give up areas recommended for Wilderness 
by the Forest Service, like Champion Lakes and the Boulder Mountains 
behind the Sawtooth National Recreation Area headquarters, to 
accommodate both summer and winter motorized recreationists. 
Longstanding motorized trails running between the proposed White Clouds 
Wilderness and the Hemingway-Boulders Wilderness are retained to 
accommodate motorcycle riders. And in turn, some currently-open 
motorized trails were included in the proposed Wilderness, such as the 
West Fork East Fork Salmon River Trail. In summary, though, the Idaho 
delegation put together a delicate balance that protects widely-used 
motorized recreation opportunities while designating remarkable areas 
as Wilderness. As in the best of compromises, no one got all they 
wanted, but enough was gained to show an improvement over the status 
quo.
    In regards to the concerns about motorized access within the Jerry 
Peak area, TWS conducted extensive, on-the-ground investigations in May 
2010 and found that:

  <bullet> Trail #4186 up Pine Creek is not accommodating to public 
        access, as one has to pass through gated private land to reach 
        the public land. There are no signs indicating public access or 
        trailheads, which in all cases routinely severely restrict wide 
        public use.
  <bullet> Trail #4187 leading up Trail Gulch is posted closed to 
        motorized use and there is no evidence of motorized recreation 
        occurring.
  <bullet> Trail #4051--the Herd Creek trail--was posted with one BLM 
        sign that said no motors allowed, but another, conflicting 
        Forest Service sign a few yards away indicates the trail open 
        to motorbikes. Yet another few yards away was another BLM sign 
        saying this trail was closed to motor cycles. Although 
        confusing, it is evident that motorized use is not widely 
        established on Trail #4051. It appears Trail #4051 was opened 
        to motorized recreationists during the recent Travel Management 
        Plan process about 1 = mile into the proposed Jerry Peak 
        Wilderness and is then closed to motors. There is limited 
        illegal motorcycle use occurring in the closed portion.
  <bullet> Signs on BLM land stating that motor vehicles in Wilderness 
        Study Areas are allowed on designated roads only.
  <bullet> Claims by motorized recreationists of established use of 
        Trail #4189, the Sagebrush Creek trail, are simply not true. 
        This trail is significantly overgrown with chest-high 
        sagebrush, strewn with rock across the trail tread, and 
        overgrown by grasses in the tread. There was no evidence of any 
        motorized travel at any time and without question, no evidence 
        of any regular motorized travel.

    It is also important to note that when the Salmon-Challis National 
Forest started the revision of its Travel Management Plan, none of 
these trails in question were in the proposed action as trails that 
should be open to motorized use. It is not conceivable that the Forest 
Service would have omitted from its proposed action trails that were in 
fact receiving regular motorized use.
    Other important issues in the approximately 12,000 acre area 
encompassed by the Pine Creek-Herd Creek trails are the quality of 
wilderness and the integrity of wilderness. Herd Creek is a dry, low 
elevation, low snowfall, open sagebrush valley with high quality summer 
and winter range for deer and elk. While there was no evidence of 
motorcycle use in Sagebrush Creek, there was evident pack stock use--
likely from fall hunters. Herd Creek is a salmon stream. The entire 
valley is remote, little used, scenic, and wild and should be 
designated wilderness. To consider carving out a significant portion of 
the proposed wilderness, where the boundary now follows a logical line 
above the Herd Creek and East Fork Salmon River Roads, would be 
detrimental to wilderness integrity and wildlife security. It also 
makes no sense when it is not receiving any visible motorcycle use up 
in the tributary of Sagebrush Creek.
    To honor the multi-year process of compromise and fair negotiation, 
to maintain the wilderness integrity, and to recognize appropriate uses 
of trails, we urge Congress to keep the Jerry Peak Wilderness 
boundaries from the August 30, 2006 map prepared by Congressman 
Simpson. We urge you to carry these boundaries to full inclusion in the 
CIEDRA legislation and to keep both the wilderness boundaries and the 
spirit of compromise intact.

                 TITLE I, SECTION 102.--ADMINISTRATION

    TWS supports the Wilderness Administration section of S. 3294. In 
particular, we believe the provisions on fish and wildlife management 
are sufficient to address concerns from the State of Idaho that nothing 
in this Act affects the State's jurisdiction regarding fish and 
wildlife management.

                  TITLE I, SECTION 103.--WATER RIGHTS

    TWS believes Section 103 sufficiently deals with issues regarding 
water rights, the Snake River Basin Adjudication, and Section 9 of the 
Sawtooth National Recreation Act (16 U.S.C. 460aa-8).

               TITLE I, SECTIONS 104, 105, 106, 107, 108

    TWS has no concerns regarding these sections.

                 TITLE II, SECTIONS 201, 202, 203, 204

    TWS believes that the conveyances in S. 3294 are much improved from 
past versions of CIEDRA. TWS appreciates that the land conveyances of 
S. 3294 have been specifically identified, along with the public 
purposes each conveyance fulfills. TWS supports these conveyances as 
part of the overall collaborative package of CIEDRA.

                         TITLE III, SECTION 301

    Germania Creek Trail--TWS supports the approach taken by S. 3294 
regarding management of the Germania Creek Trail. The Secretary retains 
authority to manage this trail in accordance with applicable laws. TWS 
supports the provisions allowing the Secretary to temporarily close the 
Germania Creek Trail to minimize adverse impacts, protect public 
safety, and to provide opportunities for non-motorized uses.
    Forest Service Trails 109 and 671--TWS supports the provisions in 
S. 3294 regarding management of Trails 109 and 671.
    Frog Lake Loop Trail--TWS supports the management provisions of S. 
3294 for the Frog Lake Loop Trail.
    Accessible Trail--TWS supports the actions necessary to maintain 
the first mile of the Murdock Creek Trail as a primitive, nonpaved, and 
wheelchair-accessible trail.
    In summary, TWS reiterates its support for S. 3294 and urge the 
committee to endorse this legislation.
                                 ______
                                 
                                                     June 15, 2010.

Hon. Jeff Bingaman,
U.S. Senate, Washington, DC.
RE: Statement on S.3294, Central Idaho Economic Development and 
Recreation Act

    Dear Chairman Bingaman: On behalf of Wilderness Watch, Western 
Lands Project and Friends of the Clearwater, we are providing this 
statement for the hearing record on S. 3294, the Central Idaho Economic 
Development and Recreation Act.
    Our organizations were instrumental in organizing the Committee to 
Save the Sawtooth NRA in response to the initial CIEDRA legislation 
introduced several years ago. The 47 grassroots, regional and national 
organizations that came together under the CSSNRA worked tirelessly to 
defeat the bill. Those early versions of CIEDRA would have inflicted 
untold harm on the wildlands within and nearby the Sawtooth NRA. Those 
bills would have given away more than 5,000 acres of national forest 
and other public lands for free. They mandated off-road vehicle 
corridors through critical wildlife habitat and established motorized 
recreation as the priority use for many areas. The Wildernesses 
designated by those bills would have been highly fragmented, and the 
protections normally afforded by the Wilderness Act were watered-down 
so that the interests of private groups took precedence over the public 
good. CIEDRA bestowed the title ``Wilderness'' on lands while failing 
to provide traditional wilderness protections. Water rights needed to 
protect fish and wildlife downstream were stripped from these bills, 
putting endangered salmon populations at greater risk. More than 
200,000 acres of potential Wilderness lands were released from current 
protections and opened to damaging ORV and other uses.
    Through the efforts of our organizations, local concerned citizens, 
and wilderness-supporting Members of Congress, and in spite of the 
unflinching support for the harmful CIEDRA bills from the Pew 
Foundation's Campaign for America's Wilderness, The Wilderness Society, 
and Idaho Conservation League, those previous versions of CIEDRA met 
their appropriate demise, making it possible to create legislation that 
is worthy of one of the most remarkable natural landscapes in America.
    We appreciate the efforts of the Committee leadership and Senator 
Crapo in reshaping those earlier versions of CIEDRA into the much 
improved version introduced as S. 3294.
    With regard to S. 3294, the latest version of CIEDRA, we wish to 
first acknowledge the many improvements in the legislation over 
previous versions. Gone are most of the land giveaways, replaced 
instead with much more limited land conveyances aimed at specific 
public purposes and more closely adhering to existing law. Gone, too, 
are most of the damaging Wilderness provisions that allowed for 
extensive motor vehicle use, habitat manipulations, and commercial 
special interest rights. Also excised from earlier versions of CIEDRA 
are the destructive provisions creating the Boulder-White Clouds 
Management Area and its mandated off-road vehicle routes and 
prioritization of ORV use for the area. These are all changes that our 
organizations advocated for since the first CIEDRA bill, and we're very 
pleased to see those changes in the current bill.
    While much improved, S. 3294 still contains a number of provisions 
that should be changed to provide adequate protection for the natural 
values of the area and the public interest. Our concerns and 
recommendations follow:

                    TITLE I--WILDERNESS DESIGNATIONS

    The Boulder-White Clouds roadless area, at approx. 475,000 acres is 
the largest unprotected national forest roadless area in the Lower 48 
States. Together with adjacent BLM-administered wildlands, the area 
harbors a potential contiguous, unbroken wilderness of over one-half-
million acres, all of which would be protected in H.R. 980, the 
Northern Rockies Ecosystem Protection Act. CIEDRA protects only two-
thirds of the area. Far more troubling, however, the three motor 
vehicle corridors in the bill fragment this connected Wilderness into 
four smaller parcels, two of which are less than 5,000 acres in size. 
Most damaging would be the Germania Creek motorized/mechanized corridor 
(section 301(a)) that splits the large roadless area in two. This 
corridor greatly reduces the amount of core habitat that would be more 
than a couple miles from a road or vehicle corridor, and would preclude 
the ability for wilderness visitors to experience wilderness that is 
more than a few miles from the sights, sounds, and other influences of 
our culture's ubiquitous mechanization. This preeminent wild area can't 
serve every demand and still provide its highest and best use to 
present and future generations as one of America's premier 
Wildernesses. We can do better, and should. The Germania Creek trail 
corridor should be removed from the bill and the corridor made part of 
a contiguous Boulder-White Clouds Wilderness. Moreover, those areas 
released from wilderness study area status should be protected from 
degradation by prohibiting any increase in off-road vehicle use or 
routes.
    We also believe the Railroad Ridge area should be permanently 
protected from vehicle use and included in the Wilderness. Previous 
versions of CIEDRA included additional protections for Railroad Ridge. 
The Senate should include additional protections in this bill.
Sec. 102 Administration
    As noted above, S. 3294 does not contain most of the damaging 
Wilderness provisions from earlier versions of CIEDRA. However, some 
so-called ``savings clauses'' could cause confusion for wilderness 
managers and the public, or cause harm to Wilderness, and therefore 
should be modified to mimic the language in the Wilderness Act. We do 
not believe it is sound wilderness policy to grind away at the 
protections afforded by the Wilderness Act in individual bills. We urge 
the Committee to modify the language in CIEDRA so that it reflects the 
precise language in the Wilderness Act.

          (f) Outfitting and Guiding Activities--

          For the most part this section restates section 4(d)(5) of 
        the Wilderness Act except CIEDRA substitutes the phrase 
        ``commercial services. . .are authorized'' in place of the 
        Wilderness Act provisions stating ``commercial services may be 
        performed.'' Though the phrases could be interpreted to be 
        essentially the same, we believe the language in CIEDRA raises 
        concerns for two reasons.
          First, when there has been some dispute about the meaning of 
        statutory language, the simple fact that Congress changes the 
        provision could be interpreted to mean that Congress meant to 
        accomplish something new and different. Second, the phrase 
        ``are authorized'' could be interpreted to mean that an agency 
        has less discretion than it would under a ``may be performed'' 
        standard to decide whether to allow the services.
          The language used in the Wilderness Act has allowed for 
        appropriate commercial services in nearly every Wilderness in 
        the National Wilderness Preservation System, and would do so in 
        the Boulder-White Clouds.

          (g) Fish and Wildlife--

          While CIEDRA's provisions are similar to the Wilderness Act, 
        they are not the same, raising questions as to how fish and 
        wildlife will be managed differently under the bill. In order 
        to avoid confusion for managers and the public, and minimize 
        the breadth of special provisions in wilderness laws, we urge 
        you to modify this language to mimic the Wilderness Act.

          (h) Access--

          The Wilderness Act provides private landowners with adequate 
        access or an exchange for land of equal value. CIEDRA excludes 
        the option of an exchange. The provision for an exchange has in 
        the past served to protect Wilderness in situations where 
        ``adequate access'' may have resulted in significant damage. In 
        order to ensure that this provision will be in accordance with 
        section 5(a) of the Wilderness Act, we suggest adding a phrase 
        to end of the last sentence that reads, ``or privately owned 
        land shall be exchanged for federally owned land in the same 
        State of approximately equal value.''
Sections 104. Military Overflights
    We believe the Boulder-White Clouds would greatly benefit if the 
bill required the Secretaries of Agriculture and Interior to enter into 
discussions with the Sec. of Defense over ways to lessen the impact of 
overflights on the area's wildlife and its human visitors, while still 
meeting national security needs. With the vast expanse of airspace over 
southern and central Idaho, it seems the Secretaries ought to be able 
to identify alternative areas and training practices that would meet 
the military's training needs while lessening the impact on the 
Boulder-White Clouds and Sawtooth NRA.

             TITLE II--LAND CONVEYANCES FOR PUBLIC PURPOSES

    Many of the conveyances are qualified by the requirement that the 
conveyance be ``consistent with uses allowed under [RPPA].'' We believe 
the bill should require conveyances to be ``implemented consistent with 
RPPA.'' This would more plainly ensure that conveyances would be 
implemented in a manner consistent with the National Environmental 
Policy Act (NEPA).

          Section 202(e) Public Purposes

          We believe the proposed use for the ``City of Challis'' 
        parcel should be stated, whether it's for a park, wastewater 
        treatment plant, or other public need. We appreciate that other 
        conveyances in the bill have stated public purposes, and 
        believe the Challis conveyance should identify the same. Public 
        lands should not transfer out of public ownership unless it is 
        for an identifiable and justifiable public purpose.

                      TITLE III--TRAVEL MANAGEMENT

Sec. 301. Trail Management
    As stated previously, the provisions condemning the area around the 
Germania Creek Trail to perpetual motorized and mechanized use will 
profoundly impact the wild character of the Boulder-White Clouds. The 
impact will be compounded by the ``buffer zone'' provisions in section 
105, which virtually ensure wildlife and visitors in the area, 
including those in parts of the Wilderness, will not be able to escape 
the ``growing mechanization'' that the Wilderness Act sought to prevent 
in our nation's wildest areas. With more than one-third of the suitable 
Wilderness in the Boulder-White Clouds area being released for other 
uses, and nowhere in the proposed Wilderness being even ten miles from 
a road or boundary, it is simply unacceptable to exclude the Germania 
Trail from Wilderness designation.
    The Frog Lake Loop should be closed to vehicle use and included in 
the Wilderness. As it stands in S. 3294, this proposed vehicle corridor 
would completely sever a tiny parcel of land from the rest of the White 
Clouds Wilderness. While we prefer the Frog Lake Loop be included in 
the Wilderness, if it is not then the small isolated parcel of land, 
which would not truly be manageable as Wilderness, should be deleted 
from wilderness designation. Special management provisions could be 
included to protect it from vehicle use, road construction or other 
developments. A similar situation exists with a narrow triangle of land 
isolated from the rest of the Hemingway-Boulders Wilderness by a 
corridor running between the East Fork Salmon River Road and Germania 
Creek. This corridor should be made part of the Wilderness to maintain 
the physical and biological connectivity of the Wilderness.

          Sec. 301(d). Accessible Trail.

          We support the proposal to make the first mile of the Murdock 
        Creek Trail a nonpaved, wheelchair-accessible trail. However, 
        we strongly urge Congress to ``cherrystem'' this trail from the 
        Wilderness, and to include language preventing any further 
        developments or activities that would detract from the 
        primitive experience available on the trail.
          Our organizations support the current language in the 
        Americans with Disabilities Act allowing for wheelchair use in 
        Wilderness, and we support efforts to make the Murdock Creek 
        Trail accessible for those who require a wheelchair for 
        mobility. Both can be met without creating yet another special 
        provision in Wilderness legislation. We are also concerned 
        about the precedent-setting potential of this provision.

                               CONCLUSION

    We wish to commend the Committee leadership for its arduous and 
critical work to transform this bill from a virtual manifesto against 
public land and Wilderness to one that is closer to the ideal. We urge 
you to take the additional steps outlined above to make this 
legislation worthy of Idaho's splendid public lands and waters and one 
of our nation's premier unprotected wild areas.
    Thank you for your efforts and your consideration of these 
concerns.
            Sincerely,
                                             George Nickas,
                                                  Wilderness Watch.
                                           Janine Blaeloch,
                                             Western Lands Project.
                                           Gary Macfarlane,
                                         Friends of the Clearwater.
                                 ______
                                 
                                               Sierra Club,
                                                     June 14, 2010.
Hon. Jeff Bingaman,
U.S. Senate, Washington, DC.
    Dear Chairman Bingaman, On behalf of the more than 1.3 million 
members and supporters of the Sierra Club, I am writing to thank you 
for holding a legislative hearing on S. 3294, the Central Idaho 
Economic Development and Recreation Act.
    Sierra Club commends Senator Crapo for his dedication to balancing 
the protection of Idaho's irreplaceable wild lands, with the need for 
public access and the development of local economies. S. 3294 
represents the culmination of many years of hard work to craft a 
compromise bill that provides wilderness protections to the Boulder-
White Clouds range. While we recognize the benefits of a collaborative 
approach to crafting public land legislation, Sierra Club wishes to 
assert that Wilderness is important and valuable in its own right. For 
more than a century, we have fought to protect and preserve America's 
wild lands heritage. Today, in the face of climate change, wilderness 
is more important than ever.
Wilderness and Local Economies
    Preserving public lands as wilderness benefits local communities 
and economies. Wild lands and natural systems provide numerous 
ecosystem services and economic benefits for communities. These 
ecosystem services include filtering the air we breathe and the water 
we drink, generating fertile soils, controlling pests that destroy 
crops, providing habitat for fish and wildlife, controlling floods, and 
sequestering carbon.
    Throughout the West, and especially within the Northern Rockies, 
local economies are closely tied to outdoor recreation and wildlife 
related activities such as hunting, fishing, bird watching, hiking and 
camping. These economic drivers depend on wild lands and the health of 
our natural ecosystems. In fact, one out of every 20 jobs in this 
country is linked to wildlife related activities.\1\
---------------------------------------------------------------------------
    \1\ Outdoor Industry Foundation. 2007. ``The Active Outdoor 
Recreation Economy. A $730 Billion Annual Contribution to the U.S. 
Economy.'' Available from: http://www.outdoorindustry.org/images/
researchfiles/RecEconomypublic.pdf?26
---------------------------------------------------------------------------
Wilderness in a Warming World
    Setting aside public land and wildlife habitat provides space for 
plants and wildlife to adapt to changing climate and other impacts from 
global warming. Congressional wilderness designation, in particular, 
provides numerous benefits for wildlife and increases habitat 
resiliency in many ways.
    Wilderness designation protects habitat from destructive 
industrialization and other non-climate stressors such as sprawl, oil 
and gas development, mining, and illegal off-road vehicle abuse. 
Protecting wilderness and wildlife migration corridors allows wildlife 
a chance to migrate and adapt in order to survive. The chances for 
successful migration will be greatly improved by the protection of 
large core areas of healthy habitat linked together by connecting 
migration routes. Wilderness designation also assures the ability of 
healthy habitat to absorb excess amounts of carbon in the atmosphere.

   S. 3294--THE CENTRAL IDAHO ECONOMIC DEVELOPMENT AND RECREATION ACT

    Sierra Club strongly supports the wilderness designations found in 
S. 3294. The bill will permanently protect three spectacular wilderness 
areas in the Sawtooth and Challis National Forests and the Challis 
District of the Bureau of Land Management. Comprising more than 330,000 
acres these areas include; the Hemingway-Boulders Wilderness, White 
Clouds Wilderness and Jerry Peak wilderness in the Boulder-White Clouds 
Range.
    Sierra Club would like to commend Senator Crapo's staff and the 
Committee Staff who worked tirelessly to revise and improve previous 
versions of the legislation. S. 3294 has been improved in many ways. 
The updated bill is much more concise than earlier versions of the 
legislation (H.R. 3603, 109th Congress, 2006; H.R. 192, January 2009), 
and many of the objectionable provisions, such as legislatively 
prescribed land management areas and special wilderness management 
provisions have been removed or significantly reworked.
    In addition, the proposed land transfers have been thoroughly 
vetted and reviewed and with a single exception, the public purpose for 
each transfer parcel is explicitly identified in the bill. Sierra Club 
is particularly pleased that no lands located within the Sawtooth 
National Recreation Area are proposed for transfer or disposal, and 
that a reversionary clause has been included which requires that the 
stated public purposes for each land transfer must be adhered to.
    While Sierra Club is supportive of S. 3294, we continue to have 
some significant concerns, and look forward to working closely with 
Senator Crapo and the Committee staff to make additional improvements 
to the bill. Sierra Club's remaining concerns with S. 3294 include:

                      TITLE III--TRAVEL MANAGEMENT

    Sierra Club maintains its long-held opposition to legislative 
language that legislates local travel management plans, roads, routes, 
or trails. Such language denies local land managers the ability to take 
into account multiple related impacts and manage public land in a 
comprehensive manner.
Germania Creek and Frog Lake Loop Trails
    Sierra Club strongly opposes the legislative designation of the 
Germania Creek and Frog Lake Loop Trails as proposed in Title III, 
Secs. 301(a) and 301(c).

          Section 301. Trail Management.

          (a) Germania Creek Trail-

                  (1) IN GENERAL-The Secretary shall maintain a trail 
                for single track, 2-wheeled motorized and mechanized 
                travel between the Hemingway-Boulders Wilderness 
                designated by section 101(a)(1) and the White Clouds 
                Wilderness designated by section 101(a)(2).

          (c) Frog Lake Loop Trail

                  (1) IN GENERAL-Neither the designation of the White 
                Clouds Wilderness by section 101(a)(2) nor the 
                exclusion of portions of Forest Service trails 047 and 
                682 (commonly known as the `Frog Lake Loop Trail') from 
                the wilderness shall affect the management of those 
                trails for motorized or mechanized travel in accordance 
                with existing laws.

    The Germania Creek and Frog Lake Loop trails would bisect the 
Hemingway-Boulders Wilderness area, designated by section 101(a)(1) and 
the White Clouds Wilderness area, designated by section 101(a)(2). 
These trails fragment the contiguous wilderness units and will provide 
an opportunity for illegal motorized entry into the newly designated 
wilderness. Additional degradation will be compounded by the ``buffer 
zone'' provisions in section 105 which prevents management of these 
trails for their impacts on the very essence of the wilderness areas 
they bisect. In addition, we are concerned with the potential precedent 
set by codifying motorized use on any trail located entirely within 
wilderness quality lands.
    The Germania Creek trail is a lightly used, primitive single-track 
trail that crosses the creek several times along its length. The use of 
two-wheel motorized vehicles promotes erosion and siltation in Germania 
Creek, which is detrimental to bull trout and cutthroat trout. The 
trail also cuts across an important migration corridor for elk, mule 
deer and antelope.
    While we are pleased to see the inclusion of the Red Ridge area as 
wilderness in the legislation, we have strong concerns with allowing 
motorized use on the Frog Lake Loop trail. The trail effectively 
divides Red Ridge from the rest of the White Clouds wilderness, 
reducing habitat connectivity in the area.
    Sierra Club strongly objects to these provisions and urges Senator 
Crapo and the Committee to close the trails to motorized use.

                    TITLE I--WILDERNESS DESIGNATIONS

Railroad Ridge
    We were disappointed to see that Railroad Ridge would receive no 
protections in S. 3294. Sierra Club believes that Railroad Ridge should 
be permanently protected from off-road vehicle abuse. Railroad Ridge is 
a stunning, broad plateau. It contains unique, threatened plant 
communities that have been recognized by the US Forest Service for 
special administrative protections. We urge that Railroad Ridge be 
protected as wilderness.
    Short of permanent wilderness protections, we believe that the 
existing ORV trail should be closed at Livingston Mill to limit current 
problems with illegally pioneered ORV routes in the area. Closing the 
area to motorized access and converting the existing trail to non-
motorized use, would enable the US Forest Service to conduct necessary 
rehabilitation in the area and would create new jobs.
Water Rights

          SEC. 103. WATER RIGHTS.

          (a) Statutory Construction-Nothing in this title--

                  (1) shall constitute either an express or implied 
                reservation by the United States of any water rights 
                with respect to the wilderness areas designated by 
                section 101;
                  (2) affects any water rights--

                    (A) in the State of Idaho existing on the date of 
                enactment of this Act, including any water rights held 
                by the United States; or
                    (B) decreed in the Snake River Basin Adjudication, 
                including any stipulation approved by the court in such 
                adjudication between the United States and the State of 
                Idaho with respect to such water rights; or

    Sierra Club believes that the streams and rivers of the Sawtooth 
National Recreation Area and the Boulder-White Clouds Range must be 
protected for the fish and wildlife that depend on them, especially 
spawning salmon. Sierra Club has worked for years to assert a Federal 
Reserved Water Right for the Sawtooth NRA. However, in 2000 the Idaho 
Supreme Court stripped the Sawtooth NRA of its clean water protections. 
We object to Section 103 and believe that the legislation should re-
assert in stream flow protections for the Sawtooth NRA.

             TITLE II--LAND CONVEYANCE FOR PUBLIC PURPOSES

Public Land Conveyances
    Sierra Club is pleased to see that nearly all of the proposed land 
conveyances in S. 3294 have explicitly stated public purposes. We also 
commend the inclusion of Section 204, which contains a reversionary 
provision that will ensure that the lands conveyed in S. 3294 will be 
used for the stated public purpose.
    Sec. 204, Terms and Conditions of Permits or Land Conveyances

          (a) Terms and Conditions-The issuance of a special use permit 
        or the conveyance of land under this title shall be subject to 
        any terms and conditions that the Secretary determines to be 
        appropriate.
          (b) Reversionary Interest-If any parcel of land conveyed 
        under this title ceases to be used for the public purpose for 
        which the parcel was conveyed, the parcel shall, at the 
        discretion of the Secretary, based on a determination that 
        reversion is in the best interests of the United States, revert 
        to the United States.

    However, we are concerned that the City of Challis land conveyance, 
(Title II. Sec. 202 (e)), does not have a stated public purpose. We 
believe that each proposed land conveyance must have a stated public 
purpose, in order for Section 204 to ensure that all of the public land 
conveyed by S. 3294 be used appropriately.
    In conclusion, I would like to reiterate Sierra Club's gratitude to 
Chairman Bingaman and the other committee members for holding this 
important hearing on S. 3294. I also would like to express our 
appreciation to Senator Crapo for his leadership in working to protect 
the Boulder-White Clouds Range. Sierra Club supports S. 3294, but we 
continue to have some significant remaining concerns with the 
legislation, as it is currently written. We look forward to working 
with Senator Crapo and the other members of the Committee to make 
improvements to the bill, in order to offer our full support.
            Thank you for your consideration,
                                              Debbie Sease,
                                        National Campaign Director.
                                 ______
                                 
                                     U.S. Congress,
                                  House of Representatives,
                                      Washington, DC, July 2, 2010.
Hon. C.L. ``Butch'' Otter,
Governor, State Capitol, Boise, ID.
    Dear Governor Otter: Thank you for your letter written to Senator 
Mike Crapo and Senator Jim Risch, and copied to Representative Walt 
Minnick and myself, dated June 14, 2010. I appreciate your taking the 
time to comment regarding your concerns with S.3294, the Central Idaho 
Economic Development and Recreation Act (CIEDRA), as introduced by our 
Senators.
    You have always been up front with me regarding your opposition to 
additional wilderness in Idaho and I have always known you would have 
difficulties supporting my legislation both while you were my colleague 
in the House of Representatives and as our Governor. As the principal 
author of CIEDRA, I feel it is appropriate to respond to you directly.
    As you know, I have been working since 2000 on CIEDRA, seeking 
collaboration and consensus among Idahoans. The resulting bill is the 
product of countless discussions, meetings and hearings and numerous 
drafts. I am proud of the finished product.
    Many Idahoans have decided that leaving land management in the 
Boulder-White Clouds in flux, as wilderness study areas and under the 
threat of closures and lawsuits, is not acceptable. They have come 
together with me to craft this solution that addresses both the need to 
conserve this area and the need to protect the livelihoods and 
enjoyment of Idahoans who live and recreate in the area.
    CIEDRA is not a perfect bill. It is a complicated bill that forces 
each side to give a bit in order to find the balance that is needed to 
resolve outstanding land management issues. I tried to achieve a 
balance where there are no ``winners'' or ``losers.''
    The years I have spent discussing and addressing the most 
contentious issues in CIEDRA led those who want to find a solution to 
this long-standing problem to develop what I believe to be an equitable 
compromise in which all will gain security and certainty. Most 
importantly, CIEDRA addresses the contentious issues of wilderness, 
including the motorized corridors within the Boulder-White Clouds.
    Wilderness will be established in areas that have the least impact 
on motorized and other existing uses. We have released wilderness study 
areas and boundaries have been adjusted to provide for high elevation 
snowmobiling and other existing uses in areas that are, in fact, 
currently being treated as if they were wilderness and where, 
therefore, motorized use is already limited. Of the two existing 
motorized corridors, the Grand Prize trail would be closed to motorized 
use while the Germania corridor would remain open to motorized use with 
explicit protections ensuring that it must remain open into the future. 
This is the compromise reached by conservation groups and 
recreationists and to which I have remained committed throughout this 
process.
    I believe it is fair to say that those who are entrenched in their 
positions on one or both of these issues are not interested in 
compromise and will remain opposed to the bill unless the other side 
gives up. It has become clear to me that the path forward to resolving 
issues in the Boulder-White Clouds is through the compromises we have 
developed in the existing CIEDRA language.
    Following, in italics, are the suggestions that you made in your 
letter regarding CIEDRA. Corresponding to each suggestion is my 
response which I believe should answer or alleviate any concerns you 
may have had with your specific suggestion:

  <bullet> CIEDRA should contain language that all conveyances should 
        be treated as conditions precedent to designating the three 
        areas as wilderness. Alternatively, should either secretary 
        fail to complete the required transfers under CIEDRA then the 
        designated wilderness areas should revert to their former 
        status.

    I appreciate your seeking certainty that the conveyances in CIEDRA 
        to the cities and Custer County take affect prior to wilderness 
        being enacted. Each of the conveyances to the public entities 
        has language specifically stating that the respective Secretary 
        ``shall convey, without consideration'' the specified parcel. 
        Given this language, once the bill is signed into law. the 
        Secretaries are required by law to implement the transfers.

    As you are aware, there is no precedent of ``trigger'' language 
        such as you have recommended as a condition precedent to the 
        implementation of wilderness. I am also unaware of any 
        instances where a Secretary has ever blocked a transfer of 
        lands that was specifically directed in legislation.

  <bullet> Specific language that provides an affirmative duty for the 
        secretaries to purchase or exchange the state endowment lands 
        inside the Jerry Peak Wilderness Area for parcels outside of 
        the wilderness area, instead of just providing ``adequate 
        access.''

    In regards to this concern, language has been provided in the bill 
        to address this issue. Specifically, ``the Secretary may 
        acquire any land or interest in land within the boundaries of 
        the wilderness areas by donation, exchange, or purchase from a 
        willing seller.'' Additionally, language was inserted into the 
        bill at the request of the Attorney General's office stating 
        that ``[N]ot later than 3 years after the date of enactment of 
        this Act, the Secretary shall seek to complete an exchange for 
        State land located within the boundaries of the wilderness 
        areas designated by this title.''

    In addition, you have personally expressed to me your desire to 
        have the Secretaries purchase the state endowment lands. Given 
        my position on the Interior Appropriations Subcommittee, I am 
        committed to securing the funding necessary to implement the 
        purchase of these state endowment lands in FY 2011.

  <bullet> CIEDRA should explicitly state that the only limitation on 
        hunting, .fishing or trapping in these areas should be for 
        public safety only and specific language should be included 
        permitting Idaho wildlife managers to land in these areas by 
        plane or helicopter to manage or collar wildlife.

    I share your concern about ensuring not only that recreational 
        activities like hunting, fishing, and trapping should continue 
        in the Boulder-White Clouds area, but also that the Idaho Fish 
        and Game continues to be able to effectively manage wildlife in 
        that area. As you know, in 2006, the U.S. Forest Service and 
        the Bureau of Land Management (BLM) entered into a Memorandum 
        of Understanding (MOU) with the Association of Fish and 
        Wildlife Agencies to provide a process through which states can 
        continue to manage wildlife in wilderness areas. It is through 
        this MOU that the State of Idaho is allowed to use helicopters 
        for wolf management in the Frank Church-River of No Return 
        Wilderness Area, a decision that was recently upheld in court.

    In order to ensure that the state continues to have the tools it 
        needs to manage wolves and other wildlife, 1 will propose 
        adding language affirming the MOU to the CIEDRA language. As 
        stated above, the existing MOU gives the Forest Service and BLM 
        the ability to approve the use of helicopters and other 
        motorized vehicles in wilderness areas for wildlife management 
        when determined necessary through the Minimum Requirements 
        Decision Process, even if these activities are otherwise 
        prohibited under the Wilderness Act. Similar language was 
        included in P.L. 109-432, the White Pine County Conservation, 
        Recreation and Development Act. The language in the existing 
        MOU has already been proven effective in protecting the ability 
        of our state to manage wolves in wilderness, and I am confident 
        that including it in CIEDRA will only strengthen that 
        protection.

  <bullet> CIEDRA should contain additional language pertaining to 
        water rights that expressly prohibits, without exception the 
        establishment of any federal water rights for the wilderness 
        areas.

    As you know, the water language in CIEDRA was carefully negotiated 
        with the water expert in the Idaho Attorney General's office. 
        The specific water language states that:

    Nothing in this title--

      (1) shall constitute either an express or implied reservation by 
        the United States of any water rights with respect to the 
        wilderness areas designated by section 101;
      (2) affects any water rights--
      (A) in the State of Idaho existing on the date of enactment of 
        this Act, including any water rights held by the United States; 
        or
      (B) decreed in the Snake River Basin Adjudication, including any 
        stipulation approved by the court in such adjudication between 
        the United States and the State of Idaho with respect to such 
        water rights; or
      (3)(A) establishes a precedent with regard to any future 
        wilderness designations;

    As noted above in Section (1), CIEDRA expressly states that there 
        shall be no express or implied reservation of water rights with 
        respect to the wilderness areas nor does it affect any water 
        rights in the State of Idaho. I find it difficult to imagine a 
        reason or use in which the federal government would establish a 
        federal water right in the wilderness areas given that they are 
        all ``headwaters'' and the federal government is forfeiting its 
        right to reserve a water right at enactment of this 
        legislation.

    However, given your concerns, I will ask the Senators to either 
        include report language or to engage in a colloquy on the 
        Senate floor reinforcing that the intent of the water language 
        in CIEDRA is that:

      1) the water right language was selected based upon the fact that 
        the Idaho Supreme Court has previously determined that such 
        language does not create federal reserved water rights;
      2) the intent of CIEDRA is that there shall be no establishment 
        of any federal water rights for these wilderness areas now and 
        in the future.

  <bullet> CIEDRA should contain language that requires the Forest 
        Service and BLM to aggressively eradicate all invasive or 
        noxious species in the proposed areas.

    I share your concern about the damage that invasive and noxious 
        species can do to native vegetation and wildlife, and like you 
        I think it is important to have effective weed management 
        strategies in place in the Boulder-White Clouds area. In order 
        to ensure that the Forest Service and BLM are working 
        aggressively with the State of Idaho to manage and control 
        invasive and noxious weeds, I have asked these agencies to work 
        with the State of Idaho to develop a comprehensive weed 
        management plan in the Boulder-White Clouds. Similar plans are 
        already in effect in the Selway Bitterroot Wilderness Area and 
        the Frank Church-River of No Return Wilderness Area, allowing 
        agencies to stop the spread of invasive species and contain the 
        spread of established non-native plants. I am committed to 
        providing the funding necessary to implement such an agreement.

    You may also be interested to know that the 2006 MOU referenced 
        earlier provides authority for the Forest Service and BLM to 
        approve the use of pesticides in wilderness areas. I will 
        propose adding language to CIEDRA to affirm this authority.

    Thank you very much for your attention to my letter. If you have 
further questions regarding my letter or CIEDRA I would be happy to 
discuss them with you.
            Sincerely,
                                              Mike Simpson,
                                                Member of Congress.
                                 ______
                                 
                           Backcountry Hunters and Anglers,
                                                      May 25, 2010.
Hon. Tim Johnson,
U.S. Senate, 136 Hart Senate Building, Washington, DC.
    Dear Senator Johnson: Backcountry Hunters & Anglers is a national, 
non-profit group of sportsmen who love to hunt and fish in backcountry 
settings. We are pleased to support your recent introduction of the 
Tony Dean Cheyenne River Valley Conservation Act of 2010. This far-
sighted legislation corresponds to BHA's values of keeping backcountry 
hunting and fishing opportunities intact for our children and beyond.
    Five years ago, we wrote to you and the other South Dakota 
delegation members to express our support for this grassland wilderness 
proposal, and urged your leadership in the proposal's full support. We 
learned of the proposal from one of our original board members in South 
Dakota, Rich Gordon, who was passionate about protecting this part of 
the prairie grasslands that are unique to our nation's heartland. All 
his life, Rich enjoyed and appreciated these lands for what all true 
hunters and anglers treasure -- undisturbed habitat for mule deer, 
whitetail deer, antelope and numerous species of fish and fowl.
    However, there and elsewhere, our great hunting and fishing 
traditions face unprecedented challenges as population grows and 
sporting technology advances. For everyday folks it's increasingly 
difficult to find places for quiet, high-quality hunting and fishing, 
blessed by the solitude we seek. It's crucial for big game species to 
have undisturbed habitat for security, fawning and calving.
    That's why Backcountry Hunters & Anglers want you to know we fully 
support the Tony Dean Cheyenne River Valley Conservation Act of 2010 to 
conserve a small but significant portion of the Buffalo Gap National 
Grassland. Providing the ultimate federal protection to only 8% of this 
unique area is not too much to ask. Hundreds of thousands of national 
grassland acres in the state would still be left open to motorized use. 
Our organization has the conviction to help this worthy proposal become 
reality.
    We appreciate your leadership on this issue. The measure would not 
only protect an irreplaceable part of South Dakota and an integral part 
of its prairie pioneer heritage -- it would create the first grasslands 
wilderness in the nation. No other prairie state has had the foresight.
    We look forward to your response and to working with you on this 
important issue. We and the South Dakota sportsmen and women we 
represent thank you for supporting this historic effort. Future 
generations of hunters will be forever grateful.
            Sincerely,
                                               Mike Beagle,
                                                          Chairman.
                                 ______
                                 
                            Izaak Walton League of America,
                                                      June 8, 2010.
Hon. Tim Johnson,
Senator, U.S. Senate, 136 Hart Senate Office Building, Washington, DC.
RE: The Tony Dean Cheyenne River Valley Conservation Act, S. 3110

    Dear Senator Johnson, Thank you for introducing The Tony Dean 
Cheyenne River Valley Conservation Act (S. 3110) designating portions 
of the Buffalo Gap National Grasslands (BGNG) as a wilderness area. The 
area is a national treasure, very deserving this designation and the 
protection that goes with it.
    The Izaak Walton League of America has a long history of supporting 
wilderness. The Ikes were formed in 1922 and have supported wilderness 
legislation since 1926. The National IWLA and the South Dakota Division 
strongly support this legislation.
    Prairie grassland is the most endangered ecosystem on the planet. 
We are seeing the destruction of thousands of acres of grassland across 
South Dakota. S. 3110 will protect this precious natural resource for 
current and future generations.
    The Ikes support continuation of activities including: hunting, 
hiking, camping, horseback riding, bird watching, recreational rock 
collecting, grazing and more. All of these currently exist on the BGNG 
and will continue under this legislation. A wilderness designation will 
ensure lasting protection for the Red Shirt, Indian Creek, and Chalk 
Hills areas which are some of the best public land in our state. The 
IWLA believes this wilderness designation will greatly benefit adjacent 
communities with increased visitation from people across the nation to 
what will be our country's first national grassland wilderness.
    This visionary proposal will provide long term benefits to both 
residents and non-residents for generations to come. Thank you for this 
legislation and fitting tribute to our friend and conservationist, the 
late Tony Dean. S. 3110 has the enthusiastic support the Izaak Walton 
League of America.
                                          Jerry Schlekeway,
                                   South Dakota Division President.
                                 ______
                                 
                                     Pew Environment Group,
                                                     June 14, 2010.
Hon. Tim Johnson,
U.S. Senate, 136 Hart Office Building, Washington, DC.
    Dear Senator Johnson: On behalf of the Campaign for America's 
Wilderness of the Pew Environment Group, thank you for your 
introduction of the Tony Dean Cheyenne River Valley Conservation Act 
(S. 3310) and your efforts to move this bill through Congress. If 
enacted, your legislation will protect a portion of the Buffalo Gap 
National Grassland as wilderness, resulting in the first national 
grasslands ecosystem to be represented in the National Wilderness 
Preservation System.
    In 2002, the Bush Administration recommended that two areas in the 
Buffalo Gap--Red Shirt and Indian Creek--be designated as wilderness. 
Your legislation would be an important step in making these 
recommendations a long overdue reality.
    While the Forest Service attempts to manage these areas for 
wilderness values, this management is based on administrative decree. 
Federal wilderness legislation would provide lasting protection for 
these areas.
    Protecting a portion of South Dakota's grasslands heritage would be 
a significant conservation and scientific achievement and would also 
help sustain recreation and tourism opportunities, ensuring the 
continued economic vitality of local communities that market themselves 
around the stunning hills and vast prairies of southwestern South 
Dakota. This is good business sense.
    In particular, almost 20 percent of South Dakotans hunt annually 
and, together with visitors to the state, spend $223 million on hunting 
(SD Game Fish and Parks figures, based on 2001 economic data). Over 
5,500 South Dakotans work in jobs related to hunting activities 
resulting in over $100 million in salaries and wages. In addition, 
based on this 2001 data, 358,000 people spent an estimated $92 million 
on wildlife-watching activities.
    Although there are provisions in your proposal we consider to be 
compromises, the Campaign for America's Wilderness of the Pew 
Environment Group recognizes you have worked hard to craft a viable 
bill that addresses the needs of diverse stakeholders and constituents.

  <bullet> We would have liked to see the Indian Creek route closed. 
        Recognizing that keeping the route open was a deal breaker to a 
        number of other stakeholders, however, we acknowledge this 
        compromise as necessary to move legislation forward.
  <bullet> Despite exaggerated stories, misquotes, and sometimes 
        intentional misinformation that has been spread about grazing 
        in wilderness areas, we are confident in the statutory 
        protections the Wilderness Act of 1964 provides for established 
        grazing. Your bill contains strong grazing language that 
        statutorily respects existing ranchers' rights on the land.
  <bullet> Additionally, we appreciate your efforts to address rancher 
        and adjacent landowner concerns regarding the ability to manage 
        wilderness for fire, disease, insects, noxious weeds, and 
        prairie dogs.
  <bullet> We are confident in the protections the Wilderness Act 
        provides for inholders (both private and state landowners), 
        such as accessing their land.
  <bullet> We reiterate our support of wilderness boundaries that would 
        allow rock collectors to drive up to the popular agate beds in 
        Red Shirt. These boundaries, in addition to the open Indian 
        Creek road, would maintain the primary access that rockhounds 
        currently enjoy.

    Senator Johnson, we thank you for your vision, leadership, and hard 
work to shape balanced grasslands protection legislation. We look 
forward to working with you and your staff to move the Tony Dean 
Cheyenne River Valley Conservation Act through Congress.
            Sincerely,
                                        Mike Matz Director,
                                 Campaign for America's Wilderness.
                                 ______
                                 
       Statement of Chris Hesla, South Dakota Wildlife Federation
    On behalf of the South Dakota Wildlife Federation and it's over 
3,500 members, we applaud your leadership in introducing The Tony Dean 
Cheyenne River Valley Conservation Act of 2010 (S. 3110), legislation 
to protect a portion of the Buffalo Gap National Grassland as 
Wilderness in South Dakota.
    In 2002, the Bush Administration recommended that two areas in the 
Buffalo Gap--Red Shirt and Indian Creek--be designated as wilderness. 
Your legislation would be an important step in making these 
recommendations a long overdue reality.
    As you know, the Forest Service attempts to manage these areas for 
wilderness a value, this management is based on administrative fiat. 
Federal wilderness legislation would guarantee lasting protection for 
these areas.
    Protecting a portion of South Dakotans grasslands heritage would be 
a significant conservation and scientific achievement--creating the 
first grasslands wilderness in the nation--your legislation would also 
help sustain recreation and tourism opportunities, ensuring the 
continued economic vitality of local communities and Tribes, that 
market themselves around the stunning hills and vast prairies of 
southwestern South Dakota. This is good business sense.
    As you know, 20 percent of South Dakotans hunt annually and, 
together with visitors to the state, spend $223 million on hunting (SD 
Game Fish and Parks figures, based on 2001 economic data). There are 
over 5,500 jobs related to hunting activities resulting in over $100 
million in salaries and wages. In addition, based on this 2001 data, 
358,000 people spent an estimated $92 million on wildlife-watching 
activities.
    Although there are provisions in your proposal we consider being 
compromises, SDWF recognizes you worked hard with stakeholders and 
constituents to craft a viable bill that addresses diverse needs and 
concerns.

  <bullet> We would have liked to see the Indian Creek route closed. 
        Recognizing that keeping the route open was a deal breaker to a 
        number of other stakeholders, however, we acknowledge this 
        compromise as necessary to move legislation forward.

  <bullet> Despite misinformation, exaggerated stories, misquotes, and 
        sometimes intentional misinformation that has been spread about 
        grazing in wilderness areas, we are confident in the statutory 
        protections the Wilderness Act of 1964 provides for established 
        grazing. We respect existing ranchers' rights on the land and 
        look forward to working with you to ensure that any bill has 
        strong language to ensure established grazing rights are 
        statutorily protected.
  <bullet> Additionally, we understand and appreciate your efforts to 
        address, in statute, rancher and adjacent landowner concerns 
        regarding fighting fire, disease, and insects in wilderness. 
        Again, we are confident the Wilderness Act allows these 
        actions.
  <bullet> We also are confident in the protections the Wilderness Act 
        provides for in holders (both private and state landowners), 
        such as accessing their land. We would be very supportive of 
        restating such assurances in legislation.
  <bullet> We reiterate our support of wilderness boundaries that would 
        allow rock collectors to drive up to the popular agate beds in 
        Red Shirt. These boundaries, in addition to the open Indian 
        Creek road, would maintain the primary access that rock hounds 
        currently enjoy.

    Senator Johnson, we thank you for your vision and leadership in 
introducing S. 3110. We look forward to working with you and your staff 
during the 111th Congress to make this vision a reality.
                                 ______
                                 
 Statement of Bart Koehler, Senior Wilderness Campaigns Director, The 
             Wilderness Society's Wilderness Support Center
    It is an honor to send you this email on behalf of The Wilderness 
Society, a national conservation organization dedicated to protecting 
wilderness and helping Americans safeguard wild places, since 1935. 
Many of the founders of The Wilderness Society, including Bob Marshall 
and Aldo Leopold were vanguard conservation leaders of the U.S. Forest 
Service before they created The Wilderness Society. This missive is 
sent on behalf of our hundreds of South Dakota members, plus over 
500,000 members and supporters nationwide.
    The Wilderness Society strongly supports S. 3310, your landmark 
legislation which would secure and preserve key wild areas in the 
Buffalo Gap National Grasslands. Taking such action would establish (as 
you so wisely noted) a ``lasting legacy'' for today and for future 
generations of South Dakotans and Americans from all walks of life. 
Although only comprising 8% of the Buffalo Gap National Grasslands, the 
wild places known as Indian Creek, Red Shirt and Chalk Hills represent 
a significant public land heritage that is well worth protecting. 
Additionally, protection of these lands would bring about a better 
balance of multiple use management for the grasslands; including 
grazing, hunting, horseback riding, rock collecting, watershed 
protection, etc. We must remember that by law (Section 2 of the 
Multiple Use Sustained Yield Act of 1960, and other sections in 
Wilderness Act of 1964 and subsequent applicable Acts of Congress) that 
Wilderness Areas represent an excellent example of multiple-use----
under the sky, under the law and on the ground.
    After an eagle-eyed review, I find that the overall legislation is 
filled with standard and traditional legislative language for 
Wilderness bills dating back to the original Act. Furthermore it 
contains rock-solid language found in 1970's Endangered American 
Wilderness Act Report language on Fire, Insects and Disease; to the 
1980's Congressional Grazing Guidelines included in most all of the 
1980's era statewide Wilderness Area laws plus the newer fire language 
of California Wilderness Act of 1984 which was layered on the 
foundation of earlier Acts; to the Wildlife Management Guidelines in 
the 1990's; to the 2000's newer fire language which was again layered 
onto earlier bedrock laws; to the 2002 version of wildlife management 
language from the Clark County, Nevada Lands Law, and finally to the 
2009 Omnibus Lands Law language regarding fire, insects, diseases and 
invasive species. (I have not gone into detail about military language, 
or American Indian Tribal uses both of which are standard now.)
    As I have noted we strongly support your overall legislative 
effort. For the record, I'd like to submit these points regarding 
specific sections of your bill:

        1)   No National Park: There significant and sincere concerns 
        among South Dakota citizens that these proposed Wilderness 
        Areas would eventually be shifted to National Park Service 
        management and would then eliminate the existing grazing and 
        hunting uses of the lands----especially for the Indian Creek 
        Proposed Wilderness, which is directly adjacent to a unit of 
        Badlands National Park. While your bill does not include a 
        specific subsection on this issue it is clear that your bill 
        ensures that these lands will not become part of the National 
        Park. The specific subsections are: Section 2 (1) which defines 
        the Secretary as the Secretary of Agriculture; thereby meaning 
        that the lands are managed by the Secretary of Agriculture 
        (therefore USFS and as National Grasslands); and Section 3 (c) 
        (1), which states that the Wilderness Areas are administered by 
        the Secretary of Agriculture via the USFS and Buffalo Gap 
        National Grasslands.
          2) Size Doesn't Matter As Long As Areas Are Manageable Units: 
        a) Chalk Hills is less than 5,000 acres in size, is surely 
        qualified for Wilderness Area status in adherence to Section 2 
        (c)(3)----since it is of ``sufficient size as to make 
        practicable its preservation and use in an unimpaired 
        condition'' and b) this also holds true for Red Shirt East, 
        which is smaller than Red Shirt West, but is a very unique area 
        encircled by enforceable boundaries defined by existing roads.
          3) A Historically Used Wheeled Route Runs Between Two Units 
        Of Wilderness: This is the case for both the Indian Creek and 
        Red Shirt: a) The Indian Creek Route is a Forest System Route 
        and has been used for hundreds of years----first by the Lakota 
        and other American Indians by foot and then by horse; second by 
        wagons; then by pick-up trucks and jeeps, and now by trucks and 
        some ATVs; and b) State Highway 40 is a realigned update of the 
        multi-decade route and from Red Shirt to Hermosa and further 
        south and north of these locales. While the historic stage 
        route is within part of Red Shirt West, this fact is in keeping 
        with keeping history alive since historical values are a major 
        reason for Wilderness. ( The Chalk Hills Area is within sight 
        and ear-shot of County and Forest System roads.)
          ***The major point here is that way back in 1978 Congress 
        enacted the Endangered American Wilderness Act (P.L. 95-237) 
        along with House Report 95-540. In this report the Congress of 
        the United States----both the US Senate and US House of 
        Representatives directed the US Forest Service to abandon their 
        pure view of Wilderness which was resulting in the agency 
        refusing to recommended any areas within the ``sights and 
        sounds of civilization'' to Congress for Wilderness by law. 
        Furthermore, to boldly underline this Congressional Intent, the 
        Congress embraced new lands into The National Wilderness 
        Preservation System by way of this Endangered American 
        Wilderness Act which included areas directly adjacent to the 
        city limits of Salt Lake City, Tucson, and other major cities. 
        So. . . . . .putting this together, the ``sights and sounds'' 
        from Highway 40 or the Indian Creek Route do not, and should 
        not disqualify these above mentioned lands Congressional 
        resolve regarding this matter is clearly defined in Section3 
        (c) (10-A & B) which addresses Adjacent Management of Lands, No 
        Protective Perimeters or Buffer Zones and Non-Wilderness 
        Activities.
          4) Prairie Dogs: This is a very big issue of concern for a 
        variety of interested people. This Section 4 re-emphasizes that 
        both the Secretaries of Agriculture and Interior have the 
        authority from Congress to manage prairie dogs populations and 
        habitats on public land. This issue needs to be addressed 
        fairly and with clear-eyed dedication so it is resolved in a 
        good way.

    I'd like to make a few other points:

          1) Your wilderness proposals are primarily based on the US 
        Forest Service's Recommendations for Wilderness which were the 
        result of a Congressionally-authorized land use planning 
        process. Anyone who claims that these areas don't qualify for 
        wilderness status is simply wrong. Yes these lands are National 
        Grasslands, with their own unique history. However, over time 
        these areas have been restored by the cycle of life's seasons 
        to a natural condition that qualifies them for Congressional 
        consideration. Please recall that the word ``pristine'' never 
        appears in the Wilderness Act.
          2) Wilderness would protect these lands and keep this special 
        landscape ``like it is''. This is important to note since both 
        Red Shirt and Indian Creek have been closed to off-road 
        recreational vehicle use for years. Essentially, wilderness 
        designations would not impose major new closures in regard to 
        these two Recommended Wilderness Areas. However, wilderness by 
        law would ensure that threats from future ATV use would not 
        succeed. Further, a major decision on your part would keep the 
        Indian Creek road open for public motorized use. As you know, 
        this represents a tough compromise for us, but we're willing to 
        accept it in order that these long-deserving areas can finally 
        receive the lasting protections they need.
          3) Very important to us and many others is the grazing 
        language you intend to use. As we understand it, you will use 
        the standard Wilderness Act language that contains the 
        strongest possible wording which would protect existing grazing 
        operations with the mandate that ``grazing shall be permitted 
        to continue...''. Additionally, the Congressional Grazing 
        Guidelines will serve as THE reasonable regulations referenced 
        by law. Moreover, the Forest Service will therefore manage 
        grazing in accordance with the letter and spirit of these 
        Congressional Grazing Guidelines, thus giving further 
        protections and added management flexibility to family ranchers 
        who hold existing and longstanding grazing permits. We think 
        this is essential.

    Lastly, The Wilderness Society wants to thank you again for your 
wisdom, foresight, and leadership on this vital issue. We strongly 
support your efforts, and we look forward to working with you and your 
excellent staff in the wild times ahead.
                                 ______
                                 
                                           Trout Unlimited,
                                     Washington, DC, June 29, 2010.
Hon. Tim Johnson,
136 Hart Senate Office Building, Washington, DC.
RE: Tony Dean Cheyenne River Valley Conservation Act of 2010

    Dear Senator Johnson: On behalf of Trout Unlimited's 140,000 
members, I write to thank you for your leadership and hard work in 
developing S. 3310, the ``Tony Dean Cheyenne River Valley Conservation 
Act of 2010.'' This bill designates three new wilderness areas that 
will protect valuable grasslands for their value as habitat to trout, 
deer and other wildlife. These unspoiled public lands are used and 
enjoyed by the public and represent an enduring legacy for all 
Americans.
    Trout Unlimited's mission is to conserve, protect and restore North 
America's trout and salmon fisheries and their watersheds. By 
protecting these three important areas--Indian Creek, Red Shirt, and 
Chalk Hills--we can ensure that fish and wildlife habitat remains 
healthy and intact. We thank you for your attention to the need to 
conserve and protect these valuable resources, and we strongly support 
these wilderness designations for the Buffalo Gap National Grasslands.
            Sincerely,
                                              Keith Curley,
                                    Director of Government Affairs.
                                 ______
                                 
   Statement of Cheryl Warren, Manager, South Dakota Wild Grassland 
                               Coalition
    The South Dakota Wild Grassland Coalition applauds your 
introduction of The Tony Dean Cheyenne River Valley Conservation Act of 
2010, S. 3310. Statewide, our coalition represents well over 100,000 
hunters, conservationists, Native American tribal members, businesses, 
grassroots group members, scientists and individuals from many 
professions and walks of life. National group endorsement raises our 
support numbers well into the millions. All of us believe the 
extraordinary qualities of the ruggedly beautiful Indian Creek, Red 
Shirt and Chalk Hills areas warrant the highest, most enduring 
protection the federal government can bestow. Locally and nationally, 
we appreciate your leadership and vision in seeking to preserve these 
special wild places, as all too few like them are left on the Great 
Plains.
    As you know, the citizens' wilderness proposal would have closed 
the Indian Creek road. While some of our members still prefer this, as 
a group we made the decision to accept this compromise in order to 
support your choice of longstanding traditional access to the area for 
the greater public good.
    The National Wilderness Preservation System has blessed Americans 
with richly varied and successfully managed wild places like the Bob 
Marshall Wilderness in Montana, the High Sierra areas of eastern 
California, parts of the Southwest's Sonoran desert, the Boundary 
Waters Canoe Area Wilderness of Minnesota, cypress swamps of the Black 
Creek Wilderness on Mississippi's coastal floodplain, Michigan Islands 
Wilderness, North Dakota's Chase Lake Wilderness, Wyoming's Encampment 
River Wilderness and many more. These areas provide the Wilderness 
Act's intended ``outstanding opportunities for solitude. . .a primitive 
and unconfined type of recreation'' prized as a necessity by many 
Americans. Missing from the system, however, are national grasslands.
    Designating the country's first national grassland wilderness in 
our own state of South Dakota would be a significant and fitting 
tribute to the area's history and culture. A 2010 poll commissioned by 
the South Dakota Wildlife Federation and conducted by Moore Information 
shows the clear majority of western South Dakotans favor such a 
wilderness.
    Ranchers who hold grazing permits on the proposed lands are the 
stakeholders most affected by a grassland wilderness designation. Our 
common ground with these ranchers is that we both want the land to stay 
the way it is, undisturbed by motorized recreation or other possible 
agency development. We both want their way of life protected. We have 
done our best to learn their needs and concerns, and to harmonize those 
needs, including boundary adjustments, with wilderness guidelines. We 
have worked earnestly to convey understanding of the statutory security 
provided by the Wilderness Act and Congressional Grazing Guidelines 
that surpasses mere agency regulations.
    Still, some are distrustful of Forest Service adherence to 
management agreements (in the Forest Plan with public input, in 
individual permittee annual operating instructions, and grazing 
permits), and are concerned about arbitrary interpretations by agency 
staff. That is why we encourage your use of the clearest possible 
grazing management language, in accord with the Wilderness Act and 
Congressional Grazing Guidelines, to ensure mutual compliance.
    We appreciate your published knowledge that insect outbreaks, 
noxious weeds, disease and wildfires can indeed be controlled in 
wilderness because Congress has given the Forest Service authority to 
do so--with mechanized equipment where necessary. (Ref. House Report 
95-540 accompanying the Endangered American Wilderness Act, P.L. 95-
237, 1978) The agencies also have as much authority to control prairie 
dogs in wilderness as they do anywhere else, especially where 
wilderness values are jeopardized by resulting erosion and destruction 
of native vegetation.
    Regrettably, the mountain pine beetle epidemic in the Black Hills, 
including Black Elk Wilderness, has been used by some to categorically 
condemn wilderness. First, likening the management hazards of a 
mountain conifer forest to those possible on a prairie grassland is 
truly ecosystem apples and oranges. Grasslands are vastly less complex 
and more resilient. Second, critics do not acknowledge that these 
beetle epidemics have caused dramatic tree mortality in the Black Hills 
periodically since the late 1800s. These outbreaks typically last 8-13 
years. In the 1970s--well before the Black Elk Wilderness was 
designated--beetle damage covered most of the Black Hills. Forest 
scientists clearly state the real culprit to be forest density caused 
by wildfire suppression, which has created ideal habitat for the 
mountain pine beetle, with prolonged drought further weakening the 
trees' natural defenses.
    Nonetheless, the Wilderness Act did not foresee the damage a 
century of fire suppression would do to natural wilderness values in 
western forests. Lessons are being learned by forest managers. Language 
in the California Wilderness Act of 1984, (PL 98-425) Committee Report 
# 98-40 describes in detail the need for prescribed fire. More flexible 
management should be considered. Committee Report 95-540 (Endangered 
American Wilderness Act of 1978. PL 95-237) authorizes ``any means 
necessary to control fire, insects, and disease in wilderness areas. 
This includes the use of mechanized equipment. . .'' We agree that the 
lack of confidence in the Forest Service's effective, timely response 
to management challenges is well-founded. Therefore, current problems 
should serve as learning opportunities to direct greater agency 
accountability and efficiency.
    The Wilderness Act's purpose was to make sure that increasing 
population, expanding settlement and growing mechanization ``does not 
occupy and modify all areas. . .leaving no lands designated for 
preservation and protection in their natural condition or unimpaired 
for future use and enjoyment as wilderness.''
    Fortunately, any purist views of wilderness qualification have long 
since proven invalid. ``Untrammeled'' means unhindered, unshackled; it 
does not mean untrampled or untouched. The Wilderness Act defines 
``land retaining its primeval character and influence. . .which 
generally appears to be affected primarily by the forces of nature, 
with the imprint of man's work substantially unnoticeable.'' The word 
`pristine' appears nowhere in the Wilderness Act.
    Thanks to a half-century of beneficial partnership between Forest 
Service land managers and conscientious grazing permittees, the 
grassland areas proposed for wilderness have been well stewarded. For 
30 years, Forest Service roadless classification has helped protect the 
health of Indian Creek's and Red Shirt's natural resources from human 
impacts. And, for the past eight years, the natural wild beauty of 
these two areas has been further safeguarded by the Forest Service 
managing them as recommended wilderness. But some have asked, ``Why 
wilderness? Why now?''
    During past generations of ranching on grasslands, and in 1964 when 
the Wilderness Act was passed, no one foresaw the proliferation, size 
and power of today's all-terrain vehicles to penetrate farther and 
faster into wild, remote, rugged lands. Four-wheel drive used to mean a 
Jeep. People drove as far as their two-wheel drive pickup could go, and 
from there they walked. Technology has advanced dramatically since 
then, and will continue, as will the sport's popularity among an 
increasing population.
    The Forest Service is required to provide a broad range of 
recreation opportunities on the national grasslands, both motorized and 
nonmotorized, for a variety of experiences. They are to design an 
appropriate mix of these access activities with basic consideration of 
effects on the natural resources. ``Not every use on every acre,'' as 
you have aptly stated. Motorized riders should and do have the right to 
access and enjoy some--but not all--public lands.
    Contrary to opponents' claim that many uses will be restricted, 
there's really only one significant restriction, and one significant 
future threat: motorized recreation. We appreciate your understanding 
that leaving a modest eight percent of our country's second-largest 
national grassland (591,000 acres) for those who seek quiet solitude 
from the noise and intrusions of everyday life is only reasonable. With 
no wilderness designation, it is these people who are locked out. 
Senator Frank Church (ID) said, ``If the roads never end, there never 
will be any wilderness.'' No other recreational use of public lands has 
the potential for so few to displace or damage the experience of so 
many as does motorized recreation.
    The Multiple Use standard is used by some to argue against 
wilderness, without recognizing that wilderness recreation is one of 
the multiple uses. The 1976 National Forest Management Act, Sec. 6(e), 
required that the land and resource management plans ``provide for 
multiple use and sustained yield. . .and, in particular, include 
coordination of outdoor recreation, range, timber, watershed, wildlife 
and fish, and wilderness.'' The Multiple-Use Sustained-Yield Act states 
that ``the establishment and maintenance of areas of wilderness are 
consistent with the purposes and provisions of this Act.'' It also 
directs consideration be given to relative values of the various 
resources to be managed in harmonious coordination, not necessarily for 
the highest economic return. Wilderness, unlike motorized recreation, 
poses no resource conflict with active range management and sustained 
grazing productivity, nor with other multiple uses pertinent to the 
national grassland. Wilderness is therefore a judicious use of these 
particular lands.
    We appreciate the diligent outreach efforts your staff has made and 
continues to make, seeking to understand the perspectives of a wide 
variety of stakeholders, group by group. We believe this is an 
efficient, productive way to hear, assess and synthesize the various 
opinions in a constructive manner.
    In these polarized political times, doing the right thing isn't 
always easy. Those who oppose wilderness anywhere, anytime, for any 
reason speak fervently, as do many who are misinformed. Wilderness 
designation has always been hard, uphill work sustained by commitment, 
hope and accurate information. Senator Robert Byrd (WV) noted that the 
path of wilderness legislation can be as rugged as the land itself. We 
therefore commend the courage and resolve of your intention based on 
the bigger picture, and we stand ready to provide all possible support 
throughout the process.
    Many thousands of South Dakotans favor wilderness on these last 
wild remnants of the Buffalo Gap National Grassland to ensure our 
prairie grassland heritage. All of them, their children and 
grandchildren, as well as your own, will be grateful for your farseeing 
vision in championing this enduring American Great Plains legacy--
places where the eyes of the future can still see a unique part of the 
world as it was.
    Thank you, Senator Johnson. We look forward to working with you to 
enact S.3310.
                                 ______
                                 
           Statement of Travis Bies and Rittberger Beef, Inc.

    We are the ranchers who have the grazing permits on the proposed 
Chalk Hills Wilderness. This proposed wilderness site is a narrow strip 
of land. The riparian area south of it is not included because of prior 
development and the need to maintain that development. The riparian 
area adjacent and north of the proposed wilderness is not included 
because it is overrun by prairie dogs. The prairie dogs have destroyed 
that watershed, and the soil erosion caused by the prairie dogs has led 
to an infestation of Canada thistle, a noxious weed. The Forest ServiCe 
has not been able, or is reluctant, to control the prairie dogs and 
Canada thistle on this riparian area. No effbrt has been made by the 
supporters of the wilderness to address this issue or include this last 
riparian area. Now, the prairie dogs and noxious weeds are encroaching 
the wilderness site. More bureaucratic control which will come with a 
wilderness will allow this encroachment to continue on the wilderness 
and will destroy that land also.
    As lifelong ranchers of this area, we have observed the destruction 
of land caused by prairie dogs and noxious weeds. The financial 
hardship caused by prairie dogs and noxious weeds is devastating not 
only to us, but to our neighbors living next to this wilderness site.
    The above written statement is only one of the reasons we are 
opposed to the Chalk Hills Wilderness. This wilderness with its 
restrictions will increase our operating costs and will only be a 
fmancial burden to us. If this wilderness is approved, the land to be 
protected will be destroyed as a result of current Forest Service 
policies and bureaucratic control which will come with a wilderness 
proposal.
    The governor of South Dakota opposes this wilderness. Our local 
governments represented by the county commissioners of all our 
surrounding counties oppose this wilderness. Our tourism industry 
represented by Black Hills Badlands and Lakes Association opposes this 
wilderness. We all know this wilderness will cause a financial burden 
in this area that none of us care to have in this sagging economy.
                                 ______
                                 
                             State of South Dakota,
                                             State Capitol,
                                          Pierre, SD, May 25, 2010.
Hon. Tim Johnson,
U.S. Senate, Washington, DC.
    Dear Senator Johnson, I am writing to express my disappointment in 
your decision to introduce ``The Tony Dean Cheyenne River Valley 
Conservation Act of 2010,'' a bill to designate more than 48,000 acres 
of land in the Buffalo Gap National Grasslands (BGNG) within the 
National Wilderness Preservation System, As you are aware, 
``Wilderness'' designations have created numerous problems on federal, 
state, and private land in South Dakota, and i oppose this bill.
    The problems that arise on lands designated as Wilderness continue 
to have a detrimental effect on South Dakotans, and more acres of 
Wilderness would only exacerbate the problem. Yet, many of our citizens 
have mistakenly been led to believe, under this new designation, many 
current land-use practices--such as livestock grazing, prairie dog 
control, and noxious weed management--will be allowed to continue 
uninterrupted.
    However, recent legal actions by special interest groups have 
proven that livestock grazing and other current uses will not be 
allowed to continue under the Wilderness designation, in spite of the 
language included in 8.3310. Recent lawsuits to prevent grazing in 
Idaho's Sawtooth National Recreation Area and the Upper Missouri River 
Breaks National Monument in Montana foreshadow future litigation 
regarding the BGNG.
    And, while your bill states, livestock grazing will continue ``in 
areas in which grazing is established,'' this practice will be subject 
to the discretion of the Chief of the U.S. Forest Service. The USFS 
Chief can determine the number of cattle or sheep allowed in a 
Wilderness and use his discretion regarding the maintenance, 
reconstruction, or relocation of existing structures associated with 
livestock grazing. In practice, designating the BGNG as Wilderness will 
mean fewer animals on fewer acres for a few short years before grazing 
is completely discontinued.
    Since the passage of the Wilderness Act in 1964, the federal 
government has not demonstrated effective management practices on these 
lands, nor has it been a good neighbor to the state or to private 
landowners. The rampant Mountain Pine Beetle (MPB) epidemic in the 
Black Elk Wilderness Area of the Black Hills is just one example of 
poor land management directly caused by the limitations imposed in the 
Wilderness Act.
    While ``management activities'' are conducted in Wilderness Areas, 
the methods in which these essential activities can be carried out are 
severely limited. For instance, cutting down trees with a handsaw and 
removing them from the forest with mules makes little sense when 
thousands of acres are plagued with MPB. Gas-powered chainsaws and 
four-wheel-drive vehicles cannot be used in the Wilderness, which makes 
MPB control extremely inefficient. Likewise, the management of 75 
square miles of the BGNG for noxious weeds, invasive species, and 
native pests such as prairie dogs cannot be effective without vehicles 
and motorized equipment. Wilderness designations remove these time-
tested management tools and replace them with the ``technologies'' of 
centuries past. This gross inefficiency hinders the federal 
government's ability to effectively manage these lands.
    Ranchers have grazed livestock in southwest South Dakota since 
George Custer explored the Black Hills in the mid-1870s. For almost 140 
years, the land that is now the Buffalo Gap National Grasslands has 
been actively managed using the most effective tools at our disposal. 
And, because of active engagement, this area remains pristine, under 
federal management, and without any possibility for further 
development. A Wilderness designation will prevent hardworking South 
Dakotans from pursuing their livelihood as they have done for more than 
a century, while passing management costs onto state government and 
private landowners. Without active management, this beautiful area may 
not be around for future generations to enjoy.
            Sincerely,
                                         M. Michael Rounds,
                                                          Governor.
                                 ______
                                 
                                       Sierra Club,
                                      South Dakota Chapter,
                                                     June 10, 2010.
Hon. Tim Johnson,
Senator, 136 Hart Senate Office Building, Washington, DC.
RE: The Tony Dean Cheyenne River Valley Conservation Act of 2010 
(S.3310)

    Dear Senator Johnson: Thank you for introducing The Tony Dean 
Cheyenne River Valley Conservation Act of 2010 (S. 3310) which will 
permanently protect the Indian. Creek, Red Shirt, and Chalk Hills areas 
in the Buffalo Gap National Grassland as Wilderness, South Dakota 
members of the Sierra Club have worked to achieve this protection for 
these special lands for more than a decade and we thank you for your 
vision and leadership in protecting these special lands.
    After reviewing the text of S.3310 and the three accompanying 
boundary maps for the areas, the executive committee of the South 
Dakota Chapter of the Sierra Club has voted unanimously to endorse and 
support 5.3310 as introduced. We are delighted to extend our support 
for this legislation. Prairie grasslands are an increasingly endangered 
ecosystem and these three areas on the Buffalo Gap National Grassland 
are deserving of the designation your legislation confers and of the 
protection that comes with it.
    Of the Buffalo Gap National Grassland's entire 591,000 acre area, 
only the 48,000 acres designated in 5.3310 remain in an untrammeled 
condition. These areas are truly special and unique and without 
Wilderness protection their present condition and character will eroded 
and lost forever.
            Sincerely yours,
                                             Jim Heisinger,
                                                     Chapter Chair.
                                 ______
                                 
             Statement of Congresswoman Dina Titus (NV-03)

    Thank you, Chairman Wyden and Ranking Member Barrasso, for the 
opportunity to submit testimony in strong support of S. 3313, the Sloan 
Hills Withdrawal Act, which was introduced by my friend and colleague 
Majority Leader Reid. I am a cosponsor of H.R. 5219, the House 
companion to S. 3313, which has the support of the entire Nevada House 
delegation.
    S. 3313 and H.R. 5219 would withdraw a 640-acre site near the Sun 
City Anthem community in Henderson, Nevada, from being made available 
for mining purposes. The site had previously been designated by the 
Bureau of Land Management as appropriate for gravel and sand 
development; and two companies, CEMEX and Service Rock Products, have 
applied to lease the property.
    I find many aspects of the 640-acre project troublesome. Air 
quality deterioration caused by the proposed mining operation is a 
serious concern and the communities most directly impacted by the 
operation are home to many seniors and children who are especially 
vulnerable to air quality-related respiratory diseases. The sheer 
magnitude of the proposal will also demand a high level of water usage 
at a time when that precious resource grows scarcer every year. There 
are also serious concerns about the increase in traffic with estimates 
projecting that as many as 500 trucks could use nearby roads every day.
    Although the proposed mine site is not in my Congressional 
District, the residents of communities that would be most directly 
impacted by the project are my constituents. In April 2009, I attended 
a public meeting with more than 400 concerned residents at Independence 
Center in Anthem. I heard loud and clear that the proposed mine was 
unacceptable to my constituents for many of the reasons previously 
discussed, including health risks, increased traffic, and the large 
amount of water that would likely be necessary for the operation of the 
mine. More than 1,000 of my constituents have sent me letters declaring 
their opposition to the proposed mine and thousands more have added 
their names to a petition in opposition to the project.
    I have come to the conclusion that the potential risks of this 
proposed mining operation outweigh the potential benefits. Years ago 
this site was far from the center of residential development in Clark 
County. Today this site is practically in the backyard of many of my 
constituents. Although I understand the importance of mining to the 
economy of Nevada, I do not believe that this specific project is 
appropriate for this location. The Sloan Hills Withdrawal Act would 
ensure that an aggregate mine is not developed on this site and will 
protect the health and wellbeing of my constituents in Henderson.
    Thank you again for the opportunity to submit testimony in support 
of this important legislation. I strongly believe that this bipartisan 
bill is the right approach for Southern Nevada.
                                 ______
                                 
                                 Sun City Anthem Democrats,
                                      Henderson, NV, June 11, 2010.
Hon. Ron Wyden,
Energy and Natural Resources Committee, Washington, DC.
    Dear Senator Wyden: The Sun City Anthem Democrats Executive Board 
submits this letter in support of the passage of The Sloan Hills 
Withdrawal Act of 2010 (SB 3313). Due to the nearness of the time for 
the hearing it is impossible to obtain a vote of the entire membership 
but over the last year, while local meetings were held relating to the 
mining issue, the feelings of the Club ran heavily against such mining 
usage.
    We also respectfully request that you share this letter with the 
other members of the Energy and Natural Resources Committee in the hope 
that they will also vote to approve the bill. As you know, Senator 
Reid, with the support of Senator John Ensign, due to their familiarity 
with the area, the environment and the possible effect on the health 
and welfare of the affected residents in the area, introduced this bill 
to stop the development of the proposed 640 acre gravel pit adjacent to 
the homes of more than 30,000 Henderson residents and nearby to the 
Sloan Canyon Natonal Conservation Area. The Congressional delegation of 
Shelley Berkley, Dina Titus and Dean Heller have also introduced a 
companion bill in the House (HR 5219) opposing the mining project. 
Moreover, the Clark County Commissioners unanimously adopted the 
attached May 18, 2010 Resolution opposing the mining project. Exh. A.* 
Although we, a Democratic Club are submitting this letter, the 
opposition to the proposed mining is bi-partisan, transcends politics, 
and is uniform in that opposition.
---------------------------------------------------------------------------
    * All exhibits have been retained in subcommittee files.
---------------------------------------------------------------------------
    Thus, on behalf of the approximately 14,000 residents who live in 
the senior community of Sun City Anthem, where we are located, and 
those members of the rest of the Henderson area who would also be 
affected by this project we ask you to consider the potential health 
hazards inherent in the Cemex and Service Rock Products mining project 
or by any other bidder/claimants to the resources in the property who 
might attempt to bid on them in an auction of rights by the Bureau of 
Land Management (BLM)..
    As proposed, the mining lease, with renewal rights, grants a 30 
year right to operate, 7 days a week, 24 hours a day all year long. 
Based upon the anticipated plans and what would be the economic needs 
of the successful bidder or bidders, such operations, even with the 
limited controls which might be imposed on them, will pose serious 
health risks to people in the area, plus to the environment.
    Following are some observations as to problems that will be caused 
if the mining is allowed to proceed. Necessarilly, at this time, again, 
due to time restrictions, these recitals are general in nature but 
would be more specific with documents and evidence if requested or 
necessitated by any administrative hearings by BLM under the Code of 
Federal Regulations (CFR) related to administrative hearings and the 
BLM specifically. CFR, Part 3600, Secs. 3601 to 3604.27. Where 
appropriate there are supporting references attached.
    As to health reasons, it is obvious that seniors suffer from 
problems not necessarily common in younger residents and there must be 
some recognition of extra safeguards that might be needed to protect 
them--both physically and emotionally. Additionally, adults and 
children with asthma and other respiratory problems must be considered, 
particularly children under five (5) and seniors. Weather records for 
the area, which must be further analyzed, indicate that there are many 
days where the Sun City Area--including an area covered by the proposed 
construction of many new homes--would be affected by prevailing winds 
(much of Sun City is built on high rising hills with updrafts and 
downdrafts) and conversely, at other times, inversions, which severely 
affect the atmoshphere. Studies have shown the danger of causing a 
disruption of this nature in the environment, creating toxic dust, 
including the danger of Valley Fever. A copy of one is attached hereto 
as Exh. B. It raises the problem of arsenic, among other deleterious 
and obnoxious elements which could be released into the air by the 
blasting and mining. The heavy winds experienced in these communities 
will carry the dust and pollutants for miles. The person supplying this 
information to us is a geologist and has been monitoring the exchanges 
which have taken place related to the mining.
    Further, the physical blasting, in addition to the release of 
particulate into the air, could create a ``tremor'' and earthquake-like 
environment, and, obviously, the greater the charges used the further 
the explosions will impact and the greater the toxic concentrate found 
in the air being breathed. Somewhat palling in comparison but minor in 
relation to the extent of the exposure of harm to the people and the 
wildlife, the blasting will threaten the foundations and structures of 
homes and other buildings located within its physical impact--again, 
the larger the blast, the larger the harmful effect. This is 
exacerbated by the blasting taking place over existing earthquake fault 
lines in the area and will threaten the aquifer upon which it sits.
    Most importantly, children and education is at risk if these 
operations are allowed to take place. Attached hereto, as Exh. C, is a 
map showing the location of public schools in the area. (There are also 
private schools and those of higher education in the potentially 
affected area.) It does not take a raft of educators to prove to others 
that children, particularly the younger ones, can be deeply affected by 
noise, episodes of blasting, shaking buildings, and particulate in the 
air. Nor should it take a ream of paper to show that even more deeply 
affected are ``special education'' students--paricularly those who have 
diffculty with ``everyday life'' as it presently exists without 
additional disruptions. The effect on the students can be traumatic. 
The sparing of these students--as well as consideration of the other 
areas of concern treated above should provide the reasons why it is 
inappropriate and dangerous to approve mining in this or similar areas 
with similar issues and the bill should be passed!!
    There are other issues but, except for one that will be discussed 
more specifically below, they are not as major in terms of personal 
risk or environmental disaster as the ones discussed above but still 
require full consideration. They involve the use of heavy trucks and 
equipment, increased maintenance of the roads, highway and road safety, 
and effect on property values. As to the latter, economics is a ``two 
way'' street--the bidders/claimants wanting the property for economic 
purposes--and the homeowners wanting to preserve their existing 
economic home values--particularly in this present economic catastrophe 
the country is going through.
    As to the last major factor that should be taken into 
consideration, another reason why the bill should be passed and the 
mining operations prevented from proceeding--The project requires heavy 
use of scarce water resources. The excessive amount of water that would 
be used in the operations--a sustainable source of water which does not 
exist on the site and which is scarce for all--would require more than 
16 million gallons per week!!
    Finally, it is imperative that the bill be moved as expeditiously 
as possible. As background, two bidder/ claimants for obtaining the 
rights to the properties resources, after an administrative judge found 
that the parcels, under BLM's guidelines--and the CFR, were subject to 
being placed up for sale at a public bid, entered into settlement 
agreements with BLM where there would be no appeal of the ALJ's ruling. 
BLM must now proceed in accrdance with the mandates, restrictions, and 
authority of its statutory existence and the CFR procedures. The 
proposals, along with documents and testimony relating to the 
environmental soundness of the proposals will come before the Bureau of 
Land Management sometime in September, 2010. Opponents have a short 
period of time within which to dispute the soundness of the bidders/ 
claimants Environmental Impact Statements (EIS).
    As is known under administrative procedures BLM may not just reject 
the matter ``out of hand'' (or ``arbitrarily and capriciously''' deny 
it). At the same time BLM, under this Administrations instructions to 
agencies, are no longer to utilize economic factors as the deciding 
factor but, instead to consider the public welfare as the deciding 
force. This is in keeping with the CFR, Sec. 3601.6 :

          It is Blm's policy:

                  (a) To make mineral materials available unless it is 
                detrimental to the public interest to do so. . . 
                  ***
                  (d) To protect public land resources and the 
                environment and minimize damage to public health and 
                safety during the exploration for and the removal of 
                such materials. . . 
                  ***

    If BLM finds the proposed EIS is sufficient, despite the 
communities continued objection, if the bill has not yet then been 
enacted, BLM must accept the highest bid--and the mining may commence. 
If for some reason the bill is delayed and the adinistrative procedure 
is completed in favor of the bidders/ claimants then we would be faced 
with issues of the rights of the bidders/ claimants and the effect of 
any bill that was passed after an award under the administraitive 
procedure. The bill must be timely passed because even if the BLM 
procedures did result in a rejection of the EIS there is still the 
finding of the ALJ that the parcels are subject to appropriate leases 
and sales--and mining--and another battle such as at the present could 
again be encountered.
    Residents of the Sun City Anthem Community, which includes this 
club are adamantly opposed to this mining project and a special Task 
Force of Sun City Anthem, appointed by the SCA Board of Directors (and 
with which this club had worked with in liaison), has provided Senator 
Reid with thousands of petition signatures expressing this view.
    We again strongly urge you to vote to support SB 3313 and enter our 
letter into the record during the scheduled June 16, 2010 Committee 
hearings. Please join with Senators Harry Reid and John Ensign, our 
Congressional Representatives Delegation, the County Comissioners, and 
the thousands who oppose these mining operations in protecting the 
health of the residents of the area and the environment.
            Repectfully submitted,
                                         Richard B. Miller,
                                                          Chairman.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
